<html>
<title> - SUPPORTING AMERICA'S EDUCATORS: THE IMPORTANCE OF QUALITY TEACHERS AND LEADERS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                  SUPPORTING AMERICA'S EDUCATORS: THE
               IMPORTANCE OF QUALITY TEACHERS AND LEADERS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 4, 2010

                               __________

                           Serial No. 111-60

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
56-130                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="482f3827082b3d3b3c202d2438662b272566">[email&#160;protected]</a>  

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 4, 2010......................................     1

Statement of Members:
    Castle, Hon. Michael N., a Representative in Congress from 
      the State of Delaware......................................     5
    Chu, Hon. Judy, a Representative in Congress from the State 
      of California:
        Letters from the Indiana State Teachers Association......    88
        Questions submitted for the record.......................    94
    Guthrie, Hon. Brett, a Representative in Congress from the 
      State of Kentucky, prepared statement of...................    93
    Kildee, Hon. Dale E., a Representative in Congress from the 
      State of Michigan..........................................     6
        Prepared statement of....................................     7
    McMorris Rodgers, Hon. Cathy, a Representative in Congress 
      from the State of Washington, questions submitted for the 
      record.....................................................    95
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     4

Statement of Witnesses:
    Ball, Deborah, dean, School of Education, University of 
      Michigan...................................................    15
        Prepared statement of....................................    17
        Responses to questions submitted.........................    95
    Bennett, Tony, superintendent, Indiana Office of Public 
      Instruction................................................    65
        Prepared statement of....................................    67
        Response to question submitted...........................    96
    Burns, Jeanne M., associate commissioner for teacher and 
      leadership initiatives, Louisiana Board of Regents.........    59
        Prepared statement of....................................    60
        Response to question submitted...........................    98
    Kaplan, Jonathan A., president, Walden University............    72
        Prepared statement of....................................    73
    Parker-McElroy, Marie, cluster-based instructional coach, 
      Fairfax County Public Schools..............................    43
        Prepared statement of....................................    44
        Response to question submitted...........................   101
    Salazar, Pamela S., associate professor of practice, 
      department of educational leadership, University of Nevada, 
      Las Vegas..................................................    20
        Prepared statement of....................................    22
        Response to question submitted...........................   102
    Steinhauser, Christopher J., superintendent of schools, Long 
      Beach Unified School District (CA).........................    50
        Prepared statement of....................................    51
        Responses to questions submitted.........................   104
    Thompson, Monique Burns, president, Teach Plus...............    46
        Prepared statement of....................................    47
        Responses to questions submitted.........................   100
    Weingarten, Randi, president, American Federation of Teachers     9
        Prepared statement of....................................    11
        Additional submissions:
            Editorial from the New York Times, May 3, 2010: ``The 
              New Haven Model''..................................    10
            Responses to questions submitted.....................   105
    Winters, Marcus A., senior fellow, Manhattan Institute for 
      Policy Research............................................    24
        Prepared statement of....................................    26
        Response to question submitted...........................   106


                    SUPPORTING AMERICA'S EDUCATORS:
                       THE IMPORTANCE OF QUALITY
                          TEACHERS AND LEADERS

                              ----------                              


                         Thursday, May 4, 2010

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 2:00 p.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Woolsey, McCarthy, 
Tierney, Kucinich, Wu, Holt, Davis, Loebsack, Hirono, Clarke, 
Courtney, Polis, Chu, Petri, Castle, Biggert, Roe, and 
Thompson.
    Staff Present: Andra Belknap, Press Assistant; Calla Brown, 
Staff Assistant, Education; Jody Calemine, General Counsel; 
Jamie Fasteau, Senior Education Policy Advisor; Denise Forte, 
Director of Education Policy; David Hartzler, Systems 
Administrator; Liz Hollis, Special Assistant to Staff Director/
Deputy Staff Director; Sadie Marshall, Chief Clerk; Bryce 
McKibben, Staff Assistant, Education; Charmaine Mercer, Senior 
Education Policy Advisor; Alex Nock, Deputy Staff Director; 
Lillian Pace, Policy Advisor, Subcommittee on Early Childhood, 
Elementary and Secondary Education; Kristina Peterson, 
Legislative Fellow, Education; Alexandria Ruiz, Administrative 
Assistant to Director of Education Policy; Melissa Salmanowitz, 
Press Secretary; Mark Zuckerman, Staff Director; Stephanie 
Arras, Minority Legislative Assistant; James Bergeron, Minority 
Deputy Director of Education and Human Services Policy; Kirk 
Boyle, Minority General Counsel; Casey Buboltz, Minority 
Coalitions and Member Services Coordinator; Amy Raaf Jones, 
Minority Higher Education Counsel & Senior Advisor; Brian 
Newell, Minority Press Secretary; Susan Ross, Minority Director 
of Education and Human Services Policy; Mandy Schaumburg, 
Minority Education Policy Counsel; and Linda Stevens, Minority 
Chief Clerk/Assistant to the General Counsel.
    Chairman Miller. A quorum being present, the Committee on 
Education and Labor will come to order.
    Today is National Teachers Day, and this is a day and a 
week when we honor amazing teachers and all teachers in this 
country and all those who hopefully aspire to be teachers.
    At today's hearing, we will explore the urgent issue of how 
we can best support teachers and leaders in schools and, by 
doing so, support students in our economic recovery. Of all the 
factors involved in giving children a good education, none is 
more important than their teachers. School leaders are a close 
second. Yet despite its unique role of helping shape our future 
generations, we still don't treat teachers as professionals.
    We all know the stories of incredible teachers who are 
having success in closing the achievement gap, keeping kids in 
schools, and helping students excel, but 14 percent of the 
teachers stop teaching after their first year. More than a 
third leave after 3 years, and almost 50 percent leave within 5 
years. It is clear that we have to do a much better job of 
recruiting, retaining, rewarding, and supporting excellent 
teachers and leaders.
    We have to do a much better job of making the classroom 
reflect a modern workplace, and we have to do a much better job 
at ensuring that teacher talent is distributed equally in a 
district so that students who need the best teachers have 
access to them.
    In almost every school district across the country, the 
schools and students most in need of funding often get the 
fewest resources. Children in the highest poverty, high 
minority schools are assigned to teachers without strong 
backgrounds in their subject matter at twice the rate as 
children in wealthier schools. This leads us with an 
embarrassing and persistent achievement gap in this country and 
poses a real threat to our economic recovery and to our global 
competitiveness.
    Too often in this country, poor and minority students are 
on a trajectory toward failure without access to great schools 
or great teachers. On average, African American and Hispanic 
students reach fourth grade 3 years behind their white peers. 
Only slightly more than half the Hispanic and African American 
students graduate high school on time compared to over three-
quarters of the white students.
    High school drop-outs can have an enormous economic impact 
on our local communities and on our Nation as a whole. In fact, 
one high school drop out will cost the Nation more than a 
quarter million dollars in lost wages, taxes and productivity 
over the course of his or her lifetime. All together, drop-outs 
in classes in the class of 2008 will cost this country nearly 
$319 billion in wages over their lifetime.
    But research shows that given the right resources, we can 
change the fortune for many of these students. In Los Angeles, 
for example, a study shows us that if the district were to 
replace the least effective teachers with the most effective 
teachers for 4 years, it would completely close the achievement 
gap. That is stunning. And we will examine whether or not it is 
true. These studies, you gotta love them.
    Excellent teachers are the key to success in our schools. 
But we won't be able to resolve the many challenges facing our 
schools unless we change the way we treat teachers, talk about 
teachers, and think about teachers. To help attract and retain 
bright teaching talent, we need to make the teaching workplace 
more like what other young workers expect, to be treated like 
professionals, with respect, recognition, resources to do their 
job and to be able to collaborate with their peers.
    Other countries have recognized this. In Finland, as we 
heard here recently in this city, teachers are recruited from 
the top 10 percent of their graduating class. Teaching is the 
most sought-out profession for the highest-achieving college 
students, more so than law and medicine. But none of this 
happens on its own. It has to be part of a comprehensive and 
seismic shift in our discussions about the future of our 
education system in this country, and we need our teachers to 
help us shape that discussion.
    We already made great progress with some of these reforms 
in the Recovery Act in the Race to the Top, and districts are 
now being challenged to make progress in turning around the 
lowest-performing schools, implementing data systems linked to 
better assessments and fairly and equally distributing teacher 
talent.
    These reforms will only be successful if they are done with 
teachers, not done to teachers. At every step of the way, 
teachers must have a seat at the table. We need to reward 
teachers whose students are making significant gains in the 
classrooms. We need to provide teachers with the means and the 
time to help share their skills with less experienced teachers. 
And we need to encourage team effort in the schools.
    We also need to be smarter about where principals are 
placed in the district. Research shows that a leader's skills 
should be set to match the needs of a school, especially if it 
relates to turning around schools. If we are serious about 
closing the achievement gap and ending the high school drop-out 
crisis, about regaining our global competitiveness in the 
world, then we will have to take a serious look at supporting 
teachers.
    I look forward to hearing from our witnesses today about 
what we can do to create modern teaching workplaces that will 
help every teacher and every student succeed. And I thank all 
of them for being here today.
    But I just want to add a note that if you review the 
testimony, in the beginning of almost every set of testimonies 
today, you have all told us that the teacher is the most 
important person in this scheme of education that we have in 
this country. And those very same people now are looking at a 
series of layoffs due to a financial situation and economic 
condition that was not of their making. The financial scandals 
of Wall Street have stripped local communities of the tax 
revenues that they historically rely on to finance schools; 
local taxes, property taxes, sales taxes, as do the States. But 
because of the down turn in the economy, sales taxes are down, 
properties are being reassessed, revenues are being lost, at 
the State level and at the local school district level.
    So I think we also have to be very cognizant of that. I 
have introduced legislation. Senator Harkin has introduced 
legislation to try and stem to the extent that we can those 
layoffs. It is estimated that somewhere between 250,000 to 
300,000 teachers, really school personnel, not just teachers, 
but others who are so important to the support and the running 
of our local schools, are facing layoffs at the beginning of 
the budget year this June.
    And so I just think that that should be a backdrop because 
our response and our support for teachers isn't just about 
being in the classroom. It is about also the environment in 
which they are called upon to work and the situations that they 
are cast into, not only for themselves but many of their 
students, obviously their families are suffering these same 
kind of upsets because of the economic downturn. So I just 
think it is important. I would hope that the Congress would 
respond by providing assistance to districts to forestall these 
layoffs this year, and I would also hope for next year, but we 
shall see.
    With that, I would like to recognize Congressman Castle, 
the senior Republican at today's hearing, and the subcommittee 
chair--ranking member to the Chair.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good afternoon.
    Today is National Teacher Day--a day when we should all be honoring 
the amazing teachers in this country. But nationwide, almost a quarter 
million educators are set to lose their jobs in the upcoming school 
year.
    In my district, close to one thousand education jobs are set to be 
eliminated.
    We won't be able to educate our way to a better economy, as 
Secretary Duncan says, if our students are losing a year of learning in 
the wake of these layoffs.
    I've introduced the Local Jobs for America Act to help save 
education jobs. The bill would invest $23 billion to support education 
jobs, like teachers, janitors, cafeteria workers, guidance counselors 
and principals.
    I hope my colleagues on both sides of this committee room will 
support this bill because the most important support we can give a 
teacher, is to help them keep their jobs.
    Today we'll explore the urgent issue of how we can best support 
teachers and leaders in schools and, by doing so, support students and 
our economic recovery.
    Of all the factors involved in giving children a good education, 
none is more important than their teacher. School leaders are a close 
second.
    Yet, despite their unique role in helping shape our future 
generations, we still don't treat teachers as true professionals.
    We all know stories of incredible teachers who are having success 
in closing the achievement gap, keeping kids in school and helping 
students excel.
    But 14 percent of teachers stop teaching after their first year. 
More than a third leave teaching after three years. Almost 50 percent 
leave within five years.
    It is clear we have to do a much better job at recruiting, 
retaining and rewarding excellent teachers and leaders.
    We have to do a much better job of making the classroom reflect a 
modern workplace.
    And we have to do a much better job at ensuring that teacher talent 
is distributed equally in a district, so that the students who need the 
best teachers have access to them.
    In almost every school district across the country, the schools and 
students most in need of funding often get the fewest resources.
    Children in the highest poverty and high minority schools are 
assigned to teachers without strong backgrounds in their subject matter 
at twice the rate as children in wealthier schools.
    This leaves us with an embarrassing and persistent achievement gap 
in this country--and poses a real threat to our economic recovery and 
our global competitiveness.
    Too often in this country, poor and minority students are on a 
trajectory toward failure without access to great schools or great 
teachers.
    On average, African American and Hispanic students reach fourth 
grade three years behind their white peers.
    Only slightly more than half of Hispanic and African American 
students graduate high school on time compared with over three quarters 
of white students.
    High school dropouts can have an enormous economic impact on our 
nation as a whole.
    In fact, one high school dropout will cost the nation more than a 
quarter of a million dollars in lost wages, taxes and productivity over 
the course of his or her lifetime.
    Altogether, dropouts from the class of 2008 will cost this country 
nearly $319 billion wages over their lifetimes.
    But research shows that given the right resources, we can change 
this fortune for these students.
    In Los Angeles, for example, one study shows that if the district 
were to replace the least effective teachers with the most effective 
teachers for four years, it would completely close the achievement gap.
    That's stunning.
    Excellent teachers are the key to success in our schools.
    But we won't be able to solve the many challenges facing our 
schools unless we change the way we treat teachers, talk about teachers 
and think about teachers.
    To help attract and retain bright teaching talent, we'll need to 
make the teaching workplace look more like what other young workers 
expect: To be treated like professionals, with the respect, 
recognition, and resources needed to do their jobs.
    Other countries have already recognized this.
    In Finland for example, teachers are recruited from the top 10 
percent of their graduating class. Teaching is the most sought out 
profession for the highest achieving college students--more so than law 
or medicine.
    But none of this can happen on its own. It has to be part of a 
comprehensive and seismic shift in our discussions about the future of 
our education system in this country. And we need our teachers to help 
shape this discussion.
    We've already made great progress with some of these reforms in the 
Recovery Act and Race to the Top. States and districts are now being 
challenged to make progress in turning around the lowest-performing 
schools, implementing data systems linked with better assessments and 
fairly and equally distributing teacher talent.
    These reforms will only be successful if they are done with 
teachers--not to teachers. At every step of the way, teachers must have 
a seat at the table.
    We need to reward teachers whose students are making significant 
gains in the classroom. We need to provide teachers with the means and 
the time to help share their skills with less experienced teachers. And 
we need to encourage a team effort in schools.
    We also need to be smarter about where principals are placed in a 
district. Research shows that a leader's skill set should match the 
needs of a school, especially as it relates to turning around schools.
    If we're serious about closing the achievement gap, about ending 
the high school dropout crisis, about regaining our global 
competitiveness in the world, then we have to be serious about 
supporting teachers.
    I look forward to hearing from witnesses today about how we can 
create a modern teaching workplace that will help every teacher and 
every student succeed. Thank you for being here today.
                                 ______
                                 
    Mr. Castle. Thank you, Mr. Chairman.
    I was shocked at your--a couple of comments that you had 
concerning the studies that we get up here. I always thought 
they were all perfect, and we were supposed to just assume that 
when we got them. But you are right; they are not.
    I would like to also welcome the witnesses in both panels 
here today and offer my thanks for your participation at this 
hearing today.
    We are here today, as the chairman set forth, to look at 
the importance of quality teachers and explore ways to support 
the best educators for our kids.
    No one denies the success of our education system depends 
largely upon the quality of classroom instruction. Students 
deserve the most effective teachers because their future 
achievement may well depend upon the caliber of men or women 
standing before them in the classroom. Academic research has 
confirmed that students with excellent teachers excel, while 
those assigned to teachers who are less effective sadly lag 
behind.
    As Federal policy makers, we have a responsibility to help 
ensure teachers are equipped and trained to perform well in the 
classroom. This is a responsibility we share with State and 
local leaders, who stand at the forefront of education policy.
    I look forward to hearing from our witnesses about how we 
can support the efforts already underway that work and reform 
those that do not.
    For years, Republicans in Congress have championed 
programs, such as the Teacher Incentive Fund, to improve 
teacher effectiveness in the classroom and reward effective 
teachers. Republicans also believe in letting teachers teach, 
which means trusting the wisdom of the educators on the front 
lines and not the wisdom of bureaucrats in Washington.
    The administration has included a number of proposals in 
their blueprint for reauthorizing the Elementary and Secondary 
Education Act that touch upon teacher performance, and I am 
sure those proposals will be a part of our discussion today as 
well.
    We need to look into these issues more closely so we can 
move forward with reauthorization in a way that is responsible 
and that serves the best interest of students.
    In closing, let me say, there is no one-size-fits-all 
Federal solution to ensuring an effective teacher is in every 
classroom. But there are ways that Congress can learn from our 
partners at the State and local level, encourage innovation 
around the country, and remove harmful barriers at the Federal 
level that stand in the way of student achievement.
    We must ensure that our efforts in Washington, DC, do not 
undermine the ability for teachers and principals to make 
decisions that best suit their students' unique needs.
    Mr. Chairman, thank you again for holding this hearing.
    And thank you to the witnesses for being with us this 
afternoon.
    Chairman Miller. Thank you.
    I would like now to introduce our witnesses--excuse me. Mr. 
Kildee has a statement.
    Mr. Kildee. Thank you, Mr. Chairman.
    I really thank you for calling this hearing today. Today's 
hearing comes at a critical time in our work to reauthorize the 
elementary and secondary education. I still hold hope that we 
can finish this, this year. I know that there is much work to 
be done, and those that are testifying today will play a very 
major role.
    We really need to talk to our teachers, and I do that 
regularly, those individuals that work on the front lines of 
our education system and care about the success of the 
students. I am pleased to see a number of those professionals 
here today participating in the hearing. I have met with 
countless teachers since I left teaching myself 45 years ago. I 
got my master's degree at the University of Michigan, and I 
appreciate all the work that is done at the University of 
Michigan.
    Many of these teachers are frustrated by the conflict 
between the mounting Federal requirements and shrinking 
budgets. We certainly are seeing that this year. I see programs 
being level funded, even though more students are 
participating, which means less per student. You can't really 
justify level funding when there is an increase even in the 
customers who come in. We have to give our teachers the tools. 
We have to give them the education.
    That is why we have people like yourself in this panel here 
who are involved in the education of teachers.
    There are two things you have to look at in educating a 
teacher: First of all, that they know the various methods of 
communicating to those students and also that they know well 
the subject matter. I know when I got my master's degree at the 
University of Michigan from the Rackham School, I was teaching 
Latin. So I learned some things about teaching, great things 
about teaching, but I also, under Dr. Sweet, who was chairman 
of the Classical Language Department, dug deeper into Latin, so 
I would know my subject matter.
    And I think those two things, I think, Dr. Ball, you will 
have something to say about that.
    So I appreciate that, Mr. Chairman.
    [The statement of Mr. Kildee follows:]

Prepared Statement of Hon. Dale E. Kildee, a Representative in Congress 
                       From the State of Michigan

    Thank you Mr. Chairman for calling this important hearing.
    Today's hearing comes at a critical time in our work to reauthorize 
the Elementary and Secondary Education Act. A large part of the debate 
so far has centered on the role of our teachers and leaders. As a 
former teacher, I could not agree more.
    However, we cannot expect our teachers and leaders to reform our 
schools alone. They will need resources, quality professional 
development, the support of community partners, and above all--our 
respect.
    As we talk about turning around low-performing schools, developing 
teacher and leader evaluation systems, and closing the achievement gap, 
we should listen to the ideas of our education professionals.
    These individuals work on the front lines of our education system 
and care about the success of the students they serve. I am pleased to 
see a number of these professionals participating in the hearing today.
    I have met with countless teachers and leaders since the last 
reauthorization of ESEA and the messages are often the same.
    They are frustrated by the conflict between mounting federal 
requirements and shrinking budgets. Many feel they lack proper pre-
service training and on-the-job professional development to make a real 
difference in the classroom. And nearly all report unsatisfactory 
working conditions; whether it's crumbling facilities, outdated 
technology, a dangerous school climate, or all of the above.
    Instead of a system that appears to work against them, these 
teachers and leaders need help developing a system that works for them, 
and the students they serve.
    Through collaboration, I believe we can establish an education 
system based on continuous improvement. A system that empowers these 
professionals to turn their schools around together and a system that 
ensures educators are ready when they enter the classroom and receive 
real-time feedback and targeted professional development to grow in the 
field.
    This may take some time and significant resources, but I think we 
all agree--the stakes are too high to fall short of this goal.
    As today's discussion will show, the time has come for change. We 
must embrace this together and strive for solutions that improve the 
teaching and learning environment for all.
    I want to join my colleagues in thanking the witnesses for their 
time today. I am sure your insights will inspire a productive 
discussion.
    With that, I now yield back my remaining time.
                                 ______
                                 
    Chairman Miller. Thank you.
    Thank you very much Mr. Kildee.
    I would like now to introduce our witnesses, and again, 
welcome and thank you for your time and your expertise.
    Our first witness will be President Randi Weingarten, who 
is the president of the 1.4 million member American Federation 
of Teachers, a long-time voice for America's teachers. She also 
served as AFT's vice president and was for 12 years the 
president of the United Federation of Teachers. She will talk 
to us about how to support teachers, professional learning 
environments, and working conditions.
    And our next witness will be Dr. Deborah Ball, who I 
believe Mr. Kildee is going to introduce.
    Mr. Kildee. Yes. Thank you.
    Deborah Ball is Dean, Mr. Chairman, of the School of 
Education and the William H. Payne Collegiate Professor at the 
University of Michigan, where President Obama was just 
Saturday, as another President had been I think 50 years 
before.
    She has received national attention for helping overhaul 
the University's teaching education program. The new initiative 
aims to improve teacher effectiveness by giving teacher 
candidates more training in the field. Dr. Ball is also the 
founder of the U. Of M. Mathematics Teaching and Learning to 
Teach Project, which focuses on mathematics instruction and 
interventions designed to improve its quality and 
effectiveness.
    Dr. Ball has authored or coauthored over 150 publications 
and has lectured or made numerous major presentations around 
the world. Her research has been recognized with several awards 
and honors, and she has served on several national and 
international commissions and panels focused on policy 
initiatives and the improvement of education, including the 
National Mathematics Advisory Panel. And I welcome her today.
    Chairman Miller. Welcome.
    Our next witness will be Dr. Pamela Salazar, who is 
associate professor in the Educational Leadership Department at 
the University of Nevada, Las Vegas. She specializes in 
research on principalship and instructional leadership, 
professional development and school improvement. She also has 
authored the book, ``High Impact Leadership for High Impact 
Schools,'' which has been adopted by many school districts 
throughout the country for principal leadership training 
programs. Today she will talk to us about her research, 
including which leaders work well in what schools and 
leadership teams.
    Mr. Marcus Winters is a senior fellow at the Manhattan 
Institute and conducts research and writes extensively on 
education policy, including topics such as school choice, high 
school graduation rates, accountability, and special education. 
He has performed several studies on high stakes testing, 
performance pay for teachers, and the effects of vouchers on 
the public schools system, and his research has been published 
in many educational journals.
    Welcome to all of you. Those of you who have been here 
before know that when you begin your testimony, a green light 
will go on; about 4 minutes into your testimony an orange light 
will go on; and 5 minutes, a red light will go on, and we 
suggest that you wrap up your testimony.
    We have two panels today. I am going to try to get through 
both panels inside of 3 hours. I don't know how many members 
will be coming and going. We have some other briefings later 
this afternoon that I am worried about on the oil spill and 
some other activities going on.
    And what I will do is, we will go for a period of time, and 
if others come, we will try to go through the first panel, have 
everybody have a question. But if we aren't able to do that, 
then we will pick up with a question with the people who 
haven't had a question on the first panel with the second 
panel.
    I think you will see that this focus of these two panels on 
teaching is really about how we support teachers in the 
broadest sense but coming from a number of different angles. 
And so, obviously, we will make witnesses available for written 
questions or follow up that members want to do, but I just want 
to make sure we can fit both panels in prior to other 
interruptions that we may have later this afternoon.
    With that, President Weingarten, welcome, thank you for 
your time, and we look forward to your testimony.

 STATEMENT OF RANDI WEINGARTEN, PRESIDENT, AMERICAN FEDERATION 
                          OF TEACHERS

    Ms. Weingarten. Thank you, Chairman Miller.
    Thank you, Congressman Castle.
    Thank you other committee members for the invitation to 
testify on the reauthorization of the ESEA, particularly as it 
relates to teachers. And I know that Chairman Miller has 
already said this, but I need to commend him and the House for 
the leadership and commitment to passing the Local Jobs for 
Main Street Act, because the bill will counter the staggering 
cuts we are seeing to education budgets across the Nation.
    We can't move forward with reform when we are in this kind 
of dire economic downturn as it is affecting schools and 
teachers and kids. And what we are seeing is as many as 300,000 
educators nationwide will probably be laid off because of this 
economic downturn. So, towards this end, in Teacher 
Appreciation Week, today, and Teacher Appreciation Day, we have 
launched the campaign of ``Pink Hearts, Not Pink Slips'' to 
draw attention to these layoffs and the devastating impact they 
will have on our students and schools. And we have many, many 
buttons for anyone in this room, particularly Members of 
Congress, who may want to wear them.
    So, look, let me get back to the matter at hand. Every 
child should have access to a great public education. But 
students will not do well in school if they are not taught by 
well prepared and engaged teachers. At the same time, neither 
students nor their teachers can succeed unless, one, teachers 
are supported by competent administrators who understand not 
simply the value but the necessity of collaboration; two, the 
environment in which they are asked to learn and teach is safe, 
appropriately staffed and well equipped; and three, there is 
shared responsibility, not simply top-down accountability.
    It is often said that great teachers are not born; they are 
made. However, our Nation's approach to teacher quality 
suggests that we actually believe the converse is true, that 
great teachers are fully born, ready, willing, and able, and 
forward prepared for that role.
    The truth of the matter is that good teaching is an art 
built upon a firm foundation. We have to begin, and I know that 
there are several others on this panel who will talk to this 
issue, but we have to begin by making sure that teachers get 
good preparation in the schools they attend. High quality 
induction programs for new teachers should be required for all 
districts and should be developed collaboratively by teachers 
and administrators.
    Once teachers are in the classroom, they should receive 
ongoing, embedded, relevant professional development that is 
part and parcel of a valid evaluation system. As you see, the 
AFT has been now trying to merge both development and 
evaluation together in a continuous development and evaluation 
system, so that we don't simply provide snapshots, but that 
systems can be used to inform teaching and learning.
    Now, ultimately, these factors, meaning ensuring that we 
support good teaching, are obviously not divorced from what 
students need to succeed. But I would also press upon looking 
at the out-of-school factors because we know that they are 
relevant as well in terms of how a child performs.
    Now, you know we have focused on ways to improve teacher 
development and evaluation programs. We know we have to focus 
on out-of-school environment issues. We know that there are 
ways to help ensure that teachers come to hard-to-staff 
schools. We know how to do a lot of this.
    So let me, before my time is up, let me just focus on two 
little things, or two things that we have just done. Take the 
contract and the evaluation system that the teachers and school 
system just bargained in New Haven. What it demonstrates 
through collaboration and collective bargaining, that you can 
use those to secure tools to create systemic and transformative 
change. And we have asked for the editorial about the New Haven 
contract that just showed up in yesterday's New York Times to 
be part of the record.
    [The information follows:]

                 [From the New York Times, May 3, 2010]

                          The New Haven Model

    To improve the quality of schools, districts need a rigorous system 
for evaluating the quality of teaching--rewarding teachers who do their 
jobs best and retraining or removing those who fail their students. The 
city of New Haven and the American Federation of Teachers deserve high 
praise for the new teacher training and evaluation system they unveiled 
earlier this week.
    The proposal, which deserves swift approval from the board, shows 
what can go right when school districts and unions work together.
    In most schools today, teacher evaluations are not worthy of the 
name. An administrator typically observes the teacher at work once or 
twice during the year. Nearly every teacher passes--even at the most 
dismal schools. Struggling teachers rarely get the help they need to 
improve. Once they are tenured, it is nearly impossible to dislodge 
them.
    The New Haven system would completely rebuild the evaluation 
process. Instructional managers, mainly principals and assistant 
principals, will be assigned to teachers to help them lay out academic 
goals and development plans. These managers will then meet with the 
teachers throughout the year to give detailed feedback.
    At the end of the year, teachers will receive a rating, on a 1-to-5 
scale, based on how much students learn, how well teachers do their 
jobs and how well they collaborate with colleagues.
    Teachers rated a 5, or exemplary, will be eligible for promotion to 
leadership positions, in which they share their skills with colleagues. 
Teachers who are rated at the 2 level, which means they are 
``developing,'' must improve within a reasonable but limited span of 
time if they wish to keep their jobs. Teachers who are rated at the 1 
level will receive intensive guidance and coaching. If they do not 
improve they can be dismissed as soon as the end of the school year.
    New Haven will need to reallocate resources for this system to 
work. It will need to start by shifting some of the burden for school 
operations from principals to lower-level administrators, so that 
principals can invest more time in novice or struggling teachers.
    Many high-performing charter schools have already adopted similar 
systems, with measurable success. If New Haven moves ahead, it could 
quickly find itself at the forefront of the national effort to improve 
the caliber of instruction in the public schools.
                                 ______
                                 
    Ms. Weingarten. In terms of professional development, we 
think that if we have grant programs for teacher centers that 
provide comprehensive professional development, information on 
research and curricula, assistance for new and veteran 
teachers, and an opportunity for teachers to direct their own 
professional growth, that will help hugely.
    Lastly, I want to focus on evaluation systems. The ESEA 
reauthorization should establish a pilot program for LEAs that 
allow for the collaborative development and implementation of 
transparent and fair teacher development and evaluation 
systems. The goal of such a pilot is to develop more dynamic 
evaluation systems and learn from them. Instead of relying on 
inadequate measures, like a single student test score, we have 
to take the time to develop these systems.
    And ultimately, again, I go back to what we just did in New 
Haven. This is the best model that I have seen. We have used 
collective bargaining in a way to transform an entire district 
through the transformation of their development and evaluation 
system. And I know if you create the opportunity for us to 
create those pilots to do that, we will transform teaching and 
learning in this Nation.
    Thank you very much.
    [The statement of Ms. Weingarten follows:]

           Prepared Statement of Randi Weingarten, President,
                    American Federation of Teachers

    Chairman Miller, Ranking Member Kline and committee members, I am 
Randi Weingarten, president of the American Federation of Teachers 
(AFT). Thank you for inviting me to testify on the reauthorization of 
the Elementary and Secondary Education Act (ESEA), particularly as it 
relates to teachers.
    Before I begin, I would like to thank Chairman Miller for his 
leadership and commitment to passing the Local Jobs for Main Street 
Act, a bill that will help local communities preserve jobs for 
educators, avoid increasing class sizes and shortening school days, and 
maintain core academic programs that help the students who need them 
most. The school budget cut situation is devastating, the worst it has 
been in anyone's memory. Current projections show that by the end of 
this school year as many as 300,000 educators nationwide will be laid 
off because of the dire financial situation facing states and 
localities. We are doing all that we can to reverse this, and I know 
many of you are, too. Toward that end, and as part of Teacher 
Appreciation Week, the AFT is launching a campaign--``Pink Hearts, Not 
Pink Slips''--to draw attention to these layoffs and the devastating 
impact they will have on our students and on our schools and 
communities.
    ``Pink Hearts, Not Pink Slips'' is our way to raise awareness among 
parents, the public and the media about what school districts and 
colleges are facing now and will continue to face in the next school 
year. We are encouraging as many people as possible to wear a pink 
heart on May 4 to help spread our message. I have brought a bag of 
buttons--enough for everyone on the committee.
    I can tell you firsthand that these cuts are serious. I recently 
visited California, where the cuts will be nothing short of 
catastrophic for the state's public school students. I visited El 
Dorado Elementary School in San Francisco, where 13 of 20 teachers 
received layoff notices in March. The teachers there were most 
concerned about what will happen to the school and its students who are 
low-income, if it loses so many teachers. I was also proud to join more 
than 10,000 teachers, school employees, parent and community groups on 
the last leg of their 48-day, 365-mile ``March for California's 
Future.'' Like the teachers at El Dorado, the marchers weren't thinking 
about themselves, they were marching for children's futures. Finally, 
during a visit to New Mexico in early April, I participated in a town 
hall meeting in Albuquerque. Our leaders and members there echoed many 
of the fears and concerns expressed in California about budget cuts and 
their impact on teachers and students.
    There's another point I'd like to make. Every child should have 
access to a great public education. And all public schools--whether 
they are charter schools (where 3 percent of our public school children 
are educated) or non-charter public schools (where 97 percent of these 
children are educated)--should have high standards and real 
accountability. But it seems to me that the weight of our efforts, our 
resources and our support should be on the schools that educate 97 
percent of our kids.
    Students will not do well in school if they are not taught by well-
prepared and engaged teachers. At the same time, neither students nor 
their teachers can succeed unless (1.) the teachers are supported by 
competent administrators who understand not simply the value but also 
the necessity of collaboration; (2.) the environment in which they are 
asked to learn and teach is safe, appropriately staffed and equipped; 
and (3.) there is shared responsibility--not top-down accountability.
    The AFT firmly believes in and is committed to the proposition that 
high standards and expectations must be set for students and teachers. 
We know, however, that it makes no sense to simply set standards. We 
have to provide students and teachers with the tools they need to help 
meet those standards. That is why the last movement to create high 
standards and expectations didn't work as well as any of our leaders 
and members would have wanted. And as the agreements in the District of 
Columbia and New Haven, Conn., suggest, collective bargaining can be an 
important vehicle to securing these tools.
    It is often said that great teachers are not born, they are made. 
Despite the frequency with which this is said, our nation's approach to 
teacher quality suggests that we believe the converse is true--that 
great teachers are born fully prepared for the role. The truth of the 
matter is that good teaching is an art built upon a firm foundation. We 
must begin by making sure teachers receive good preparation in the 
schools that they attend. This is something the AFT addressed more than 
12 years ago in our report, ``Building a Profession.'' Graduation from 
teacher education or alternative certification programs should not be 
considered the end of teachers' training. New teachers need time to 
develop the skills and experience necessary for independent practice in 
their initial teaching assignments, including the skills necessary to 
work effectively with paraprofessionals and other support staff. To do 
this, high-quality induction programs for new teachers should be 
required for all districts and should be developed collaboratively by 
teachers and administrators.
    These induction programs should provide for a reduced workload, to 
allow time for professional development activities--activities such as 
observing master teachers, talking with colleagues about teaching and 
learning, and responding to the guidance offered by mentors who review 
the novice teachers' practice and recommend strategies to improve their 
classroom performance. Such programs should include a high-quality 
selection process to identify and train mentor teachers; adequate 
training and compensation for these mentors; and time for them to 
genuinely teach, support and evaluate beginning teachers.
    And once teachers are in the classroom, they should receive 
ongoing, embedded professional development that is part and parcel of a 
valid evaluation system. We have proposed the overhaul of existing 
systems so they don't simply provide snapshots but can be used to 
inform teaching and learning.
    These requirements are not divorced from what students need to 
succeed: They are an integral part--along with out-of-classroom 
factors--in determining how well our students perform.
    This reauthorization of ESEA presents an opportunity to improve 
teacher development and evaluation programs; to appropriately address 
school-environment issues that limit efforts to attract teachers to 
hard-to-staff schools and impede teaching and learning; and to help 
narrow the achievement gap between advantaged and disadvantaged 
students.
    ESEA should also help ensure that teachers have the tools, time and 
trust they need to succeed, including offering teachers and students an 
environment that sets everyone up for success. Professional learning 
environments should include small classes, solid curriculum, healthy 
and adequate facilities (incorporating the most current technology), 
and opportunities for parental involvement. These are components that 
school systems should be held accountable for providing teachers and 
students so they can succeed. Indeed, as the New Haven contract and the 
evaluation systems that the teachers and school system just bargained 
demonstrate, that combination of collaboration and collective 
bargaining can create systemic and transformative change.
    It is also critically important that teachers have the time to 
share, grow and work together so they can resolve student issues, share 
lesson plans, analyze student work, discuss and replicate what works, 
and avoid replicating what isn't working. We need to create a school 
environment that allows students to be supported by a team of teachers 
and administrators, not just the one teacher standing in front of the 
classroom.
    One AFT priority (others are included in our formal 
recommendations), is to establish through ESEA a discretionary grant 
program for teacher centers that provide comprehensive professional 
development, information on research and curricula, and assistance for 
new and veteran teachers. Teacher centers also would provide an 
opportunity for teachers to direct their own professional growth, as 
well as to collaborate with their colleagues, community groups, 
foundations and universities on school improvement efforts. Programs 
would be funded through local education agencies (LEAs) and developed 
in collaboration with teachers unions. In New York City, teacher 
centers were a crucial part of the Chancellor's District, a program 
that resulted in significant gains in student achievement.
    The reauthorization also should refocus the law on improving the 
quality of instruction by incorporating research-based professional 
development as well as curricular supports for teachers and 
paraprofessionals. In addition, a separate class-size reduction program 
with a concentrated formula for sending funds to high-poverty schools 
should be restored. This is important to students and their parents--as 
well as to teachers. Teachers will tell you this is critical to help 
them differentiate instruction for students and, in general, to help 
them know their students and their needs.
    Much has been written about how to staff schools that struggle. 
Attracting and retaining qualified teachers for low-performing schools 
cannot be accomplished simply by forcing teachers to transfer or 
offering to pay them more. Report after report--including those that 
survey teachers, such as the recent Gates study--makes this point 
abundantly clear. Instead, ESEA should provide federal funding to help 
districts make the schools attractive places in which students can 
learn and teachers can teach. How can this be accomplished? First, 
physical plant and other working conditions need to be addressed, 
including creating a safe environment for employees and students. 
Second, meaningful professional development with ongoing instructional 
supports must be in place. Finally, ESEA should guarantee that teachers 
have a voice and an established role in developing and implementing 
policies that affect their students, profession and schools.
    In addition to supporting efforts to attract and retain qualified 
teachers, the AFT believes we need to take a serious look at how to 
improve teacher evaluation systems. There is general and widespread 
agreement that these systems do not work as currently constructed. The 
AFT has spent a great deal of time on this, working with a task force 
of our members and local and state leaders. We were helped in this 
effort by an advisory group of top teacher-evaluation experts. The AFT 
task force concluded, as outlined in a speech I gave earlier this year, 
that the common ground on teacher quality is to create systems that 
continuously develop and accurately evaluate teachers on an ongoing 
basis. Unfortunately, poorly constructed evaluation systems miss a 
prime opportunity to systematically improve teacher practice and 
advance student learning. In addition, the current systems, despite 
their deficiencies, too often form the basis for many consequential 
decisions, such as whether a teacher is deemed to be performing 
satisfactorily, receives tenure, or is dismissed for what is determined 
to be poor performance.
    To begin to develop adequate teacher development and evaluation 
systems, the ESEA reauthorization should establish a pilot program for 
LEAs that allows for the collaborative development and implementation 
of transparent and fair teacher development and evaluation systems. 
These models should aim to continuously advance and inform teaching as 
a means to improve student learning. The focus of such systems should 
be on developing and supporting great teachers, not simply on 
evaluating them. Investing in teachers and providing them with 
requisite supports must go hand in hand with the development and 
implementation of evaluation systems. These systems should be 
negotiated with the collective bargaining representatives or exclusive 
recognized representatives of teachers, and should include multiple 
measures of teaching practice as well as multiple measures of student 
learning. The key--as was the case in New Haven--is to bargain the 
systems, and if no bargaining exists, to ensure that teachers' voices 
are heard. To do otherwise means that once again these systems will 
devolve to pro forma checklists or ``gotchas''--essentially the status 
quo. And these systems should drive support for teachers throughout 
their careers by including induction, mentoring, ongoing professional 
development and career opportunities.
    The goal of such a pilot is to develop more dynamic evaluation 
systems and learn from them. Instead of relying on inadequate measures 
like a single student test score, the goal must be to develop systems 
to help promising teachers improve, enable good teachers to become 
great, and identify those teachers who shouldn't be in the classroom at 
all. To adequately do this, we must take the time, with teachers, to 
develop a system of professional growth and evaluation that reflects 
the sophistication and importance of their work. Any valid evaluation 
pilot will consider both outputs (test data, student work) and inputs 
(school environment, resources, professional development). And it must 
deconstruct what is working and should be replicated, as well as what 
isn't working and should be abandoned.
    Let me give you a firsthand example of why developing such pilots 
is so important. Recently, the New Haven Federation of Teachers and the 
New Haven school district were able to negotiate a breakthrough 
contract that sets out a new teacher evaluation system.
    The contract establishes a labor-management committee to determine 
what constitutes ``student progress'' and how much weight it should be 
given in evaluations. The contract also establishes high-quality 
intervention through a peer assistance and review program staffed by 
full-time, union-selected educators, and reaffirms tenure and the 
principle of fair dismissal for educators.
    To provide the flexibility that supports innovation, the contract 
also establishes a process for compensated changes to school working 
conditions, such as extended school hours, if 75 percent of building 
staff approve the change. And it authorizes conversion of up to three 
underperforming schools into union-represented charter schools, with a 
guarantee of no layoffs and full transfer rights for staff who wish to 
work in other buildings.
    ESEA should also provide a clearinghouse so that best practices 
gleaned and implemented in the pilot projects can be disseminated 
broadly, with the goal of widespread replication throughout America's 
public schools.
    We know that a natural outgrowth of teacher evaluation systems will 
be differentiated compensation systems. We know from the firsthand 
experience of our affiliates that differentiated compensation systems 
developed and implemented with the full support and collaboration of 
teachers can succeed. We have seen too many top-down plans fail because 
they lacked teacher buy-in and collaboration.
    If the goal of differentiated compensation systems is simply to 
compensate teachers differently, systems can be easily developed that 
sort teachers into ``effective'' and ``ineffective'' categories and 
compensate them accordingly. But if the goal is to improve teaching and 
learning, compensation systems must be one component of comprehensive 
teacher development and evaluation that supports and nurtures 
educators' growth as well as evaluates their performance and affects 
their compensation.
    As president of a labor union, it is my job to represent our 
members, and I succeed in that job only when I help them do their jobs 
well. They make it easy because of their extraordinary commitment to 
providing their students with the best education possible.
    Last summer, we asked our members the following question: When your 
union deals with issues affecting both teaching quality and teachers' 
rights, which of these should be the higher priority--working for 
professional teaching standards and good teaching, or defending the job 
rights of teachers who face disciplinary action? By a ratio of 4-to-1 
(69 percent to 16 percent), AFT members chose working for professional 
standards and good teaching as the higher priority.
    No one should ever doubt that teachers want to do what's best for 
their students, and they want to be treated as professionals. No 
teacher--myself included--wants to work alongside ineffective teachers. 
Schools are communities where we build on each other's work. When a 
teacher is foundering, there are not only repercussions for the 
students, but also for the teachers down the hall. When it comes to 
those teachers who shouldn't be in the classroom, it is other teachers 
who are the first to speak up.
    They--and the AFT--want a fair, transparent and expedient process 
to evaluate teachers so that those who need help receive it, and those 
who don't improve after being provided with help can be counseled out 
of the profession. Simply talking about ``bad teachers'' may give 
comfort to some, or be a rhetorical response to the terrible budget 
situation we now all face, but it does nothing to build a teacher 
development and evaluation system that will support and strengthen good 
teaching and great teachers. And that is why we will continue to speak 
out against those who believe that simply subjectively removing 
teachers is the answer, while they ignore the tough but important work 
required to develop a more comprehensive teacher development and 
evaluation system.
    Imagine a system in which teachers have time to work together to 
tackle issues around student learning, share lesson plans, analyze 
student work, discuss successes and failures, and learn through high-
quality professional development. Imagine a system in which students 
can't fall through the cracks--because they're backed by a team of 
teachers, not just the one at the front of the room. I just saw that at 
a school in Albuquerque, N.M.--Ernie Pyle Middle School--which is 
turning around through collaboration among not just teachers but all 
stakeholders.
    In addition to tools and time, we must also foster a climate of 
trust. Teachers must be treated as partners in reform, with a real 
voice. Trust isn't something that you can write into a contract or 
lobby into law. Trust is the natural outgrowth of collaboration and 
communication, and it's the common denominator among schools, districts 
and cities that have achieved success.
    Teaching isn't magic. It's hard, rewarding work that requires 
skill, patience, experience, love of children and support from others. 
It can't be done well without all of the things I've talked about here, 
nor can it be done well if students don't have their needs met outside 
the classroom. It can't be done unless we invest in broad, deep and 
engaging curricula that are aligned with the well-respected common core 
standards and the yet-to-be-developed assessments. And it cannot be 
done unless we provide wraparound services, where needed, to help 
ensure that all students can perform on a level playing field that 
allows them to compete with and overcome the negative impact of 
poverty. We must have a system of 360degree accountability--real 
demonstrable responsibility, reciprocity and collaboration--for all 
those with an interest in the enterprise of education. We can't wish 
our way to high-quality teaching and an education system that gives all 
children, no matter their ZIP code, a great education. We have to 
legislate, implement and support our way to those goals. This 
reauthorization is an opportunity to do just that.
    Thank you again for this opportunity to present the views of the 
AFT and our more than 1.4 million members on this important matter.
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. Ball.

 STATEMENT OF DEBORAH LOEWENBERG BALL, PH.D., DEAN, SCHOOL OF 
               EDUCATION, UNIVERSITY OF MICHIGAN

    Ms. Ball. Good afternoon, Chairman Miller, Congressman 
Castle, committee members, thank you very much for inviting me 
to testify today. My goal this afternoon is to explain to you 
what it would take to get effective teaching, teaching at scale 
in all our Nation's classrooms. And although my argument 
applies to the teaching portion in general, I am going to focus 
my remarks this afternoon on beginning teachers.
    I hope you will remember just two things from my testimony. 
First, we let people into classrooms in this country without 
knowing that they can perform, and the students who most need 
good teaching are the least likely to get those teachers. This 
is unethical.
    Second, we actually do know how to change this, so I am 
going to concentrate on explaining to you what the elements are 
of what it would take to change this.
    Let me make the problem as clear to you as possible.
    We want to improve the learning of U.S. students, but we 
don't have a system to supply skilled teachers to every 
classroom. Right now, teachers are considered qualified simply 
by participating in an approved program or completing an 
academic major. This means that being qualified does not depend 
on demonstrating that you can teach. Imagine if we allowed 
pilots to earn licenses without assessing whether they could 
fly or granted medical licenses to people who had merely 
excelled in biology. What we currently do to supply teachers to 
classrooms is dangerous for our Nation's students. It is not an 
overstatement to tell you that this is a problem of crisis 
proportions.
    We must stop wasting energy debating whether teachers 
recruited one way or another are more effective. My argument is 
not an argument for or against either so-called traditional or 
alternative pathways into teaching. What matters most is that 
graduates of any pathway be capable of effective practice.
    Many people have ideas about how to improve teaching. Some 
think we should make it easier for people to enter the 
classroom. Some propose that we fire bad teachers, pay good 
ones more, or create incentives to recruit better teachers. And 
although all of these may sound sensible to you, none of them 
is sufficient to solve the core problem that ensuring that 
every teacher in every classroom can do the work we are asking 
of him or her.
    There are two reasons why training--training--is crucial. 
One has to do with the nature of the work of teaching itself, 
and the other has to do with what I am going to call the scale 
problem. First, despite how commonsense, commonplace it may 
seem, teaching is far from simple work. I did it myself for 
over 17 years, and so I speak from experience as well as from 
the research I have done. Doing it well requires, as 
Congressman Kildee said, detailed knowledge of the domain for 
which you are responsible for teaching the students and a lot 
of skill in making it learnable.
    In my written testimony, I provided you with a simple 
example of a math problem to give you some experience of the 
difference between doing a math problem and knowing it well 
enough so that you could teach fourth grade.
    Teaching also requires good judgment and a tremendous 
capacity to relate to a wide range of young people. It involves 
a few other really important things, too, such as the ability 
to manage a classroom, to interpret data on student 
performance, to use appropriate instructional tasks, to conduct 
a productive discussion with a group of 30 sometimes unwilling 
young people, and to communicate with their parents.
    By the way, it may be important for you to realize that 
raising standards for K-12 education, which many States are 
doing, will make teaching still more demanding. Teaching 
complex academic skills and knowledge, not to mention preparing 
students for working collaboratively in an increasingly 
networked world, is considerably more difficult than teaching 
basic skills.
    So my first point is that teaching is complex work and 
requires more than being smart and caring about kids.
    Here is my second point. Building teaching quality is a 
problem of massive scale. The teaching force numbers over 3.6 
million. No other occupation in the United States even comes 
close to that size. This means that we have to help large 
numbers of regular Americans develop the ability to teach 
effectively. Even if super smart and highly educated people 
could teach effectively without training--and a few do, but 
most don't--there simply aren't enough such people to fill 
every classroom in this country. And in this next 5 years, we 
are going to need many, many new teachers due to a massive wave 
of retirement. Some estimates go as high as 1.7 million new 
teachers in the next 7 years.
    But there is hope. We do actually know what to do to fix 
this. We must establish specific standards for teaching 
practice and build a professionally valid licensure system. 
Assessments would focus on teachers' content knowledge of the 
kind I described a moment ago, their actual skill with working 
with the instructional practices most important for students' 
learning, and their persistence in working to make sure that 
every one of their students learns. These assessments would be 
substantially different from the ones we currently have in this 
country which do not, for the most part, focus on the ability 
to teach.
    To prepare teachers for these standards, we would need to 
design a system of high-quality rigorous training that is 
centered on practice. This system would have three key 
components: A curriculum focused on the highest leverage 
instructional practices, and the specialized knowledge of the 
academic domain that teachers are responsible to teach; second, 
close practice and feedback in clinical settings so that 
teachers can be deliberately taught and explicitly coached with 
the skills to reach a wide range of learners; and third, highly 
credible and predictive professional assessments of knowledge 
and skill, so that no one enters a classroom without 
demonstrated capacity for effective performance as a beginning 
teacher.
    In conclusion, students must have teachers who are prepared 
to help them learn, not beginners who are struggling with their 
responsibilities. Allowing teachers to learn on our young 
people is unethical. Teaching is intricate work that can be 
learned to high levels of skill with appropriate training. We 
have not done that yet in this country through any approach. It 
is time to mobilize the expertise, knowledge and will to build 
a system that can supply skilled teachers to our Nation's 
classrooms. Thank you.
    [The statement of Ms. Ball follows:]

     Prepared Statement of Deborah Ball, Dean, School of Education,
                         University of Michigan

    My name is Deborah Ball. I am a former public school elementary 
school teacher and currently professor and dean of the School of 
Education at the University of Michigan in Ann Arbor, Michigan. I 
conduct research on mathematics teaching and learning. Every summer I 
also teach mathematics to fifth grade students who are struggling in 
school.
    My goal is to provide you with an overview of the problem that is 
often called ``teacher quality'' and to explain what it would take to 
get high quality teaching at scale in our nation's classrooms.
    I hope you will remember two things from my testimony:
    First, what we are doing in this country is unethical. We let 
people start teaching who have not yet demonstrated that they can 
perform. And, further, the students who most need skillful and highly 
effective teachers are least likely to get them.
    Second, we know how to change this and must do so deliberately and 
without delay. I will explain the key elements of what it will take.
    Let me begin by explaining the problem that we must urgently try to 
remedy: We do not have a coherent system to supply skilled teachers to 
every classroom and to every student in this country. This is a problem 
of crisis proportions when we consider the persistent underachievement 
of American young people, and of schools that lack the resources and 
expertise to prepare our youth for this rapidly changing global 
society.
    Every profession has this problem. There is a difference between 
reading about how to put in an intravenous line and the first time one 
tries to do it on a patient. Or landing an airplane in fog, rain, or 
blowing snow using only the instrument panel. These skills take both 
head knowledge and hand knowledge, and they take time to develop. In no 
other profession in this country do we presume that people who are 
trying something for the first time, or second, or third, can be given 
full responsibility for the task or left alone to figure it out.
    Many people have ideas about improving ``teacher quality.'' Some 
proposals focus on how to identify and fire incompetent teachers. 
Others seek to increase the pay of teachers who are effective in 
producing student learning. Still others create incentives to attract 
more bright people to the teaching profession. And some focus on 
restricting the programs through which teachers may be prepared for 
practice. Not one of these is sufficient to solve the core problem: 
that of ensuring that every teacher, in every classroom, can do the 
work we are asking of him or her. What we need is quality teaching. 
This is a problem of training, both initial and continuing, and not 
merely one of sanctions, rewards, or other incentives.
    There are two reasons why: First, despite how commonplace it may 
seem, teaching is far from simple work. Doing it well requires detailed 
knowledge of the domain being taught and a great deal of skill in 
making it learnable. It also requires good judgment and a tremendous 
capacity to relate to a wide range of young people, understand culture, 
context, and community, and manage a classroom. It requires 
interpreting and using data to improve the effectiveness of 
instruction. And as we seek to increase the academic standards and 
demands that we want our young people to meet, the challenges of good 
teaching will only escalate. Teaching complex academic skills and 
knowledge, not to mention skills of collaboration, interaction, and 
Second, building teaching quality is a problem of massive scale. The 
teaching force numbers over 3.6 million--a staggering size. No other 
occupation even comes close. This means that it is crucial that we 
create high quality teacher education and professional development that 
will help large numbers of regular people develop the ability to teach 
effectively, whoever their students are. Simply recruiting bright 
people to the profession or providing incentives to effective teachers 
cannot come even close to solving the problem.
    One problem is that although one needs to know the domain really 
well, accomplished experts and very smart people are not automatically 
good at making their expertise explicit to others. And they can have a 
really hard time figuring out how someone else is thinking.
    The following simple example illustrates my point. Compute the 
basic multiplication problem 49 times 25. The answer? 1225.
    Can you figure out why a fourth grader might think the answer was 
1485? Try to figure out what steps would produce this result:

                                    49
                                  x 25

                                 ------
                                   405

                                  108 

                                 ------
                                 1,485

    (If you cannot figure it out, I provide an explanation at the 
end.\i\ Don't worry: Interestingly, most mathematicians are stumped by 
this, too.)
---------------------------------------------------------------------------
    \i\ 9 x 5 = 45. If someone ``carries'' the 4 and places it above 
the 4 in 49, and adds the 4's together (4 + 4 = 8) and then multiplies 
8 x 5, the result is 40; hence, 405 on the first row. Similarly, if 
someone multiplies 5 x 2 = 10, writes the 1 above the 4 in 49, and then 
adds 1 + 4 = 5, and multiplies 5 x 2 = 10, the result is 108. In this 
multiplication, the ``carried numbers'' must be added after 
multiplying, not before. Can you explain why, beyond saying that you 
were taught to do it that way? Teachers not only need to be able to 
figure out, swiftly, what processes might lead to difficulties, but 
they must also be able to explain or remedy in ways that students can 
understand. Being able to do this is more than simply knowing how to 
multiply.
---------------------------------------------------------------------------
    This example helps to show the kind of insight about the subject 
that teachers must have in order to help others learn the subject. Even 
if very smart and highly educated people could teach effectively 
without training, there are just not enough such people to fill every 
classroom in this country. And skilled teaching requires much more than 
being ``good at math'' or being a good writer. To achieve high levels 
of learning for all our nation's students, good professional training 
and assessment of teaching are essential.
    We need to build a system so that all beginning teachers can 
perform competently from their first day in the classroom, no matter 
how they enter teaching. Right now, teachers are considered 
``qualified'' simply by virtue of graduating from an accredited program 
or completing a major in the subject that they teach. This sidesteps 
the real issue, for it relies on poor proxies for teaching 
effectiveness instead of demonstrated capacity to do the actual work 
that will help students learn. This is perilous for our students.
    The initial training of teachers must be connected to a 
comprehensive curriculum of professional training and licensure that 
spans pre-service education through at least the first five years of 
teaching practice, with corresponding assessments providing information 
about teachers' increasing competence as they become more experienced. 
This approach is a significant departure from current practice in which 
teachers start teaching with little training in the complex work of 
teaching and are expected to learn this work from experience. 
Experience is an unreliable method of learning in any domain, from 
athletics to skilled trades to teaching. Although knowledge and skill 
can improve with experience, mislearning often develops and is Three 
key elements must comprise the redesign of teacher training:
    1. Focus teachers' preparation on the work of teaching to high 
levels of skill and detailed and specialized knowledge of the academic 
content they teach;
    2. Provide a range of settings for close practice and feedback so 
that teachers can be deliberately taught and explicitly coached with 
the skills to reach a wide range of learners; and
    3. Develop highly credible and predictive assessments of 
professional knowledge and skill so that no one enters a classroom 
without fundamental capacity for effective performance as a beginning 
teacher.
    At the heart of this system must be a set of core skills of 
teaching that are crucial to student learning. No beginning teacher 
should be allowed to teach young people if he or she cannot perform 
these flexibly and skillfully. These include skills of communicating 
content clearly to students, holding students to high standards while 
explicitly showing students how to do complex work, establishing and 
maintaining a productive classroom climate, interpreting and using 
evidence of student performance, and connecting effectively with 
students' families. In addition, teachers must demonstrate the detailed 
knowledge of subject matter needed to help students learn it.
    This is not how we prepare teachers in this country today.
    What is needed is an explicit curriculum to develop teachers' 
skills with these tasks and a system of performance assessments to 
determine whether teacher candidates can perform each one competently. 
This curriculum must also include carefully designed and sequenced 
opportunities to practice these skills in a variety of settings. 
Teacher candidates must demonstrate proficient performance with each 
set of skills before they are granted an initial teaching license.
    We must build a professionally valid licensure system that requires 
all teacher candidates to demonstrate the required level of capacity to 
teach young children responsibly. The assessments would focus on 
measuring teachers' content knowledge used for teaching, their actual 
skill with the instructional practices most important for student 
learning, and their persistence in working to make sure that every one 
of their students learns. These assessments would be different from the 
ones we currently have in this country which do not, for the most part, 
focus on the ability to teach. These assessments will rigorously 
measure teachers' ability to mobilize knowledge in teaching and to do 
actual tasks of teaching. Examples include diagnosing students' 
learning difficulties, designing a test, conducting a discussion, 
giving pupils feedback on their work, choosing and using strategic 
instructional examples, and interpreting data on student progress and 
using it to calibrate instruction.
    My argument is not an argument for or against either 
``traditional'' or ``alternative'' pathways into teaching. We should 
encourage multiple pathways into teaching and multiple providers of 
training in order to recruit the diverse teaching force that our 
country needs. What is most important is that graduates of any pathway 
must be capable of effective practice.
    Students must have teachers who are prepared to help them learn, 
not beginners who are struggling with or naive about their 
responsibilities. Allowing teachers to learn on our young people is 
unethical. Teaching is intricate work that can be learned to high 
levels of skill with appropriate training. What we need in this country 
is a professional continuum that would provide teachers with high-
quality training in increasingly advanced practice, and that would tie 
We need to consider along with what I have described here significant 
changes in the educational infrastructure in this country--in the 
organization of schools, teachers' work, and their compensation. For 
example, schools should be set up to provide integral support for early 
career teachers so that they can more effectively and rapidly increase 
their professional skill, just as hospitals support beginning nurses. 
Teachers with different levels of license should have different 
assignments in schools and should be compensated differentially. 
Schools would need to be staffed to include teachers of all levels of 
licensure to ensure that all schools have the full complement of 
professional expertise. To make use of that expertise in improving 
students' learning, teachers' professional work days would have to 
include--as they do in other countries--time and space for interaction 
with other teachers of these different levels of expertise, with a 
focus on examining student performance, student difficulties, 
curriculum issues, and on developing focused instructional strategies. 
All of this, too, is what we see in other professions.
    Finally, we need in this country an appropriately-resourced and 
expertly directed system of design, development, and research that will 
produce the evidence base and resources to make it possible to 
accomplish high levels of success in K-12 education. Doing this would 
require a coordinated plan to build the knowledge and tools to achieve 
these specific goals. To be effective, this comprehensive system of 
design, development, and research must be oriented toward understanding 
and solving our core problems of education and must be fundamentally 
rooted in and connected to practice and policy.
    One important footnote to all of this is that this work I am 
describing would be helped immeasurably if we had a common ambitious 
curriculum for K-12 schools--consisting of goals, standards, and 
metrics for their attainment--that would provide a consistent and 
coherent infrastructure for teaching and learning. This curriculum 
would need to be accompanied by assessments that were well coordinated 
with this common curriculum and that could be used at scale with high 
degrees of reliability and validity. These assessments would use new 
technologies and the best expertise drawn from across disciplines to 
build a new suite of assessments to track the kinds of outcomes we must 
be seeking to achieve with all of our students.
    The most important point overall is that we must stop wasting 
energy debating whether teachers recruited one way or another are more 
effective. Instead, we must turn now to training people to do the real 
work of teaching and to building a system that can reliably supply good 
teaching to every pupil in our nation's classrooms, every year.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Dr. Salazar.

 STATEMENT OF PAMELA S. SALAZAR, ED.D., ASSOCIATE PROFESSOR OF 
 PRACTICE, DEPARTMENT OF EDUCATIONAL LEADERSHIP, UNIVERSITY OF 
                             NEVADA

    Ms. Salazar. Thank you. Good afternoon, Chairman Miller and 
members of the committee. It is an honor to be invited to 
testify before you today on a topic of utmost importance, 
educational leadership.
    As stated earlier, I am a professor at the University of 
Nevada-Las Vegas where I coordinate a principal preparation 
program with Clark County School District, which is the fifth 
largest district in the country. I am a retired high school 
principal and a former physics, math, and computer science 
teacher.
    Educational leadership is a topic on which I have great 
passion and commitment. And I applaud the committee for 
including this important issue as part of the reauthorization 
of the Elementary and Secondary Education Act.
    Research documents what educators inherently know: A strong 
principal is second only to a highly effective teacher in 
producing student learning and achievement. The renewed 
emphasis on school-level outcomes and student achievement 
places the school leader at the center of all school reform 
efforts.
    Today's principals and assistant principals are expected to 
be visionary leaders, instructional experts, building managers, 
assessment specialists, disciplinarians, community builders and 
more. They are also the ones ultimately held responsible for 
student achievement. Therefore, it is imperative that we do a 
better job of preparing principals and other school leaders as 
well as supporting them to be able to meet the needs of 
teachers and students.
    To create a consistently reliable process to develop, 
recognize, and retain effective principals, the National Board 
For Professional Teaching Standards has launched the 
development of a voluntary national certification for 
successful experienced principals, assistant principals and 
teacher leaders, known as National Board Certification For 
Educational Leaders. Assisting in this effort are the National 
Association of Elementary School Principals, National 
Association of Secondary School Principals, the National Middle 
Schools Association, the American Association of School 
Administrators, and representatives from higher education, 
district and State administration and professional 
associations.
    I had the honor of serving as the co-chair of the committee 
that developed the National Board of Standards For Accomplished 
Principals. These standards represent a professional consensus 
on the very unique practices that distinguish accomplished 
principals. They are cast in terms of the collaborative actions 
that accomplished principals take to advance learning to the 
very highest level for each and every child.
    These principals recruit, promote, and retain accomplished 
teachers. They improve the school culture and performance. They 
advocate for the profession and the needs of their school. And 
they purposefully engage families in the broader community in 
the school's vision and mission.
    I am now working on the development of the assessment that 
will form the foundation and the rich amalgam of knowledge, 
skills, and dispositions that will characterize national board 
certified principals.
    Having a set of standards that define best practices allows 
the development of professional education that is targeted for 
the continuum of practice. As school leaders engage and reflect 
on their level of practice, and for those who hold the 
responsibility of preparing leaders, the standards continuum 
now offers the profession a much clearer view of the 
requirements of successful practice and leadership.
    As school districts seek to select and develop principals, 
assistant principals and teacher leaders that can lead the 
much-needed transformation of our schools, the existence of a 
continuum of standards to assist and identify accomplished 
practice is hugely beneficial.
    National board certification for principals will define and 
validate the requirements that identify an accomplished, 
effective, and results-oriented principal.
    As in medicine, law and other fields, it will support 
excellence, motivation, and prestige within the profession. 
Indeed, principals that meet these standards will have made a 
commitment to excellence in their schools and throughout their 
school districts.
    However, if principals and assistants principals are to 
meet the growing, ever-changing expectations of this very 
demanding position, they require continued professional 
development personalized to meet their individual needs. This 
is true for all school leaders, regardless of their initial 
preparation or their length of service.
    The educational challenge of the 21st century is to achieve 
high levels of learning for each and every student. As 
increased accountability becomes the norm, leadership becomes 
more challenging and demanding. In today's complex world, in 
schools beset with new kinds of issues and problems, the 
ability of the principal to improve the effectiveness of the 
school is the critical element in determining the kind of 
impact that the school will have on its students.
    There are no shortcuts to school success. But a serious 
examination of the leadership practices that can drive the 
quality and effectiveness of our schools is the most 
significant way that we can offer our neediest students that 
you referred to. These students deserve the better support to 
help them reach the high standards of excellence.
    Effective educational success depends on quality school 
leadership. This means that it is imperative that we attract, 
develop and retain the very best and brightest educational 
leaders to the profession to prepare students for the 
expectation of an ever-changing diverse population and global 
economy.
    Thank you for the opportunity to testify before you today.
    [The statement of Ms. Salazar follows:]

    Prepared Statement of Pamela S. Salazar, Associate Professor of 
 Practice, Department of Educational Leadership, University of Nevada, 
                               Las Vegas

    Chairman Miller, Ranking Member Kline, members of the Committee. It 
is an honor to be invited to testify before you today on a topic of 
utmost importance: educational leadership. I am Pamela S. Salazar, an 
associate professor of practice in the Department of Educational 
Leadership at the University of Nevada, Las Vegas. I am the coordinator 
of the Collaborative Principal Preparation Program, which is a joint 
venture between the Clark County School District and the University of 
Nevada, Las Vegas, designed to prepare future administrators for 
positions within the Clark County Schools. I am a retired high school 
principal and a former physics, math, and computer science teacher. 
Additionally, I recently authored a book titled High-Impact Leadership 
for High-Impact Schools which has been adopted by numerous school 
districts across the country for both new principal induction programs 
and practicing principal leadership academies. I applaud the Committee 
for including this critical issue as part of the reauthorization of the 
Elementary and Secondary Education Act (ESEA).
    Research documents what educators inherently know--a strong 
principal is second only to a highly effective teacher in impacting 
student learning and achievement. The renewed emphasis on school-level 
outcomes and student achievement places the school leader at the center 
of all school reform efforts. Today's principals and assistant 
principals are expected to be visionary leaders, instructional experts, 
building managers, assessment specialists, disciplinarians, community 
builders, and more; they are also the ones ultimately held responsible 
for student achievement. Research also shows that it is imperative that 
we do a better job of preparing principals and other school leaders to 
be able to meet the needs of teachers and students.
    Effective principals must possess strong coping skills, high 
cognitive functioning, emotional intelligence and a thorough 
understanding of the complex nature of the job. They understand that 
their expectations and actions set the tone for the school culture. The 
most effective principals set a vision and create a school culture that 
positively influences student outcomes. These attributes are most 
important in those dedicated educational leaders taking on the 
challenge of turning around the lowest-performing schools where they 
potentially have the greatest impact.
    To create a consistently reliable process to develop, recognize and 
retain effective principals, the National Board for Professional 
Teaching Standards (NBPTS) has launched the development of a voluntary 
national certification for successful, experienced principals, 
assistant principals, and teacher leaders known as National Board 
Certification for Educational Leaders. Assisting in this effort are the 
National Association of Elementary School Principals, the National 
Association of Secondary School Principals, National Middle School 
Association, American Association of School Administrators and 
representatives from higher education, district and state 
administration and professional associations.
    I had the honor of serving as co-chair of the committee that 
developed the National Board Standards for Accomplished Principals. 
These standards represent a professional consensus on the unique 
practices that distinguish accomplished principals. They are cast in 
terms of the collaborative actions that accomplished principals take to 
advance learning to the highest level for every child: to recruit, 
promote and retain accomplished teachers; to improve school culture and 
performance; to advocate for the profession and the needs of their 
school; and to purposefully engage families and the broader community 
in the school's vision and mission. We are now working on the 
development of the assessment. This assessment will form the foundation 
for the rich amalgam of knowledge, skills and dispositions that will 
characterize National Board Certified Principals.
    Having standards that define best practices allows for the 
development of professional education targeted for the continuum of 
practice. As school leaders engage and reflect on their level of 
practice and for those who hold the responsibility for preparing 
leaders, the standards continuum offers the profession a much clearer 
view of the requirements of successful practice. As school districts 
seek to select and develop principals, assistant principals, and 
teacher leaders that can lead the transformation of schools, the 
existence of a continuum of standards to assist and identify 
accomplished practice is hugely beneficial in the selection, training, 
and development of aspiring and practicing principals, assistant 
principals, and teacher leaders.
    National Board Certification for Principals will define and 
validate the requirements that identify an accomplished, effective and 
results-oriented principal. As in medicine, law and other fields, it 
will support excellence, motivation and prestige within the profession. 
The National Board's analysis shows that principals support the 
prospect of advanced certification that recognizes the importance of 
instructional leadership, organizational change and community 
involvement--as well as the principal's essential role in school 
management. An NBPTS survey found that 83 percent of school leader 
respondents and 69 percent of district leaders respondents expressed 
interest in advanced principal certification. Both groups were most 
interested in a certification that would better prepare principals to 
lead systemic instructional improvement.
    The National Board for Professional Teaching Standards envisions 
the highly effective and accomplished principal as one who has had a 
positive impact on student learning and achievement by creating a 
professional learning community that focuses on student needs, teacher 
retention and professional development as well as the incorporation of 
community and business groups in ensuring the success of every student.
    Though the diversity of environments and students throughout our 
nation make it naive to suggest that these principals will be lock-step 
to follow a single play book of ``do's'' and ``don'ts'', it is certain 
that they will all display the same characteristics critical to 
outstanding school leadership.
    Principals possessing these characteristics:
    Lead with a sense of urgency to achieve the highest results for all 
students and staff in their schools and build organizational capacity 
by developing leadership in others.
    Inspire their school to evolve into a learning community where 
teachers, community leaders and local businesses share a steadfast 
commitment to high achievement in student learning and strong 
instructional practice.
    Ensure that strategic management systems and processes are designed 
and implemented so that the primary focus of their school is teaching 
and learning.
    Most importantly, these principals will be ethical leaders, whose 
continuous advocacy for equitable learning conditions and opportunities 
is matched only by a humility which guides them to continually reflect 
on their practice. In this manner, these principals will not only 
continue to grow personally and professionally, but also they will 
serve as an example to other principals striving to improve their own 
practice and schools.
    Indeed, principals that meet these standards will have made a 
commitment to excellence in their schools and throughout their school 
districts. They will help refine and develop new systems by which we 
measure, evaluate and reward principals.
    If principals and assistant principals are to meet the growing, 
ever-changing expectations of this demanding position, they require 
continual professional development personalized to meet their 
individual needs. This is true for all school leaders, regardless of 
their initial preparation or their length of service. Today's 
educational environment of standards-based education and high 
accountability demands that principals are knowledgeable and skilled in 
instructional leadership, organizational development, community 
relations, and change management. Ongoing, job-embedded professional 
development is the key to developing this capacity in all school 
leaders.
    Although there is growing consensus on the attributes of highly 
effective principals, there is currently no reliable way to measure the 
performance of school leaders--or to recognize and reward them for 
their accomplishments. School districts should examine quantitative and 
qualitative data pertaining to both academic and nonacademic indicators 
in their evaluation of principals. The following measurements, in 
addition to student indicators, are recommended for assessing principal 
performance: self assessments; supervisor site visits; school 
documentation of classroom observations and faculty meeting agendas; 
climate surveys; teacher, other school staff, parent, and student 
evaluations; teacher retention and transfer rates; teacher and student 
attendance rates, and opportunities for student engagement through co-
curricular and extracurricular activities and rates of participation.
    In measuring a principal's performance based on student indicators, 
States should use multiple assessments that are aligned with common 
standards, include performance-based measures, and measure individual 
student growth from year to year, including State assessments; 
portfolios, performance tasks, and other examples of a student's 
accomplishments; traditional quizzes and tests; interviews, 
questionnaires, and conferences; end-of-course exams; comprehensive 
personal academic or graduation plans; assessments aligned with high 
school and college entrance requirements; and senior projects.
    But while effective principals are key to a school's success, they 
are not the whole story and cannot be solely held accountable for a 
school's performance. Schools are a sum of many parts, each being 
integral to the whole. Changing one or two of the parts, even one as 
crucial as the principal will not guarantee the desired result. The 
lowest performing schools need whole school improvement, not piecemeal 
applications. The Administration's approach in its School Improvement 
Grants and in ``A Blueprint for Reform'', requires the removal of a 
principal in perennially low-performing schools as part of the 
improvement process. This will not automatically result in dramatic, 
sustainable reform. Turning around low-performing schools and 
significantly improving student achievement requires, among other 
factors, a principal that has received appropriate training and 
mentoring to understand what principal and school leader should know 
and be able to do to effectively lead a school. Even more, it requires 
that the principal have access to appropriate data, a well-training 
workforce, and the authority and autonomy to place resources where they 
are needed most. Yes, it is important to be able to remove principals 
who cannot effective lead, but we should not adopt policies that assume 
the incompetency of every principal in our lowest-performing schools.
    Successful students and teachers need the support of effective 
principals and school leadership. The most accomplished principals 
create a school-based learning community that involves teachers, 
students, parents and the community. Additionally, the demands and 
complexity of 21st century education requires more than ever from these 
leaders. It is essential that we attract, develop and retain the best 
and brightest educational leaders to the profession to prepare students 
for the expectations of a global economy.
    Thank you for the opportunity to testify before you today. I am 
happy to answer any questions you may have.
                                 ______
                                 
    Chairman Miller. Thank you.
    Dr. Winters.

 STATEMENT OF MARCUS A. WINTERS, SENIOR FELLOW, THE MANHATTAN 
                           INSTITUTE

    Mr. Winters. Chairman Miller, Congressman Castle, members 
of the committee, I appreciate the opportunity to testify 
before you today on the important issue of teacher quality.
    The findings of modern research strongly confirm what 
parents, teachers, and school administrators have always known: 
The quality of a child's teacher is the most important factor 
within a school's control that determines the student's 
learning in a given year. The best estimates indicate that the 
difference for a student being taught by a good or a bad 
teacher amounts to about a grade level's worth of learning at 
the end of the school year.
    Unfortunately, the current system fails to distinguish 
between our best and worst teachers. Nearly all teachers are 
rated satisfactory or higher according to their official 
evaluations. When the current system does distinguish between 
teachers, it is according to two attributes that researchers 
consistently find have little to no relationship to a teacher's 
performance in the classroom, the attainment of advanced 
degrees and years of experience. Researchers consistently find 
no discernable relationship between whether or not a teacher 
has a master's degree and the learning her students acquire 
during a given year.
    According to the research, the benefits from classroom 
experience seem to plateau after about the third to fifth 
years. Of course, some teachers do get better over time. But 
some teachers don't improve, while others burn out and actually 
get worse over time.
    In addition, whether an individual teacher is better at her 
job today than she was yesterday is insufficient for 
determining whether she is more effective than the teacher down 
the hall. Empirical studies consistently find that experience 
and other easily observed characteristics explain very little 
the difference in teacher effectiveness.
    That credentials and experience tell us so little about 
teacher effectiveness is disappointing because most school 
districts rely on those attributes alone to determine a 
teacher's salary. Teachers have responded to the incentive of 
their pay scale by pursuing unproductive advanced degrees. The 
percentage of public school teachers with a master's degree or 
higher has increased from about 24 percent in 1961 to about 52 
percent today.
    It is common for school systems to determine layoffs based 
entirely on seniority within the system. Those ``first in, last 
out'' layoff rules are now coming into play as States across 
the country are finding it necessary to reduce their teaching 
staffs during this time of fiscal strife.
    The results of basing layoffs on factors unrelated to 
classroom effectiveness will be that many wonderful young 
teachers will be let go, and several poorly performing but more 
experienced teachers will remain in the classroom.
    Further, in most school systems, upwards of 95 percent or 
more teachers who remain in the classroom the 3 years or so 
required to become eligible for the job protections of tenure 
receive it. It is true that tenure only requires that a teacher 
cannot be fired without a due process proceeding. However, in 
practice, that due process is so burdensome and expensive that 
most administrators don't bother with it. For instance, just 10 
of New York City's 55,000 tenured teachers were fired for any 
reason in 2007.
    Even if we were to believe that schools are capable of 
identifying and removing all of their ineffective teachers so 
early in their careers, the practice of tenure still 
essentially assumes that anyone not shown to be incompetent in 
their third year will be effective in the classroom in their 
30th. Given the complexity of a teacher's job, it is not so 
surprising that the basic attributes like experience and 
credentials explain so little of their effectiveness.
    Qualitative attributes, such as the teacher's patience, 
classroom management skills and knack for presenting complex 
information clearly explain most of her influence on students' 
learning. Unfortunately, those attributes do not lend 
themselves to simple salary schedules or layoff policies.
    If we take the lessons of modern research seriously, we 
have to conclude that today's system has its priorities 
backwards. A better system would measure a teacher's actual 
performance in the classroom and then reward the most effective 
teachers or remove the least effective ones accordingly.
    The first step toward creating a better system is to 
improve teacher evaluations. School districts should replace 
the current evaluation system with one based in part on a 
teacher's measurable influence on students' standardized test 
scores. Data analysis is far from perfect, and it should 
certainly not be used in isolation in making employment 
decisions. But modern statistical techniques can raise red 
flags and thus help administrators to distinguish between 
teachers whose students excel and teachers whose students 
languish or fail.
    Once a school system has identified the best and worst 
teachers, it should act upon that information. States and 
districts should continue to experiment with different ways to 
tie some portion of a teacher's compensation to her performance 
in the classroom. Further, States should streamline the process 
for administrators to remove ineffective teachers once they 
have been identified.
    Unfortunately, local union affiliates continue to fight 
hard against some of this meaningful change. Consider New 
York's recent experience. When it appeared that New York City 
Mayor Michael Bloomberg was prepared to use test scores as part 
of evaluating teachers for tenure, the city's teachers' union 
went to Albany and pushed through legislation making it illegal 
for any school system in the State to do so.
    Further with an estimated 15,000 teacher layoffs on the 
horizon in New York, it is the State's and city's teachers' 
unions that have stood strongest against proposed legislation 
that would grant discretion to principals so that they can 
determine which teachers should remain in the classroom.
    Some argue that it would be more productive for us to 
instead focus efforts on reducing class sizes for teachers. The 
argument for reducing class size depends on a single study from 
79 public schools in Tennessee during the 1980s. It was a very 
good study. The study followed the high-quality random 
assignment design and found some evidence that student learning 
was greater in smaller class size environments.
    However, when taken to scale, the results of class size 
reduction programs have been disappointing. For instance, a 
study by the Rand Corporation found that California's class 
size reduction program has had no influence on student 
proficiency.
    It is essential to America's future to ensure that each of 
the Nation's public school classrooms is staffed with an 
effective teacher. The current system is incapable of achieving 
that goal. It is time for school systems to rethink the way 
that they evaluate, compensate and hold accountable public 
school teachers who are educating the Nation's youth. I look 
forward to your questions.
    [The statement of Mr. Winters follows:]

   Prepared Statement of Marcus A. Winters, Senior Fellow, Manhattan 
                     Institute for Policy Research

    Chairman Miller, senior Republican Castle, members of the 
committee, I appreciate the opportunity to testify before you today on 
the important issue of teacher quality. This is an issue that I have 
studied and written about extensively as a senior fellow at the 
Manhattan Institute for Policy Research. However, I emphasize that the 
opinions that I express here today are my own.
    The last decade and a half of empirical research has dramatically 
increased our understanding of teacher quality and the factors related 
to it. The findings of modern research strongly confirm what parents, 
teachers, and school administrators have always known: The quality of a 
child's teacher is the most important factor within a school's control 
that determines a student's learning in a given year. The best 
estimates indicate that the difference for a student being taught by a 
good or bad teacher amounts to about an additional grade level's worth 
of learning at the end of the school year.
    Unfortunately, despite the substantial variation in teacher 
quality, the current system fails to distinguish between our best and 
worst teachers. Nearly all teachers are rated satisfactory or higher 
according to their official evaluations.
    When the current system does distinguish between teachers it is 
according to two attributes that research consistently finds have 
little to no relationship to a teacher's performance in the classroom: 
the attainment of advanced degrees and years of experience.
    Researchers consistently find no discernible relationship between 
whether or not a teacher has earned a Master's degree and the learning 
her students acquire in a given year. Further, the positive experience 
with alternative certification programs such as Teach for America that 
recruit motivated, bright individuals without education backgrounds to 
teach in low-performing public schools shows that great teachers need 
not have ever attended a single course in an education college.
    The research evaluating the relationship between classroom 
experience and effectiveness is only slightly more encouraging. 
According to the research, the benefits from classroom experience 
plateau in about the third to fifth year. Of course, some teachers do 
get better over time. But some teachers don't improve, while others 
burn out and actually get worse over time.
    In addition, whether an individual teacher is better at her job 
today than she was yesterday is insufficient for determining whether 
she is more effective than the teacher down the hall. Empirical studies 
consistently find that experience and other easily observed 
characteristics explain very little of the difference in teacher 
effectiveness.
    That credentials and experience tell us so little about a teacher's 
effectiveness is disappointing because most school districts rely on 
those attributes alone to determine a teacher's salary. Teachers have 
responded to the incentives of their pay scale by pursuing unproductive 
advanced degrees. According to the National Center for Education 
Statistics, the percentage of public school teachers with a Master's 
degree or higher has increased from about 24 percent in 1961 to about 
52 percent today.
    Under the current system, whether or not a teacher is allowed to 
remain in the classroom is nearly entirely a function of how many years 
she has been employed there already. It is common for school systems to 
determine layoffs based entirely on seniority within the system. Those 
``first-in, last-out'' layoff rules are now coming into play as states 
across the country are finding it necessary to reduce their teaching 
staffs during this time of fiscal strife. The result of basing layoffs 
on factors unrelated to classroom effectiveness will be that many 
wonderful young teachers will be let go and several poorly performing 
but more experienced teachers will remain in the classroom.
    Further, in most school systems upwards of 95 percent or more of 
the teachers who remain in the classroom the three years or so required 
to become eligible for the job protections of tenure receive it. It's 
true that tenure only requires that a teacher cannot be fired from her 
position unless the school system first goes through a due process 
proceeding. However, in practice that due process is so burdensome and 
expensive that most administrators don't even bother with it. For 
instance, just 10 of New York City's 55,000 tenured teachers were fired 
for any reason in 2007.
    A common argument made by tenure's defenders is that school systems 
have effectively weeded out many of the low performers by the third 
year. However, even if we were to believe that schools were capable of 
identifying and removing ineffective teachers so early in their 
careers, the practice of tenure still essentially assumes that anyone 
not shown to be incompetent by her third year will be effective in the 
classroom in her thirtieth.
    Given the complexity of a teacher's job, it's not so surprising 
that basic attributes like experience and credentials explain so little 
of their effectiveness. Most of the qualities that differentiate a 
great teacher from a not-so-great teacher can't be collected in an 
administrative data set. Qualitative attributes, such as a teacher's 
patience, classroom management skills, and knack for presenting complex 
information clearly explain most of her influence on her students' 
learning.
    Unfortunately, those are attributes that do not lend themselves to 
simple salary schedules and layoff policies. If we take the lessons of 
modern research seriously we have to conclude that today's system has 
its priorities backwards. A better system would measure a teacher's 
actual performance in the classroom and then reward the most effective 
teachers and remove the least effective ones accordingly.
    The first step towards creating a better system is to improve 
teacher evaluations. Not all teachers in today's public schools are 
succeeding in the classroom, and that the current evaluation tools tell 
us otherwise makes them essentially useless. School districts should 
replace the current evaluation system with one based in part on a 
teacher's measurable influence on her students' standardized test 
scores. Data analysis is far from perfect, and it should certainly not 
be used in isolation to make employment decisions. But modern 
statistical techniques can raise red flags and thus help administrators 
distinguish between teachers whose students excel and teachers whose 
students languish or fail.
    Once a school system has identified the best and worst teachers, it 
should act upon that information. States and districts should continue 
to experiment with different ways to tie some portion of a teacher's 
compensation to her performance in the classroom. Further, states 
should streamline the process for administrators to remove ineffective 
teachers after they have been identified.
    The political hurdles to adopting such a reasonable system are 
daunting. Though we have heard some encouraging words from the American 
Federation of Teachers at the national level, local union affiliates 
continue to fight hard against meaningful change.
    Consider New York's recent experience. When it appeared that New 
York City Mayor Michael Bloomberg was prepared to use test scores as 
part of evaluating teachers for tenure, the city's teachers union went 
to Albany and pushed through legislation making it illegal for any 
school system in the state to do so. Further, with an estimated 15,000 
teacher layoffs on the horizon in New York due to stressed budgets, it 
is the state and city teachers unions that have stood strongest against 
proposed legislation that would replace the state's law requiring 
layoffs to occur according to seniority with legislation granting 
discretion to principals so that they can determine which teachers 
should remain in the classroom.
    The unions and other defenders of the current system also 
frequently argue that it would be more productive to focus efforts on 
reducing class size rather than removing ineffective teachers. The 
argument for reducing class size depends on a single study from 79 
public schools in Tennessee during the late 1980's. The study followed 
a high quality random assignment design and found some evidence that 
student learning was greater in smaller class size environments. 
However, when taken to scale, the results of class size reduction 
programs have been disappointing. For instance, a study by the Rand 
Corporation found that California's class size reduction program has 
had no influence on student proficiency.
    It is essential to America's future to ensure that each of the 
nation's public school classrooms is staffed with an effective teacher. 
The current system's failure to accurately measure teacher quality, its 
emphasis on rewarding teachers for attributes unrelated to their 
effectiveness, and its powerful protections for even the worst teachers 
makes it incapable of achieving that goal. It is time for school 
systems to rethink the way that they evaluate, compensate, and hold 
accountable the public school teachers who are educating the nation's 
youth.
    I look forward to answering your questions as this important 
discussion moves forward.
                                 ______
                                 
    Chairman Miller. Thank you.
    Thank you to all of you for your testimony.
    Let me see. How do I proceed here? I think this panel's 
testimony is compelling to the idea that we should give serious 
consideration, after my 36 years on this committee, of maybe 
breaking with the past and starting to think how people arrive 
at the decision to become a teacher and then how, whether or 
not that individual enters the field and what happens to them 
then, and whether we are going to, after all of the rhetoric, 
we are going to, in fact, decide there is something to this, 
that that is a profession.
    And if you look across the board at other professions, it 
seems that the training never really stops. I am a lawyer. You 
have the continuing education of the bar. You have to take 
units. I don't know if it is any good or not. I am inactive, 
but I don't know. But it seems everybody throws up something in 
terms of training. If you are a firefighter, the training never 
stops. If you are a police officer, the training never stops, 
and if you are a doctor.
    But it also seems a lot of people enter those fields being 
trained for what they are going to do when they enter the 
field, and yet in teaching, a lot of people can still walk 
through the side door, given the circumstance of a district, 
where they happen to be, who knows whom, and all of a sudden, 
there you are, because you have the credential, and in some 
cases, that is enough. But we have sort of enabled this to go 
on and on and on. To what extent the Federal Government can 
change that is what this debate is about.
    And Dr. Ball, you talked about the redesign of teacher 
training, but the three steps you lay out don't look a lot like 
what I think or have been led to believe most teacher training 
programs look like. They come later. You get your credential. 
You have gotten your major degree. You get a credential, and 
then people talk about training you.
    When I look at the three things you outline, it would seem 
to me that some of that has to occur beforehand. I mean, I 
don't know what schools of education do. I don't see any 
evidence that they do much. But I need to know, how do we back 
this up so that people come with greater skill sets? We try to 
develop those skill sets. This is a very complex job.
    Ms. Salazar. Yes, it is.
    Chairman Miller. And I think that is the point of your 
testimony. If you don't mind, please respond.
    Ms. Ball. Thank you for the opportunity to take that up.
    Indeed my argument was that it is crucial to ensure that we 
establish standards for entry to the profession, and I was 
quite clear about saying I think that can be provided, 
potentially through a multitude of pathways, that schools of 
education should and can provide that sort of training, but so 
could that be done through other pathways.
    What is crucial is to establish the bar that someone needs 
to meet in order to be allowed to practice independently on 
students. We do that with, as you said, many other professions 
and, in fact, many trades in this country don't allow people to 
perform what we consider to be skilled trades without actually 
having a license. You don't have someone come to your house to 
repair a disposal who doesn't actually know how to work on 
drains.
    I think that what we haven't done here is to establish a 
key set of things that we don't think any young person should 
have a teacher who can't do those things. I think it would 
require articulating a continuum where the training you 
describe for ongoing learning, that some of those things would 
be things people would learn as they became more expert.
    My colleague here referred to the fact that teachers don't 
improve with experience. I think it is quite easy to point to 
the fact that much of the training provided to teachers as they 
advance through the profession doesn't enable increasing 
skills. In fact, if it were inherently true that nobody 
improved after 3 years of teaching, then we would see that 
around the world. And we don't actually see that around the 
world. In countries where the professional education system is 
much more substantial and helps people to become more and more 
accomplished professional teachers, you don't see that leveling 
off at the third or fourth year.
    It is entirely due to the fact that, in this country, the 
kind of professional training that is available to teachers is 
often weak, and I think the drive to pursue these so-called 
useless master's degrees is a quest by teachers to seek 
additional professional training. The master's degree on its 
own isn't valuable or not. It has to do with what is inside 
that degree or any other form of professional training.
    So, in sum, I think that we need both to ensure that 
beginning teachers know their content well enough to be 
responsible to teach it to young people, but we need also to 
articulate a set of basic skills of teaching, including 
managing the classroom, conducting a discussion, assessing 
student learning, using data, communicating with the home. And 
we should not allow people to be practicing on young people.
    Chairman Miller. But you are still describing currently, 
and I am not asking you to defend the system, but you are still 
describing a system that currently is hit or miss.
    Ms. Ball. Right now, people become licensed without having 
to demonstrate they can do any of those things. As I said, 
people become licensed currently by completing an approved 
program or in other routes by having a degree in the subject. 
Neither of those is what I am describing.
    I am describing an assessment system where we would hold 
any program accountable for demonstrating that its candidates 
for whom it was recommending for licensure could actually do 
those things before they enter; that is, do them with students, 
conduct a discussion, call up a parent and have a sensible 
conversation about a student difficulty, diagnose a common 
error that a student makes in learning reading. We allow people 
to begin teaching who have not demonstrated they can do those 
things. And the system that was changed would require any 
program to prepare people to pass that set of assessments. That 
is not the system we currently have.
    Chairman Miller. Thank you.
    Mr. Castle.
    Mr. Castle. Thank you Mr. Chairman.
    Dr. Winters, in your testimony, you indicate that research 
shows that certain factors, such as smaller class size and I 
think you mentioned tenure in there as a feature, have little 
impact on student achievement.
    Can you tell us what skills are necessary in order to 
produce good teachers?
    Mr. Winters. The short answer is, no. The problem is--
right, reducing class size has been found in small experiments 
to have positive effects. As far as what are the overall 
attributes for good teaching, I am not sure. I don't know 
that--I am not sure that we know that as profession. Maybe some 
of my colleagues would disagree about that.
    My view of the research is that we know that there is 
enormous variation in the quality of teachers, but very little 
of what we try to explain that variation, even studies that use 
things like the courses that students have taken in college, 
SAT scores seem to correlate with this some but not as much we 
would hope. A lot of those attributes don't explain very much 
of that variation.
    So I actually think that a lot of teaching is innate and 
not something that we are seeing that we are producing, which 
leads me to believe that a better system would allow people to 
become teachers, identify who is good at it, and do the best we 
can, no matter why they are good at it, what they are doing to 
be good at it, and do the best we can to keep those people in 
the classroom.
    Mr. Castle. Leading into this question, which is, do you 
have any thoughts about the difference between alternative 
certification programs and traditional routes of certification 
in terms of either quality of teachers or methodologies which 
are used?
    Mr. Winters. I think the research on those things is still 
pretty young, but so far, the experience with alternative 
certification programs has been generally positive. Now you do 
see wide variation among teachers who come through alternative 
routes as well, but again, we see enormous variation in the 
quality of teachers who come through the more traditional 
routes, which again I think goes to the point where some people 
are just wonderful at teaching. And what we should be doing is 
trying to get smart people into the classroom and provide them 
with the training. I don't think it is correct to say teachers 
need no training. So I don't want to say that. But I do think 
what we should be trying to do is, through alternative 
certification routes and others, is to put smart people in 
front of the classroom and evaluate them afterwards and try to 
get the bad ones out and keep the good ones in.
    Mr. Castle. Dr. Salazar, almost all principals I know come 
from teacher ranks. I guess that is generally true throughout 
the country.
    Is there any experimentation or has anyone looked into 
alternative methodologies of bringing people into principal 
ranks who don't necessarily come up through the teacher ranks? 
And if so, is there any judgment as to whether that is 
successful or not in any way?
    Ms. Salazar. I have to tell you that, in terms of research 
around that topic, I am not aware of any. I am sure that 
someone has done research taking a look at alternative route to 
the principal. And certainly there are different certifications 
required across the States in terms of who can be a principle 
and who can't. That is not the case in Nevada. Everyone does 
come from the ranks of the teacher. And so I don't have--I can 
get information back to you on that, but I don't really have 
any information on that.
    Mr. Castle. Thank you.
    Ms. Weingarten, you said someplace, and unfortunately, it 
is sort of disconnected from other things you said in my mind, 
and I agree with you completely on this, that we need to look 
at out of school factors. And that is true, obviously, in terms 
of how we are educating kids. But I am not sure exactly how you 
intended that when you said it, looking at out-of-school 
factors, in terms of judging teaches or in terms of what we as 
a society should be doing with respect to educating kids.
    Ms. Weingarten. What we need to do is, I think, three 
things, one, and today we are focused on the paths to great 
teaching and great teachers, and but the second thing is, and 
none of us actually focused on this as much we should today, 
there is a need to have a broad, engaged curriculum. Chairman 
Miller and this committee have been talking about that in the 
context of common standards and assessments that are aligned 
with common standards, but an engaged curriculum, rigorous 
curriculum, that includes art and music and physical education 
but is deep in terms of social studies and science is very 
important as a lock-in with great teachers and great teaching.
    And the third point was that poverty can't be an excuse for 
student to not have the engine of opportunity. But what we have 
seen is that if you do, if you find ways to compete with 
poverty, schools alone and teachers alone will never be able to 
do this. And I disagree with my friend, Marcus, on the other 
side of the table, because you can't, teachers alone can't do 
this. Maybe in isolated circumstances, yes.
    But what we have seen is that in schools and districts that 
have wraparound services, community schools where the schools 
itself are the hub for these outside services, like health 
care, after-school care, some social services, you see a way of 
being able to level the playing field for poor kids and 
narrowing the achievement gap.
    So what I am saying is, we need to deal with all three, not 
use out-of-school factors as an excuse, but help kids by 
dealing with all three.
    And so what we have actually proposed for an overhaul of 
teacher development and evaluation is by focusing on shared 
responsibility, as opposed to just top-down accountability. 
When teachers, for example, will say, I need to lower class 
size so I can differentiate instruction among and between 
children, that is the import of class size. Or I can identify 
that this child needs some other additional supports; I can do 
what I can do instructionally, but you have to help me get 
those other supports for this child. That is what we are 
talking about when we talk about a holistic development and 
evaluation plan that includes access to wraparound services. 
And that, Congressman, is exactly what New Haven has just done, 
which is why I am so fixated on New Haven.
    Mr. Castle. Thank you all so much.
    Chairman Miller. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    Dr. Ball, I really appreciate your recommendations to 
reform the way we prepare our teachers in this country. If we 
were to move forward with these recommendations, what is the 
Federal role, and can we learn anything from other professions?
    You know, a century ago in Ireland or France or Germany, 
very often in a small village, the most educated and the person 
turned to the most in that village would be the priest, the 
lawyer, the physician, and the teacher. These were the 
professions that really were the founts of knowledge in those 
villages. Can we learn something from other professions as we 
prepare teachers for their responsibilities?
    Ms. Ball. Thank you, Representative Kildee.
    I think that, on the second question first, from other 
professions, in fact, other clinical professions and in 
particular ones which work with young people, so I gave the 
example of flying a plane, but it may be more appropriate to 
think of professions where people work with people, where there 
is an uncertainty of how you work with a young person, how you 
work with a client if you are a psychologist. And in fact, a 
colleague at Stanford University, Pam Grossman, and her 
colleagues have conducted a study of preparation in other 
professions to learn more about the clinical preparation in 
other fields. And in fact, they do much better at teaching the 
clinical skills, at breaking them down, at naming them, at 
rehearsing them and coaching them and assessing people on them, 
so I disagree with my colleague that teaching can't be taught.
    And in fact, I would argue that it is highly dangerous to 
take a policy strategy that permits people to be tried out in 
classrooms and fire those later who don't produce results. 
There are real children in those classrooms who are suffering 
under the teaching of people who later find out they can't do 
it.
    Let me give you a simple example. When a child makes an 
error in elementary mathematics, as the kind that I produced in 
my written testimony for you, you don't want somebody teaching 
in that classroom who is mystified by that error. You want 
somebody who can rapidly size up what the difficulty is that 
the student is having and who has three or four key leverage 
things to do next to help the children learn.
    It is deeply dangerous to put people into classrooms who 
can't quickly recognize the errors that kids make and can 
diagnose them and move on, and that is precisely what other 
diagnostic human professions have done is put people with 
knowledge, give them lots of practice, and identify them when 
patients or clients have those difficulties and having the 
strategies to deal with them.
    I can't understand a strategy in which we think it is 
permissible to put people into classrooms who are smart and 
hope that after 2 or 3 years, they have done well. And if they 
haven't, we fire them. Those are real children in those 
classrooms. And I think it is unconscionable to think that that 
is a reasonable policy strategy.
    When you ask about the Federal role, I think there are 
things the Federal Government can be doing in supporting more 
integration of common content in this country. It is very 
difficult to prepare teachers for their work when they teach 
entirely different content in different parts of the country, 
and I know that that is a very deeply problematic issue, but it 
is actually quite important to the improvement of teaching.
    I do want to close by saying one other thing, which is that 
the research on alternative routes versus other kinds of 
teacher education programs shows that they actually are very 
little different. One study shows a slight advantage to one, 
and one the other, but overall, the message I would like you to 
understand is that in no pathway or program are we preparing 
professionals adequately at the scale we need in this country, 
in no pathway whatsoever.
    Mr. Kildee. Thank you, Mr. Chairman.
    Chairman Miller. I was mystified, but I think it was 
because I was reading that math problem after a long jet trip. 
So I----
    Ms. Ball. Did you solve it?
    Chairman Miller. Yeah, I solved it, that and cold fusion 
while I was waiting for my bags. I can't go back to classroom?
    Mrs. Biggert. You might be mystified, I am a little 
confused. Chairman Miller used the analogy of lawyers, and he 
is a lawyer, I am a lawyer, and my first job out of law school 
was clerking for a judge in the Court of Appeals. I got a 
really broad education with every kind of issue that came up. 
And then I was hired by a law firm, which I didn't do. I 
decided to practice on my own. And, you know, here having been 
doing this Socratic method and suddenly how do I write a real 
estate contract, how do I do probate? No clue. And nobody to 
help me, because I was on my own. So what do you do? You go to 
the continuing education and take--and go into the classes and 
talk to people there and get the idea.
    I don't--to me, maybe I am missing something, but it seems 
like if you get a good education in education in the schools 
and then you do student teaching--if you are a student teacher, 
you are working with another teacher who can be a mentor. And 
then I was a school board president and we had the mentoring 
that was very important to our school and every young teacher 
had a mentor who actually taped them in the classroom so that 
they could see what they were doing and even the other 
teachers.
    So it seemed to me that there was an awful lot of 
continuing education and we had days of teacher training. I 
don't always know how good that was, but teachers participated. 
It seems like to do all these things, really the three things 
that there probably should be done in school. I know Stanford 
has a 5-year program that the teacher has to do the 5-year 
program before they really get out, and I see Ms. Weingarten, 
you were kind of shaking your head about the student teaching.
    Ms. Weingarten. I have both taught and practiced law and 
we--teachers, and Dr. Ball said this already, but there is, in 
medicine, in law, in several other professions, the 
deliberateness of the training is much more intense than what 
you have in teaching. And so what you see in countries like 
Finland and Japan is a way in which--Finland spends a lot of 
time, as the chairman said, on the induction, and recruitment, 
and selection process of teachers, but what they do that is 
quite different than anything we do in the United States, is 
the focus on teacher development in school when teachers get 
there in real-time with professional development, not off the 
shelf from someone else. And they do this by having teachers 
work together, it is excruciatingly expensive, because what you 
are doing is taking teachers together, working together, 
diagnosing what kids need, building on each other's practice, 
polishing the stone, thinking about the craft, and, in some 
ways, like we do in grand rounds in medicine, like one does in 
a big law firm that I had the honor to work in.
    And that is how teachers really learn deeply to teach, but 
it costs a lot of money and that is why a lot of school 
districts never ever do it.
    Mrs. Biggert. If you have the LSAT for law, and then it is 
hard to get into medical school, do we need to raise the 
standards for getting into education to start out with?
    Ms. Weingarten. Well, it is both the issue of who comes in 
to teach, but I am focused on, regardless of who is there, how 
do we make them, how do we help create the versatility, both in 
terms of the content knowledge and in terms of the modes of 
transmission of teaching that Congressman Kildee talked about? 
And so ultimately, what happens in Finland is you have because 
of the value of teaching you have some of the ``it has become 
the most attractive profession to go into.'' In the United 
States, that is not the case. But the emphasis I am making, 
Congresswoman is that it is a craft that you learn, that those 
of us--and this is where I disagree with Mr. Winters, we are 
not that good.
    Mrs. Biggert. No, we are not ranked very well either.
    Ms. Weingarten. And even with my law degree and on Law 
Review and all of that, I was a blithering idiot the first few 
days I taught in schools. And ultimately it was the craft of 
learning with others and understanding content, but also how to 
do the things that Dr. Ball was talking about. And let me just 
finish by saying we see good models throughout the country now. 
Our real, our real obstacle is how to create both the capacity 
and replicability of that, so that it is not individuals or 
individual schools, but how do we do that throughout the 
country.
    Mrs. Biggert. Thanks. I yield back.
    Chairman Miller. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, thank you to all of 
you. I would love to sit here and have a long conversation with 
you because I really appreciate what you are saying. Maybe you 
are just picking up, Ms. Weingarten, you are talking about the 
capacity and replicability because one of the frustrations I 
guess that I have had in thinking about this, and having been a 
former school board member a number of years ago is that I 
don't think we have time to work on pilots throughout this 
country.
    And what I am seeking is, is there something--and I am not 
looking for the silver bullet either, I think none of us are, 
and as we reauthorize ESEA, language regarding evaluation that 
inspires, and also provides for the kind of tools that local 
school districts can really pick up and use and that they can 
have some way of having some way of verifying that what they 
are doing has some merit.
    I think the first question we have to ask sometimes is do 
evaluations matter? I mean, do we actually see that student 
achievement improves in schools that have, you know, what we 
might call as close as possible to a kind of state-of-the-art 
evaluation, I don't know if any of those exists, but maybe they 
do, and the question is it what role does the evaluation 
process play in that, so looking at that issue, but then how 
can we do this, because to me, giving grants to schools, giving 
them an application process and demonstrating that they are 
doing--I think it is going to be a little, perhaps like 
national board certification, which I think is fabulous, and I 
have been a been big champion of that and I love the idea of 
that as well in principalship.
    But we know there are certain individuals who are going to 
seek that, and we have to reach everybody here, we can't just 
do that. So what is it that we need, that we can do here in 
terms of evaluation, because what I keep feeling the pushback, 
you know, in whole or in part we don't want any link to test 
scores. Well, local school districts control a lot of that too. 
That is out of the hands of a lot of teachers, but the way in 
which teachers prepare students for that, to me, would be more 
significant than the actual score. So help me out here. I would 
love to be part of writing something that really makes a 
difference in this area.
    Ms. Weingarten. As Chairman Miller and I have had many 
conversations about this, and maybe we have, at the AFT, broken 
new ground on this, but in January, we talked about overhauling 
the teacher development and evaluation system, and having as a 
component of evaluation, both teacher practice and teacher 
standards, but also student learning.
    So some people think about student learning simply as 
standardized test scores, and I think about it as much broader 
than that. And your sense of urgency we feel as well. But what 
we are trying to do here is create some good practice and some 
good templates so that actual districts and unions could use 
them. And some of the researchers who helped design the 
evaluation frameworks that we released that day said to us 
allow for modeling. Don't come up with your own model, come up 
with frameworks that then districts and locals will use. In 
fact, what has happened since January is that we now have, and 
we are about to submit an i3 grant for 17 districts and local 
unions that are willing, over the course of the next year, to 
create this.
    We already have eight districts in New York and Rhode 
Island. And I see Congresswoman McCarthy there, she has been 
very helpful in helping us figure some of this out. We already 
have some of them on the ground doing this. The goal is to 
create a tipping point, to use this coming school year, and 
hopefully with a new reauthorized ESEA to promote a real 
overhaul of all of this, so that we are looking at what 
practice works and what doesn't, and then how do we replicate 
the practice that works and how do we jettison what doesn't 
work?
    And ultimately, if a teacher is floundering, how do we help 
the teacher? And if she doesn't make it, how do we weed her out 
of the profession? So if we had 25 or 50 pilots or an ability 
within the ESEA to really promote that within a year or 2, then 
in 3 years from now, we will have totally revamped teacher 
evaluation, which I think is the critical measure, development 
and evaluation, to solving teacher quality.
    Mrs. Davis. And what about--I think that is fine, but 
everybody else, how do we do something that in those 3 years, 
so we are not wasting that time also create the opportunity for 
others to look at some of the things that you are doing?
    Ms. Weingarten. What ends up happening is that there is 
with Race to the Top and with this focus on teacher preparation 
and evaluation now, people are sharing information, the likes 
of which they have not beforehand, but ultimately, if we just 
focus on the single test scores, just like right now, the 
antiquated 5-minute evaluations, we are not going to do any 
better in terms of teacher support than we are doing right now.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    Chairman Miller. Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman. Thank you, Mrs. 
Weingarten, for bringing up the very subject of competing with 
poverty. Far too many of our Nation's students go to school 
hungry or without proper medical care. Many of them don't have 
someone at home to help with homework, or a safe place to go 
after school. And I believe what you just said, that schools 
and communities need to be able to offer these services to 
children and their families so that children are ready to learn 
when they enter the classroom.
    So we are talking about teachers and how we ensure that the 
teachers are the most qualified, et cetera, et cetera. How can 
we evaluate teachers have wraparound services available in 
their school districts with those who do not? I mean, what are 
we going to do? It is going to be the poor districts that need 
it the most that are going to have the hardest time. I will 
start with that with you, if you have an answer.
    Ms. Weingarten. And Congresswoman Davis, I think, in some 
ways said this, we have to build these planes and fly them at 
the same time. We don't have a choice as school teachers. We 
have to help--so regardless of whether a teacher gets the 
support he or she needs, regardless of whether they have the 
support of principal, or we can say regardless of all of this, 
every single day a teacher has to try to do their best to 
create a connection and engagement with children.
    So there is a way, and I know the chairman and others have 
been talking about using growth models in terms of 
accountability as opposed the current AYP, that may be helpful 
in terms of this. But what we are also proposing for ESEA is 
this notion of shared responsibility and 360-degree 
accountability, so that as part of an accountability system, if 
a school does not have some of the wraparound services or 
programs that teachers believe kids need, that that is factored 
into accountability in some way, form or matter. But we can't 
wait for every school, as much as I--as much as we yearn for 
kids to have these programs we are not going to be able to wait 
for every school to have wraparound program for us to be able 
to focus on what teachers can be able to do and how we engage 
with kids.
    Ms. Woolsey. So would you take wraparound programs, and 
tell the members and everybody what you consider the basics of 
a wraparound program? And will they be the same for every 
district, or will they change depending on?
    Ms. Weingarten. Congressman Hoyer has, and I know you, 
Congresswoman Woolsey, have done this as well, you have bills 
about wraparound programs in community schools. What we have 
proposed is that there is a bucket of services that schools 
should be able to either access and coordinate with other not-
for-profits. Now the Race to the Top has some of this as part 
of the promise neighborhoods. We have actually said, let's 
downsize that to actual schools. And so those services could 
include health services that could be paid for through the 
SCHIP program; they could include social services; they could 
include after-school services; they could include in a high 
school, services for parents, ELL services, job development 
services in order to start really bringing parents into the 
school, having a school open 20 hours a day, 18 hours a day so 
that the school is really the center of community.
    So some of these services would--let's say you had 100 
extra dollars, a school would then decide which service they 
could buy with $100. Maybe they couldn't buy all of it, but 
they could buy what was most necessary.
    Ms. Woolsey. I have a question for you, Mr. Winters. What 
is an effective evaluation program?
    Mr. Winters. An example of one or what would one look like?
    Ms. Woolsey. What would it look like?
    Mr. Winters. Well, I am part of the experimental, I think, 
there are a lot of things we need to try. I don't think the 
test scores alone, if that is where we are going, I don't think 
the test scores alone are the way to go. I think test scores 
are limiting and they are noisy, but they do provide important 
information that should be used as part of evaluation tools.
    I also think that principal evaluations and even peer 
evaluations can play an important role in those things. Part of 
that will have to be--there needs to be accountability on the 
principals and the peers to make sure that they have the 
incentives to make the right decisions about teachers as well. 
What all the correct weights of that are, I am not sure, and I 
think that is something we need to consider moving forward. But 
an evaluation system that we have now where 99 percent, or a 
little bit less or a little bit more of teachers are rated as 
satisfactory or exceeding, or excelling is, by far, off base of 
reality.
    Ms. Woolsey. I have used up my time. Thank you, Mr. 
Chairman.
    Chairman Miller. Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chairman. I want to thank the 
panel for being here today. I just want to say at the outset, I 
really appreciate what you have had to say, Ms. Weingarten, 
about out of school factors, something I have tried to focus on 
since I have been here the beginning of January 2007. I like 
the idea of schools as sort of community centers. In some ways 
too, we have a school in Cedar Rapids, Iowa, Taylor Elementary 
School, that served that purpose quite well before the great 
flood of 2008, and they were inundated by the flood and they 
are coming back and doing that.
    Obviously it is important to the community as well. When 
you get a WIC program, for example, run out of the school and 
that sort of thing, it is sort of beyond what we think of as 
normal school activities.
    I have some concerns about some of what appears to be 
assumptions today, about sort of where we are already. Maybe 
part of that is because I am from Iowa, and maybe we take too 
much pride in what we already do in Iowa, and how well we do 
it. I am the first to admit there may be some false pride on my 
part.
    Chairman Miller. Really?
    Mr. Loebsack. The chair likes to hear me say that. But I do 
have a question, Dr. Ball, about your own research because--and 
I like what Congresswoman Biggert said, there are programs that 
are in existence, they may be inadequate, but there are student 
teacher programs, practicums, whatever the case may be. I guess 
I want to ask you sort of empirically, and maybe you can 
forward some of your articles to me; I would love to see that, 
I was an academic before I became a congressman so I am very 
interested to see the actual evidence for what we are lacking.
    And if it is the case that this is true across the country 
or particular parts of the country, does it relate specifically 
to particular SES, or are we talking about race factors here, 
ethnicity, what are we talking about exactly when we talk about 
the inadequacy of teachers and the inadequacy of the teacher 
training programs? That seems to be the focus today.
    Ms. Ball. Thank you. So your question has to do with what 
kind of evidence do we have been the inadequacy of our current 
system?
    Mr. Loebsack. That would, in fact, demonstrate the problem, 
as I see it, that we are talking about today.
    Ms. Ball. I think it is, in fact, true, that an 
apprenticeship that we typically in the last 30 or 40 years 
referred to as student teaching, nobody has argued that that is 
not a good idea. I am not saying we shouldn't have student 
teaching. My claim is somewhat more detailed, which is it 
matters what happens inside of something called student 
teaching or inside a clinical experience.
    Most programs, alternatives or higher ed programs provide 
field or clinical experience, but often they leave to beginning 
teachers, basically to experience to experiment on kids, to get 
somewhat undetailed feedback from their mentors. Mentors need 
to learn how to provide feedback. A physician who is a 
competent surgeon doesn't automatically know how to provide 
feedback to a medical students. And, in fact, medical schools 
do a lot of work to help people to learn to do that. I am 
describing the need to become much more deliberate, as Ms. 
Weingarten said, about how we would provide much more 
deliberate clinical training.
    Right now what I would say is we have a situation where it 
is left somewhat to chance. And so the research on student 
teaching is highly inconclusive because all it really shows is 
the student teaching matter or not and you can't get much out 
of that because it depends on what happens in the student 
teaching. How good the teacher is, how whether the teacher is 
good at giving skilled feedback, like really careful feedback.
    Why did that lesson not go well? That requires a real 
ability to be analytic about a teaching act, and to be able to 
tell a beginner here is where it went wrong. So the research 
would show that most of the efforts to try to evaluate these 
things are too undetailed, and so we get very kind of messy, 
noisy result. And what I am arguing, in part, by looking at 
other professions is that we need a system that much more 
deliberately and systematically that you could count on someone 
who has initial training having learned particular things.
    So with all the talk about assessments that we are doing 
today, it is important to remember that although the 
assessments for both kids and teachers need to be improved, 
that without the training to help people achieve when they are 
given those assessments, children won't do better only by being 
tested and neither will teachers. So we need both better 
assessments. My argument for assessments primarily is because I 
think it will drive, it will, I hope, drive a greater appetite 
for much better training. If we have really good assessments 
that teachers and experts about teaching believed it were valid 
then we would actually build a market for developing good 
training which we don't currently very.
    Mr. Loebsack. Is there any concern by any of you all on the 
panel today that if we move forward in the direction that I 
think many of us here think we should move, including many on 
the panel, that we might have the same problem that some would 
argue we had with No Child Left Behind, and we sort of create a 
situation where we have a one-size-fits-all model, potential 
for one-size-fits-all model we come up with some kind of new 
law or regulations, whatever, when it comes to training--trying 
to train good teachers that it will not be nimble enough to 
deal with different parts of the country or parts of a State or 
whatever the case may be.
    Chairman Miller. Mr. Loebsack will take his answer off the 
air.
    We are going to go to Mr. Courtney. Mr. Courtney is going 
to be the last questioner of this panel, and then we will take 
the second panel, they'll present their testimony and we will 
pick up with Ms. Clarke, who I believe is next.
    Mr. Courtney. Thank you, Mr. Chairman.
    Chairman Miller. The panel would like an answer to Mr. 
Loebsack's question, but I have got to move along here, we are 
going to lose opportunity.
    Mr. Courtney. Actually, my question was probably somewhat 
in the same vein, obviously we have looked at the New Haven 
contract in Connecticut very closely, read it from cover to 
cover and applaud the hard work that went into that work, where 
I think there is serious buy in both sides of the table in 
terms of a new way of approaching things.
    Again, I guess my concern is looking at the blueprint, 
which obviously is a very unfinished document and the devil is 
in the details when we get a bill here. Are you comfortable 
with whether or not they mesh or whether or not the challenge 
of building and flying at the same time may end up sort of 
crashing the contract, to put it bluntly?
    Ms. Weingarten. Building a plane and flying it at the same 
time always has its obvious problems, but I think in terms of 
education, we don't have a choice, because as Dr. Ball said, we 
are dealing with children every single day. So what we have by 
suggesting a change in the blueprint by saying that evaluations 
are critically important, but let's create some pilots so we 
can create a critical mass at the beginning of this process 
that then other districts can buy into, we think will actually, 
for the first time, change teacher quality fundamentally around 
the country. I think there are programs.
    And Congressman Loebsack, I have seen programs in Iowa that 
are absolutely terrific and we have see programs around the 
country that are actually terrific. But what we are proposing 
here is pilots that do both teacher development and evaluation, 
like what happened in New Haven. So you bootstrap all together, 
so an evaluation that is not simply a gotcha system or a 
snapshot system. It is the way in which you deal with the 
training piece that we have all talked about that has been 
totally and completely imperfect in schools so far. That is the 
big difference in terms of a change, a systemic change in 
schools.
    The point I am making about New Haven is that they did it 
through the vehicle of collective bargaining. So collective 
bargaining became a force for change and became a force for buy 
in. And they did it through a collaborative model and they met 
every single deadline that people were skeptical when the New 
Haven contract was first negotiated that it was just an 
agreement to a committee. What happened instead is they have 
actually met every single deadline and the evaluation plan that 
they came up with is a really good model throughout the 
country.
    So what we would propose is to have an opportunity to 
incentivize pilots in teacher development and evaluation so 
that we would have good practice around the country that one 
could look at as opposed to what unfortunately happened with No 
Child Left Behind, regardless of how laudatory the intent was 
is that you saw a lot of bad practice. You say basically 
teaching to the task instead of a real focus on teaching around 
learning.
    Mr. Courtney. Do you see that in the blueprint presented by 
the Secretary?
    Ms. Weingarten. That is why I am saying we would--one of 
our recommendations is to change the piece of blueprint that 
talked about evaluation and to say yes, of course, evaluation--
in our letter to the Secretary last summer about Race to the 
Top, we said evaluation is the Rosetta Stone, it is the 
critical need to really change it, overhaul it.
    And then in January, we came up with a proposal about how 
to do so. But what is happening around the country is that in 
the zeal to change evaluation systems, people are going and 
doing the easy route which is just to look at one test score. 
So we have gone from one snapshot of a principal coming in for 
5 minutes a year to one test score, neither one of them work. 
We need to have this throughout full deliberate process that 
really changes fundamental evaluations.
    Mr. Courtney. Ms. Ball, you look like you want to weigh in.
    Ms. Ball. I think that is absolutely right that we have to 
have a system that promotes efforts on helping people learn to 
be better. We have a scale here of such size that while we can 
do things in the environment of schooling that certainly will 
matter, that we have a very large teaching force and I tried to 
sketch that it will have a need for even more entrants, that if 
we really want to improve the quality of what kids are going to 
be getting in the immediate future, we have to immediately 
change the way we are approaching both initial training and the 
assessment processes so that we can build a system we want, not 
merely test whether it works or not.
    We have to create a system that works effectively for young 
people. And if all we do is test and throw out the things that 
are not working, we are not improving it. And there is an 
urgent need to do that.
    I do want to say one thing, which is, I think these 
problems are inherently requiring of multiple forms of 
expertise, and one thing that concerns me is sometimes I think 
a distraction, who has the expertise to solve these problems? 
In fact, I think it requires working across higher ed, 
researchers, practicing teachers, teacher leaders, people in 
the unions. There are a lot of people of expertise for these 
problems, and when we try to locate the creation of solutions 
in only one of the these domains, I think we shoot ourselves in 
the foot, because these problem are complicated and we need 
multiple kinds of expertise to work together. So I encourage 
you to produce language that permits that kind of collaboration 
to continue, and perhaps increase over what have seen in the 
recent years.
    Chairman Miller. That is a very good place for this panel 
to end because we are going to call upon all of you to 
participate in the solving of this problem. Thank you very much 
for your testimony and for your time. I think it is clear from 
those who got an opportunity to ask the questions that you have 
given us a lot to think about here with respect to 
professionalization of our teacher core.
    Our next panel will come forward.
    Chairman Miller. Welcome to the committee, and if I might 
introduce the panel while they are taking their seats, our 
first witness will be Marie Parker-McElroy who is an 
instructional coach at Fairfax County public schools. She has 
an on-the-ground view of professional development for teachers 
and administration, she has experience transforming 
underperforming schools and blue ribbon schools in a period 
under 5 years. She will talk to us about what makes good 
professional development and how to use data to drive it.
    Monique Burns Thompson is the president of Teach Plus in 
Boston, an organization which works to support the retention of 
high quality teachers in the second stage of their careers with 
expanded leadership opportunities for financial incentives for 
success. She focuses on the development, management and 
delivery of training curriculum and gives new principals the 
skills and instructional and managerial leadership, previously 
worked as the special assistant to the superintendent of 
Philadelphia public schools, and was also an assistant 
principal.
    Chris Steinhauser is superintendent of Long Beach Unified 
School District, a district which has been honored with the 
prestigious Broad Prize for Urban Education. He is an educator 
with three decades in the Long Beach school system. He has been 
involved in the seamless education program, a partnership with 
California State University Long
    Beach to train teacher candidates on designing course work, 
and he will share his knowledge about the Long Beach teacher 
system and professional development.
    Jeanne Burns is with the Louisiana Board of Regents, an 
associate commissioner of the teacher education initiative and 
the Louisiana Board of Regents. She also serves as codirector 
of Blue Ribbon Commission for Education Excellence and 
recommends policies to improve teacher quality and holds 
teachers accountable to results.
    Dr. Burns previously taught special education and worked in 
district leadership roles in Florida, and Louisiana. She will 
talk about teacher professional development for teachers and 
teacher leaders placement issues and serving rural schools.
    Dr. Tony Bennett is the Indiana superintendent of public 
instruction. Dr. Bennett has served as Indiana superintendent 
of public instruction and served has for 9 years in a classroom 
a science teacher before beginning his career in 
administration.
    John Kaplan is the president of Walden University. As 
president, he focuses on efforts to attract diverse student 
population that provides students in engaging learning 
environment expands global learning opportunities. Prior to 
joining Walden University, Mr. Kaplan had a career in 
government public policy and law in Washington, DC. Serving as 
the White House chief of staff for the national economic 
council and special assistant as president for economic policy 
under President Clinton.
    Ms. McElroy, we will begin with you. Welcome to all of you. 
I think most of you are here and see how the lighting system 
works. It will begin with a green light, go to an orange and 
then ask you to wrap up with the red light comes on. Thank you, 
we look forward to your testimony and thank you for your time.


STATEMENT OF MARIE PARKER-McELROY, INSTRUCTIONAL COACH, FAIRFAX 
                     COUNTY PUBLIC SCHOOLS

    Ms. Parker-McElroy. Good afternoon, Chairman Miller and 
members of the committee, I am honored to be invited to bring 
the teacher and instructional coach perspective to this 
important conversation today. I am here to share my views and 
experiences and express my support for Congressman Polis's 
Great Teachers for Great Schools Act. Which directly addresses 
implementation of high quality, effective professional 
development, something that I am very passionate about.
    Let me start with the metaphor, for every surgeon beside an 
operating table, there are countless people behind the scenes 
making sure that the surgeon can save a life. For every teacher 
in the classroom, we have specialized professionals to support 
them, help them solve problems, encourage them, and make sure 
their students are receiving the best instruction possible. I 
am one of those professionals. Like surgeons, teachers cannot 
effectively perform in isolation, they require teamwork, 
continuous professional development and improvement. However 
most schools are not organized to support valuable team work. 
School structure and tradition forces many teachers to teach 
alone in isolation from their colleagues. I work with teachers 
to bust this trend, to make sure that they understand the data, 
the research, the best practices and the best ways to work 
together.
    Today I want to talk about the impact that professional 
learning has on teachers that I work with daily, and more 
importantly, the impact it has on students. At Grant Road 
Elementary, there is strong professional development in place. 
Most the professional development occurs among teams of 
teachers organized by grade level. Teachers are supported in 
developing understanding and practice of new strategies by 
engaging in activities explored in team-based meetings. We 
constantly check to see if what we are doing is making a 
difference for our students and revise our practice 
accordingly. We develop a sense of shared responsibility for 
our students' success.
    Let me tell you about one team in particular. This year I 
am working with a team of fifth grade teachers. At the 
beginning of the year, only 72 percent of our students passed 
the county assessment. We have studied the standards that 10-
year-olds ought to achieve. We determined the knowledge and the 
skills students will need to meet these standards. We asked 
each other, what does it look like for each individual child in 
our classroom? We developed lessons and strategies for teachers 
to use with their students. This professional learning takes 
place in real-time, not months before in random lectures or 
workshops that occur away from our school.
    After implementing the strategies and lessons developed by 
the teams of teachers we study how the students responded to 
our lessons and whether they achieved the required standards. 
We immediately know if the students are achieving or not and we 
determine why.
    Our team uses the live feedback from the students to adapt 
our instructions. This continuous job-embedded and data-driven 
process of teams of teachers studying and implementing 
effective teaching practices aligned to students needs has 
produced significant academic gains for our students. One week 
ago, we retested our students and 91 percent of them passed. 
That is an increase of 19 percentage points gained in less than 
one full academic year. How did this happen? Teachers were 
involved in effective, real-time on the job professional 
learning with our their colleagues who know their students and 
what their students need to increase their success.
    Students in our classroom only have 36 weeks to learn the 
grade level standards. My teachers, and more importantly my 
students, don't have time to waste. Collaborative professional 
development allows them to learn from each other and access the 
tools and strategies they need when they need them to help our 
students achieve. A teacher and coach once said as a brand new 
teacher and having a personal connection to a coach who 
understood curriculum and structure in the culture of the 
school gave me more support than anything else that was 
offered. Being able to rely on a coach to come into any 
classroom and not judge, but support my instruction, increased 
my ability to support each individual student I taught.
    In summary, Mr. Chairman and members of the committee, I am 
confident that students can reach their full academic potential 
when teams of teachers are actively engaged in professional 
learning based upon data and the needs of their own students 
and organized in a structure that offered timely and embedded 
teams in classroom-based support. I recommend that the 
Reauthorized Elementary and Secondary Education Act, include a 
Federal definition of professional development consistent with 
the National Staff Development Council Standards for staff 
development and Congressman Polis's Great Teachers For Great 
Schools Act.
    We as teachers need the support to improve our practice and 
increase student achievement. I also recommend that federally-
funded professional development should be evaluated rigorously 
for its impact on teacher performance and student learning.
    Finally, please provide dedicated resources so that 
districts can build capacity and provide time and support to 
implement professional development in all schools. Achievement 
for all students depends on investing in it now.
    [The statement of Ms. Parker-McElroy follows:]

Prepared Statement of Marie Parker-McElroy, Cluster-Based Instructional 
                  Coach, Fairfax County Public Schools

    Good afternoon, Mr. Chairman, Ranking Member, and Members of the 
Committee. My name is Marie Parker-McElroy, a Cluster-Based 
Instructional Coach in Fairfax County Public Schools, the twelfth 
largest school district in the country. I work in two schools, Camelot 
Elementary and Graham Road Elementary. I am honored to be invited to 
bring the teacher and instructional coach perspective to this important 
conversation. I am here today to share my views and experiences, and to 
express my support for Congressman Polis' Great Teachers for Great 
Schools Act, which directly addresses the implementation of high-
quality, effective professional development--something that I am 
passionate about.
    Let me start with a metaphor. For every surgeon beside an operating 
table, there are countless people behind the scenes, making sure that 
the surgeon can save a life. For every teacher in the classroom, we 
have specialized professionals to support them, help them solve 
problems and improve, encourage them, and make sure that their students 
are receiving the best instruction possible. I am one of those 
professionals.
    Like surgeons, teachers cannot effectively perform in isolation. 
They require teamwork, continuous professional development and 
improvement. However, most schools are not organized to support 
valuable team work. School structure and tradition forces many teachers 
to teach alone, in isolation from their colleagues. I work with 
teachers to buck this trend, to make sure that they understand the 
data, the research, the best practices, and the best ways to work 
together.
    Today, I want to talk about the impact that professional learning 
has on teachers that I work with daily, and more importantly, the 
impact it has on students.
    At Graham Road Elementary, there is a strong professional 
development structure in place. Most of the professional development 
occurs among teams of teachers organized by grade level. We begin 
professional development meetings by looking at our data, focusing 
first on school-wide data. As the instructional coach, my job is to 
work with each team to analyze the data, discover instructional 
strengths and weaknesses, establish team learning priorities, and 
define indicators for success. Throughout this process, we identify 
books and research that we will read together to deepen our 
understanding and content knowledge. We also develop a sense of shared 
responsibility for our student success.
    On an ongoing basis, we review our progress in implementing the 
school improvement plan. We constantly check to see if what we are 
doing is making a difference for our students and revise our practices 
accordingly. These measures can be as simple as a teacher using pencil 
and paper to analyze a test or include excel spreadsheets with student 
data to analyze our impact on students' learning.
    To recap, teachers are supported in developing their understanding 
and practice of new strategies by engaging in activities explored 
during team-based professional learning meetings. These meetings are 
led by teacher leaders, coaches or principals. The meetings focus on 
deepening content knowledge, planning formative assessments to check 
for student understanding, and analyzing common assessments to measure 
the impact of instruction.
    Let me tell you about one team in particular. This year I am 
working with a team of fifth grade teachers. At the beginning of the 
year, only 72 percent of students passed the county assessment. We meet 
weekly during regular school hours. We study the standards that 10-
year-olds ought to achieve. We determine the knowledge and skills 
students will need to meet the standards. We ask each other, ``how does 
this look for academically advanced students, second language learners, 
students in special education or the economically disadvantaged?'' We 
develop lessons and strategies for teachers to use with their students. 
This professional learning takes place in real time; not months before 
in random lectures or workshops that occur away from our school.
    After implementing the strategies and lessons developed by the 
teams of teachers, we study how the students responded to our lessons 
and whether they achieved the required standards. We immediately know 
if the students are achieving or not and determine why. Our team uses 
the live feedback from the students to adapt our instruction.
    This continuous, job-embedded, and data-driven process of teams of 
teachers studying and implementing effective teaching practices aligned 
to student needs has produced significant academic gains for our 
students. One week ago, we retested our students and 91 percent of them 
passed. That is an increase of 19 percentage points, gained in less 
than one full academic year. How did this happen? Teachers were 
involved in effective, real-time and on-the-job professional learning 
with their colleagues who know their students and know what their 
students need to increase their success. Students in our classrooms 
only have 36 weeks to learn the grade-level standards. My teachers, and 
more importantly my students, don't have time to waste. Collaborative 
professional development allows them to learn from each other and 
access the tools and strategies they need--when they need them--to help 
our students achieve.
    A teacher I coached once said:
    I joined Graham Road Elementary School as a brand new teacher and 
having a personal connection to a coach, who understood curriculum, 
instruction, and the culture of the school gave me more support than 
anything else that was offered. Being able to rely on a coach to come 
into my classroom and not judge, but support my instruction increased 
my ability to support each individual student I taught. My coach's 
constant feedback and modeling increased my own efficacy as a teacher, 
which in turn improved each student's learning within the class. I am 
confident to say that without an effective instructional coach many 
teachers would not be as effective as they are and therefore many 
students would not be at their full academic potential.
    In summary, Mr. Chairman and members of the committee, I am 
confident that students can reach their full academic potential when 
teams of teachers are actively engaged in professional learning based 
upon data and the needs of their own students and organized in a 
structure that offers timely and embedded team and classroom-based 
support.
    I recommend that the reauthorized Elementary and Secondary 
Education Act include a federal definition for professional development 
consistent with the National Staff Development Council's Standards for 
Staff Development and Congressman Polis' Great Teachers for Great 
Schools Act. We, as teachers, need the support to improve our practice 
and increase student achievement. I also recommend that federally 
funded professional development should be evaluated rigorously for its 
impact on teacher performance and student learning. Finally, please 
provide dedicated resources so that districts--especially those most in 
need of improvement--can build capacity, and provide time and support 
to implement effective professional development in all schools. This is 
the most critical lever available to improve the effectiveness of our 
teacher workforce, as we continue to seek ways to improve recruitment 
and preparation. Achievement for all students depends on investing in 
it now.
    Thank you, Mr. Chairman and Members of the Committee for the 
opportunity to share my point of view as a teacher and instructional 
coach.
                                 ______
                                 

   STATEMENT OF MONIQUE BURNS THOMPSON, PRESIDENT, TEACH PLUS

    Ms. Thompson. Chairman Miller and members of the committee, 
thank you very much for providing me with the opportunity to 
talk with you this afternoon about the importance of effective 
teachers and how to attract and retain them in the schools that 
need them the most. At Teach Plus, we work with experienced 
effective teachers in years 3 to 10 of their careers. The ideas 
presented here are informed by those teachers. The research 
confirms what parents and educators have long known, teachers 
are the most important factors in determining whether a child 
has a lifetime of choice or challenge. We know that there are 
big differences among teachers, as much as one full year's 
worth of learning between the most and the least effective 
teachers. Students in Los Angeles who were assigned the most 
effective teachers gained, on average, 10 percentile points 
more than students in classrooms with less effective teachers. 
The researchers conclude if the effects were to accumulate 
having a top quartile teacher, rather than a bottom quartile 
teacher for 4 years in a row would be enough to close the Black 
White test score gap.
    Even though we know unequivocally how much talented 
teachers matter, harmful patterns of inequitability, access to 
the strongest teachers continue to exist, especially for low-
income minority students. Recent analysis of the national 
school and staffing survey data reveals that core academic 
classes in high poverty secondary schools are almost as twice 
likely as their low poverty counterparts to be taught by 
teachers with neither major nor certification in their assigned 
subjects. Children in high poverty schools
    Are more than twice as likely to receive an inexperienced 
teacher as children in low poverty schools.
    Clearly we must design policies and practices to attract, 
support and retain our most effective teachers and ensure that 
they are working in schools with students who need them the 
most. We feel this work is the civil rights issue of our time 
if we are to close the achievement gap that has held back 
generations of our citizens from participating and constructing 
a stronger future America.
    Thankfully the teachers with whom we work in Massachusetts, 
Indiana, Illinois and Tennessee believe this as well. One such 
team of teachers ask our Boston policy fellowship program. As 
they read the research on teacher distribution they became 
outraged. These teachers developed a proposal to staff the so-
called hard-to-staff schools with experienced, effective 
teachers. They called it Ready for the Next Challenge. And it 
begins with the profound statement from the teachers 
themselves.
    We believe that given the right support and conditions, 
there is no shortage of talented, experienced teachers willing 
to teach in low performing schools. The idea that no one wants 
to teach in high-need schools risks becoming a self-fulfilling 
prophecy. It must be replaced with what can we do to attract, 
retain and develop teachers who want to teach in these schools. 
They proceeded to layout the conditions that would motivate 
them to teach in low-performing schools and for the next year 
we at Teach Plus worked to enact their model in the Boston 
public school system.
    The program is called T3, Turnaround Teacher Teams. T3 was 
adopted by the superintendent of the Boston public schools, Dr. 
Carol Johnson to recruit select cohorts of effective teachers 
in three of Boston's lowest achieving schools. The goal of T3 
is to ensure that high-need students have significantly 
improved access to excellent teachers. T3 is a key piece of Dr. 
Johnson's strategy to turn around chronically underperforming 
schools.
    The initiative is made up of six primary components. T3 is 
selective, teachers must apply and demonstrate a minimum of 3 
years of effective teaching in the urban setting. T3 is a team-
based strategy, a minimum of 25 percent of the faculty will be 
T3 teachers. T3 teachers will play central leadership role in 
performing and transforming that school as these teachers 
continue to be teachers in the classroom. They will have a pay 
differential, they will work for highly effective principals 
who have a track record of turnaround, and they will have time 
for training and collaboration.
    In addition to running a national marketing campaign, Teach 
Plus has created a rigorous T3 selection process that is 
designed in partnership with the Boston public schools to be 
fair and comprehensive in assessing teachers readiness to be 
turnaround leaders.
    So the logical next question is teachers have envisioned 
it, we have built it, will they come? After just 2 weeks of 
marketing, over 130 teachers have begun the application 
process, including Fulbright Scholar, quite a few teachers from 
charter schools, a large number of experienced ELL teachers 
that are desperately needed in these schools. We have given a 
reason to stay and reconnect with corps mission that brought 
them into teaching in the first place, social justice. They are 
showing all of us that they are ready for the next challenge, 
they are not afraid or hesitant to take on the hefty heavy 
lifting of school reform and they are eager to serve the city's 
children with greatest need.
    We are inspired and motivated by these teachers every day 
and we hope this distinguished committee will be as well.
    [The statement of Ms. Thompson follows:]

  Prepared Statement of Monique Burns Thompson, President, Teach Plus

    Chairman Miller and Members of the Committee: Thank you very much 
for providing me with the opportunity to talk with you this afternoon 
about the importance of effective teachers and how to attract and 
retain them in the schools that need them the most. At Teach Plus, we 
work with experienced, effective teachers in years 3-10 of their 
careers. The ideas presented here are informed by those teachers.
Teachers: Our Most Valuable Resource
    The research confirms what parents and educators have long known: 
Teachers are the most important factor in determining whether a child 
has a lifetime of choice or challenge.
    We know that there are big differences among teachers--as much as 
one full year's worth of learning between the most and least effective 
teachers.\i\ Students in Los Angeles who were assigned to the most 
effective teachers\ii\ gained, on average, ten percentile points more 
than students in the classrooms of the least effective teachers.\iii\ 
The researchers conclude: ``If the effects were to accumulate, having a 
top-quartile teacher rather than a bottom quartile teacher four years 
in a row would be enough to close the black-white test score gap.'' 
\iv\
---------------------------------------------------------------------------
    \i\ Chait, Robin (2009). From Qualifications to Results: promoting 
Teacher Effectiveness Through Federal Policy. Washington, D.C.: Center 
for American Progress. Sources: Eric A. Hanushek and Steven G. Rivkin, 
``How to Improve the Supply of High Quality Teachers'' (Washington: 
Brookings Institution, 2003); Rockoff, ``The Impact of Individual 
Teachers on Student Achievement Evidence from Panel Data''; Steven G. 
Rivkin, Eric A. Hanushek, and John F. Kain, ``Teachers, Schools, and 
Academic Achievement,'' Econometrica 73 (2) (2005): 417--458.
    \ii\ Ibid.
    \iii\ Most effective teachers are those teachers in the top 
quartile of performance, while very ineffective teachers are teachers 
in the bottom quartile of performance, using ``value-added'' to measure 
performance. Source: Gordon, R., Kane, T.J., and Staiger, D.O. (2006). 
Identifying Effective teachers Using Performance on the Job. 
Washington, D.C.: The Brookings Institution.
    \iv\ Ibid.
---------------------------------------------------------------------------
Inequitable Access Persists: We Must Act with Courage and Conviction
    Even though we know unequivocally how much teachers matter, harmful 
patterns of inequitable access to the strongest teachers continue to 
exist, especially for low-income and minority students:
    <bullet> Recent analysis of the Schools and Staffing Survey Data--
the only national dataset we have on teacher distribution and 
characteristics--reveals that core academic classes in high-poverty 
secondary schools are almost twice as likely as core academic classes 
in low-poverty schools to be taught by teachers with neither a major 
nor certification in their assigned subject (14 percent compared to 27 
percent).\v\
---------------------------------------------------------------------------
    \v\ Richard Ingersoll, 2007. Analysis of the 2003-2004 Schools and 
Staffing Survey Data for the Education Trust, ``Core Problems: Out-of-
Field Teaching Persists in Key Academic Courses and High-Poverty 
Schools.'' Available: http://www.edtrust.org/sites/edtrust.org/files/
publications/files/SASSreportCoreProblem.pdf
---------------------------------------------------------------------------
    <bullet> Children in high-poverty schools are more than twice as 
likely to receive an inexperienced teacher as children in low-poverty 
schools.\vi\
---------------------------------------------------------------------------
    \vi\ Heather Peske and Kati Haycock, 2006. ``Teaching Inequality: 
How Poor and Minority Students are Shortchanged on Teacher Quality.'' 
Washington, DC: The Education Trust.
---------------------------------------------------------------------------
    <bullet> And when we look at the data on the distribution of 
teacher effectiveness, we find similar inequity. The Tennessee 
Department of Education recently analyzed state data on teacher 
effectiveness to see where the state's most effective teachers are 
teaching.\vii\ They found: ``Students in Tennessee's high priority 
schools have less access to the state's most effective teachers in 
reading/language arts and math than students in other schools across 
the state.'' \viii\
---------------------------------------------------------------------------
    \vii\ These ``most effective teachers'' are producing at least one 
and a half year's worth of growth with students.
    \viii\ ``Distribution of Effective Teachers in Tennessee Schools,'' 
Tennessee Race to the Top Application Appendix D-3-2, page D-133. 
Available: http://www2.ed.gov/programs/racetothetop/phase1-
applications/appendixes/tennessee.pdf
---------------------------------------------------------------------------
Recruiting and Retaining Effective Teachers in the Schools that Need 
        Them Most: The Civil Rights Issue of this Generation
    Clearly, we must design policies and practices to attract, support 
and retain our most effective teachers, and ensure they are working in 
schools with the students who need them the most.
    This work is the civil rights issue of our time if we are to close 
the achievement gap that has held back generations of our citizens from 
participating in constructing a stronger future America. Thankfully, 
the teachers with whom we work in Massachusetts, Indiana, Illinois and 
Tennessee believe this as well.
A Pioneering Solution to Inequitable Distribution in Boston, MA: T3: 
        Turnaround Teacher Teams
    One such team of teachers is in our Boston Policy Fellowship 
program. As they read the research on teacher distribution, they became 
outraged. They and so many of their peers were motivated to teach by a 
commitment to social justice. The systematic breakdown in matching 
high-need students with high-quality teachers was a problem they 
believed to be solvable. These teachers developed a proposal to staff 
so-called ``hard-to-staff'' schools with experienced, effective 
teachers. They called it, ``Ready for the Next Challenge'' and it 
begins with a profound statement from the teachers themselves, ``We 
believe that, given the right supports and conditions, there is no 
shortage of talented experienced teachers willing to teach in low-
performing schools. The idea that no one wants to teach in a high-need 
school risks becoming a self-fulfilling prophecy. It must be replaced 
with, What can we do to attract, retain and develop teachers who want 
to teach in these schools?''
    They proceeded to lay out the conditions that would motivate them 
to teach in a low-performing school, and for the next year, we at Teach 
Plus worked to enact their model in the Boston Public Schools. The 
initiative is called T3: Turnaround, Teach, Team Initiative. T3 was 
adopted by the Superintendent of the Boston Public Schools, Dr. Carol 
Johnson to recruit, select and support cohorts of effective teachers in 
three of Boston's lowest achieving schools. The goal of T3 is to ensure 
that high-need students have significantly improved access to excellent 
teachers. T3 is a key piece of Dr. Johnson's strategy to turn around 
chronically underperforming schools. The T3 Initiative is made up of 
six primary components:
    1. T3 is selective. Teachers must apply to the T3 Initiative and 
demonstrate a minimum of three years of effective teaching in an urban 
setting.
    2. T3 is a team-based strategy. A minimum of 25% of the school 
faculty will be selected through the T3 process, ensuring strong 
colleagues in the turnaround effort.
    3. T3 Teachers will play central leadership roles in transforming 
the schools. T3 teachers will serve in lead teacher roles, such as 
grade level chairs, while continuing in the classroom. They will also 
be part of the school principal's turnaround leadership council.
    4. Pay differential. Additional compensations will range from 
$6,000-8,000 depending on the amount of additional time worked.
    5. The principals of these schools are highly effective. Each of 
these schools has a new principal with a turnaround track record and a 
commitment to teacher leadership.
    6. Time for training and collaboration. T3 teachers will be trained 
together in the summer to take on the challenges of teacher leadership 
and school turnaround. They will also have the support of a team and 
data coach throughout the school year.
    In addition to running a national marketing campaign, Teach Plus 
has created a rigorous T3 selection process that is designed in 
partnership with Boston Public Schools to be a fair and comprehensive 
way of assessing a teacher's readiness to be a turnaround leader. The 
T3 selection process includes:
    <bullet> A written application;
    <bullet> An interview process that involves participation in a 
case-based challenge;
    <bullet> Evidence of effective classroom teaching practice--in the 
form of an observation of submitted video.
    So the logical next question is, ``teachers have envisioned it, we 
have built it, will they come?'' After just two weeks of marketing over 
100 teachers have begun the application process including a Fulbright 
scholar, quite a few teachers from charter schools interested in 
working the traditional system, and a large number of experienced SPED 
and ELL teachers these schools desperately need. We are giving them 
reason to stay and a chance to reconnect to the core mission that 
brought them into teaching in the first place: social justice. They are 
showing all of us that they are ready for the next challenge, they are 
not afraid or hesitant to take on the heavy lifting of school reform 
and they are eager to serve the city's children with the greatest need. 
We are inspired and motivated by these teachers every day, and we hope 
that this distinguished committee will be as well.
                                 ______
                                 
    Chairman Miller. Mr. Steinhauser.

  STATEMENT OF CHRIS STEINHAUSER, SUPERINTENDENT, LONG BEACH 
                    UNIFIED SCHOOL DISTRICT

    Mr. Steinhauser. Good afternoon, Chairman Miller, 
Congressman Castle, and distinguished members of the committee. 
I deeply appreciate this historic opportunity to provide 
testimony on the most important civil rights issue of our time, 
for I firmly believe every child has the right to a good 
education.
    In Long Beach, data-driven accountability has become a way 
of life, use of data is infused into our nationally recognized 
professional development and our C1 certification partnership 
with California's State University, and Long Beach City College 
where most of our teachers come from. Such professional 
development is required of all new teachers and administrators 
in our district. New teachers and administrators are not simply 
left to sink or swim in Long Beach, it is supported by new 
teacher and administrative coaches and ongoing training in how 
to use data to continually improve instruction throughout the 
school year.
    I also would like to add that all of our teachers and 
parents have total access to data 24/7. All of our parents can 
see immediately how their students have done on their test. My 
wife is a teacher at our school system, she can give a test 
that day, go home that night, and regroup her kids based on 
disaggregation, how the kids have done based on the scanning of 
those tests.
    I would like to also talk about a few of our best practices 
in Long Beach. Through our partnership with California State 
University of Long Beach we have totally redesigned all of our 
teacher ed and our administrator programs. We have gone into a 
program where we have multiple pathways into our teacher ed 
administrator programs. We take our best and brightest teachers 
and administrators and we coteach the up and coming new 
teachers and administrators with our higher ed partners. Some 
of those classes are taught at the University; and some of 
those classes are taught in our campuses. We have provided 
apprenticeships for teachers and for our administrators and so 
they hone their craft.
    Our leadership development program prepares the next 
generation of leaders in our district. We have a whole host of 
tiered activities for our teachers so that if they choose not 
to leave the classroom, they can stay in the classroom and hone 
their craft and help other teachers. Ninety percent of our 
administrators in Long Beach Unified were teachers of Long 
Beach Unified. And we retain about 90 percent of our teachers 
in our school system after 5 years of instruction. We lose very 
few teachers in our school district.
    We also use the same strategy for our school improvement 
strategy. We take our most successful teachers and our most 
successful principals and we reassign them to our most troubled 
school. We also use response to intervention for students in 
the same way that we do for our schools. In that sense, schools 
that are having greater struggles have fewer flexible options. 
Schools who are doing really, really well have greater flexible 
options in our school system.
    We believe strongly that we need to think outside the box 
as school systems and so we have entered into a partnership 
with Fresno Unified which is the fourth largest school district 
in California. So the third and fourth largest school systems 
now have a formalized partnership recognized by our State Board 
of Education, and we are focusing on 3 areas: ELL instruction 
for English language learners, math instruction for all 
students and leadership development.
    I want to share one program where we had one teacher who 
modeled a map program that was taught in Singapore in one of 
our classrooms. We received unbelievable results. We then moved 
that program to other schools in our district. Our student test 
scores went up 24 percent in a 3-year period. That program is 
now replicated in Fresno, Garden Grove, Oakland and Compton 
Unified with the same results. Now our teachers in Fresno and 
Long Beach are codeveloping and coteaching classes and new 
programs to serve our students. We have regular visitations 
from Fresno teachers and Long Beach teachers in both school 
systems, we meet 3 times a school year.
    I want to close by saying that we would recommend providing 
districts like ours maximum flexibility regarding expenditures 
of local Federal funds, this can be done while still assuring 
accountability to make sure that we focus on all student needs. 
We endorse the ESEA blueprint unveiled by the President and we 
welcome the President's emphasis on competitive grants. We 
believe strongly that competition drives reforms by rewarding 
success. We have made great progress in Long Beach, but we can 
and must accelerate our efforts, and we can only do that with 
your help and with Federal policy.
    I look forward to working with you to achieve this aim, and 
I want to thank you again for this opportunity to speak to you.
    [The statement of Mr. Steinhauser follows:]

  Prepared Statement of Christopher J. Steinhauser, Superintendent of 
            Schools, Long Beach Unified School District (CA)

    Hello, Chairman Miller, Ranking Member Kline, and distinguished 
members of the committee. I deeply appreciate this historic opportunity 
to provide testimony on the most important civil rights issue of our 
time, for I firmly believe that every child has a right to a good 
education.
    As superintendent of the Long Beach Unified School District, I'm 
here today on behalf of 87,000 students in California's third largest 
school district--a school system that despite the tough obstacles of 
poverty, language barriers and our ongoing, multi-billion dollar cuts 
in state funding for education--continues to defy the odds and achieve 
steady, significant gains in student achievement.
    I've provided several attachments to this written testimony showing 
that other experts nationwide have recognized the effectiveness of Long 
Beach schools, and that our approach merits replication elsewhere. A 
common theme in those attachments is that in Long Beach, data-driven 
accountability has become a way of life. Use of data is infused into 
our nationally recognized professional development and our Seamless 
Education Partnership with our local postsecondary institutions that 
produce most of our new teachers. Such professional development is 
required of all new teachers and administrators in our district. New 
teachers are not simply left to sink or swim in Long Beach. They're 
supported by new-teacher coaches, and with ongoing training on how to 
use data to continually improve instruction throughout the school year.
    In Long Beach, students speak 38 languages, and 70 percent of our 
children receive federally subsidized meals, yet students from all 
walks of life--from the inner city to the suburbs--are making academic 
gains because of our persistent focus on data-driven instruction and 
training.
    Allow me to share a few of our best practices in Long Beach:
    <bullet> We offer school choice to our parents, allowing them to 
select a school within our system, or if they so choose, to attend a 
school outside our district. Forty percent of our students are 
attending schools of choice.
    <bullet> We were the first public school system in the United 
States to implement uniforms in kindergarten through eighth grade, and 
we now have two high schools in uniforms.
    <bullet> We were the first to require any third grader reading 
below grade level to attend mandatory summer school, and the first to 
end social promotion, or the practice of passing students from one 
grade to the next whether they met grade level standards or not.
    <bullet> Our Academic and Career Success For All Initiative aims to 
increase the college and career readiness of all students. It includes 
our College Promise program, which provides scholarships, a tuition-
free first semester at our local city college, and guaranteed college 
admission at our local university for students who complete minimum 
requirements.
    <bullet> Our Leadership Development Program prepares the next 
generation of school leaders by building a leadership pipeline, through 
new principal induction, teacher leader certification and other 
leadership development training.
    <bullet> Our school improvement strategies include the pairing of 
some of our most successful school principals with our schools that 
need the most support. We use Response to Intervention strategies in a 
systemic fashion, providing tiered support to students and schools. 
This way, schools in need of greater support receive it, along with 
more structured guidance from our central office, while higher 
achieving schools are allowed greater flexibility at their site.
    <bullet> We learn from other school districts, and other districts 
learn from us, in a systematic fashion. We have entered into a 
partnership with Fresno Unified School District, so that now we have 
the third and fourth largest school districts in California committed 
to sharing knowledge and resources to increase graduation rates and 
prepare students for college and the working world. We're especially 
focused on sharing with Fresno our best practices on English Language 
Learner instruction, leadership development, and math instruction.
    Long Beach proves that our public schools, and our large, urban 
school systems, can overcome stubborn challenges. But we need your 
help. Despite our nationally recognized success in Long Beach, I truly 
believe that we can do much better if we make some key adjustments.
    We recommend providing school districts like ours the maximum 
flexibility possible regarding the expenditure of federal funds. This 
can be done while assuring accountability, and we have helped to 
initiate a pending state senate bill, SB 1396, that proposes a pilot 
program to do just that in California.
    We endorse the ESEA blueprint unveiled recently by President Obama. 
The blueprint would reward academic growth and innovation instead of 
simply sending more money to troubled school districts.
    We welcome the president's emphasis on competitive grants. 
Competition drives reform by recognizing and rewarding success.
    The president's blueprint contains a number of other features that 
we favor. I have attached additional information on our input regarding 
the blueprint.
    We've made great progress in Long Beach, but we can and must 
accelerate our efforts with the help of sound federal policy. I look 
forward to working with you to achieve this aim, and I thank you again 
for the opportunity to provide this testimony.
    Attachments:
    A. Obama Plan Aims to Reward Performance (By Christopher J. 
Steinhauser)
    B. Reforms Bring International Acclaim
    C. Stanford U. Touts School Reform Here
    D. Seamless Education a `National Model'
    E. Federal Review Praises Accountability
    F. Downtown School Wins National Award
    G. Senior U.S. Education Official Visits
    H. New Harvard Book Touts Long Beach
    I. America's Educators Look to Long Beach
    J. State Superintendent Praises LBUSD's Use of Data
    K. Use of Data Lauded by National Council
    L. LBUSD `America's Crown Jewel'
                                 ______
                                 
                              ATTACHMENT A

                 Obama Plan Aims to Reward Performance

    We have good news and bad news about the list of schools that the 
California Department of Education just deemed to be among the poorest 
performers in the state. The good news is that thanks to the hard work 
of our teachers and others, no schools in the Long Beach Unified School 
District appeared on this ``lowest 5 percent'' list. The bad news is 
that because we have no schools on the list, our schools and students 
will miss out on tens of millions of dollars in federal education 
funding that will instead go to the poorest performing schools.
    Last Saturday, President Barack Obama attempted to remedy such 
funding flaws as he unveiled his blueprint for the reauthorization of 
the Elementary and Secondary Education Act, also known as No Child Left 
Behind. Building upon his administration's Race to the Top education 
initiative, President Obama's plan would reward academic growth and 
innovation instead of simply sending more money to troubled school 
districts. We applaud the president's plan, which presents an important 
opportunity to revamp many of NCLB's deficiencies.
    Instead of unfairly labeling schools as failures, including some of 
the top-ranked schools in the nation, President Obama's plan would 
abolish NCLB's draconian Adequate Yearly Progress system, replacing its 
single snapshot approach with a system that rewards academic gains. 
Here in our school district, which has attracted national attention for 
its successful school reforms, we say it's about time.
    We welcome the president's emphasis on competitive grants. 
Competition drives reform by recognizing and rewarding success. We saw 
this theory in action when, even before any Race to the Top money was 
spent, many states moved forward on a number of reform issues as they 
competed for federal funds.
    The president's blueprint contains a number of other features that 
we favor:
    <bullet> Competitive grants will focus on big-picture goals 
(student success, teacher excellence, etc.) and give recipients the 
freedom to decide how to meet those goals.
    <bullet> Competitive funding will drive reform not only at the 
state level but also at the school district level. We relish the 
opportunity to apply directly for federal funds, bypassing Sacramento.
    <bullet> Designated funds will support local projects to incubate 
and expand promising reforms. This approach not only complements our 
practice of launching pilot projects and then carefully evaluating and 
refining them before implementing them more broadly. It also inherently 
encourages collaboration with teachers and community partners, which 
has been key to our success in Long Beach.
    <bullet> Fewer, but larger and more flexible funding streams will 
be created for areas integral to student success, giving states and 
districts flexibility to focus on local needs. These new, competitive 
funding streams will still ensure that federal funds are used wisely. 
At the same time, school districts will have fewer restrictions on 
blending funds from different categories, meaning less red tape. We 
have consistently advocated for such increased flexibility at the state 
and federal levels.
    <bullet> College and career readiness standards will be 
implemented, as will improved assessments aligned with those standards. 
This effort will enhance our own Academic and Career Success Initative, 
which aims to prepare more students for high-paying, high-demand jobs.
    Critics of the president's plan should consider this. Few people 
dispute that the current system doesn't work. Secondly, our students in 
Long Beach face the same and often greater challenges than those in 
other school districts, yet they regularly miss out on large sums of 
federal help. Two-thirds of our students live below the poverty line. 
More than 30 languages are spoken in our schools. Yet somehow we 
continue to make significant progress. Federal policies should not 
punish our teachers and students for their successes. We're just as 
deserving of those federal funds--if not more so--than other school 
systems.
                                 ______
                                 
                              ATTACHMENT B

                  Reforms Bring International Acclaim

    A new book examining successful and enduring school reform in the 
U.S. and beyond praises the Long Beach Unified School District's steady 
gains in student achievement.
    The book, ``All Systems Go: The Change Imperative for Whole System 
Reform,'' says that ``Long Beach has had a long run of success from 
1992 to the present.''
    Author Michael Fullan details LBUSD's development of higher 
standards for students, and how those standards are attained through 
effective central office support for schools.
    Fullan contrasts Long Beach's successful reforms with California's 
penchant for piecemeal policy making and fiscal uncertainty.
    While ``Long Beach represents another example of whole-system 
reform at the district level,'' the book states, ``California continues 
to be one of the worst examples of piecemeal reform, not to mention the 
fact that it is currently desperately in debt.''
    Among LBUSD's successes cited in the book are the increase in the 
number of fifth graders reading at grade level here, and a dramatic 
decrease in high school dropout rates.
    The author, Fullan, is professor emeritus at the Ontario Institute 
for Studies in Education at the University of Toronto and is special 
adviser on education to Dalton McGuinty, the premier of Ontario. He is 
currently working as adviser and consultant on several major education 
reform initiatives around the world.
    Find Fullan's book at www.corwin.com. Type ``All Systems Go'' in 
the search field.
                                 ______
                                 
                              ATTACHMENT C

                  Stanford U. Touts School Reform Here

    For many years, high school was the time when students chose to 
pursue college or a career. But educators today recognize that high 
schools must prepare all students for both college and career 
readiness. A recent report from Stanford University says Long Beach is 
tackling this challenge effectively and creating lasting reform.
    Long Beach and some other districts in California are working to 
improve high schools by connecting strong academics, demanding 
technical education and real-world experience in a wide range of 
fields, such as engineering, arts and media, biomedicine and health. 
This reform model, known as linked learning (or multiple pathways), 
provides multiyear programs of study that are rigorous, relevant and 
directly connected to regional and state economic needs. The idea is to 
prepare students for success in a full array of options after high 
school.
    The recent report from Stanford's School Redesign Network focuses 
on Long Beach's ``distributive leadership'' method of implementing such 
reform.
    ``Rather than an `initiative-of-the month' approach, distributive 
leadership enables districts to build in structures, capacity and 
culture that foster systemic change owned and sustained by a broad base 
of leaders,'' states the report, titled ``Distributive Leadership in 
District Reform: A Model for Taking Linked Learning to Scale.''
    The report examines Long Beach's ``effective mechanism for 
including school staff in reform efforts through Pathway Leadership 
Teams. These teams are school-based and made up of site administrators, 
teachers, counselors and others. The teams are critical in leading bold 
change to structures, policies and instructional practices, such as 
master schedules, curriculum integration and professional 
development.''
    LBUSD provides leadership training and support for pathway 
leadership team members, including teachers, so they can take the lead 
in building a school-based culture of collaboration and accountability, 
the report states. The school district also builds broad-based 
community support through an Expanding Pathways Implementation 
Council--a formal steering committee of school site curriculum leaders, 
postsecondary partners, Regional Occupation Programs and career 
technical education leaders, principals, counselors, industry and 
community leaders, executive district staff and others.
    The report is supported by a grant from The James Irvine 
Foundation.
    The School Redesign Network was established in 2000 at Stanford 
University to build, capture and share research-based knowledge to 
transform secondary schools and school systems.
    The Stanford group's mission is ``to help support and sustain 
equitable schools and districts that are intellectually rigorous, high 
performing and designed to help all students master the knowledge and 
skills needed for success in college, career and citizenship.''The 
network is affiliated with the Stanford Center for Opportunity Policy 
in Education.
                                 ______
                                 
                              ATTACHMENT D

                 Seamless Education a `National Model'

    A recent case study by the Washington, D.C.-based Business Higher 
Education Forum calls the Long Beach Unified School District's Seamless 
Education Partnership a national model.
    The Seamless partnership, started in 1994, connects LBUSD's 
educators with business leaders, Long Beach City College and Cal State 
Long Beach to make certain that students progress smoothly through the 
education systems and into the workforce.
    ``The Long Beach Seamless Education Partnership has become a 
defining feature of the community and a model for the nation,'' states 
the 16-page report, titled ``Improving Education Through Collaboration: 
A Case Study of the Long Beach Seamless Education Partnership.''
    Among Seamless Education's signature programs is the Long Beach 
College Promise, which promises all LBUSD students the opportunity to 
receive a college education and provides a variety of educational 
benefits and services.
    The full report by the Business Higher Education Forum is available 
here.
    According to their website, BHEF is an organization of Fortune 500 
chief executive officers, prominent college and university presidents, 
and foundation leaders ``working to advance innovative solutions to our 
nation's education challenges in order to enhance U.S. 
competitiveness.''
                                 ______
                                 
                              ATTACHMENT E

                 Federal Review Praises Accountability

    Federal auditors liked what they saw during a recent visit to the 
Long Beach Unified School District, praising the district's fiscal 
practices, instruction, public accessibility, accountability and 
parental involvement.
    Reviewers from the U.S. Department of Education visited McKinley 
Elementary School, Hamilton Middle School and LBUSD's central offices, 
thoroughly examining everything from record-keeping practices to 
parental involvement and the level of central office support for 
principals and their schools.
    Reviewer Julia Keleher, now in her third year on the job, described 
LBUSD as the best school district she had ever seen.
    She and other reviewers were impressed with the training, or staff 
development, that the district provides to principals and teachers, 
said Carol Pratt, an administrative assistant with LBUSD who helped 
coordinate the reviewers' visit. The visitors also were impressed with 
parental involvement in various school committees, school site councils 
and training sessions.
    ``The reviewers were blown away by our parent involvement,'' Pratt 
said. ``They just couldn't get over how excited the parents were about 
all the opportunities they have to learn, and how our parents raved 
about our superintendent being accessible and easy to talk to.''
                                 ______
                                 
                              ATTACHMENT F

                  Downtown School Wins National Award

    International Elementary School in downtown Long Beach is one of 13 
schools to earn the prestigious National Excellence in Urban Education 
Award. School officials will accept the honor from the National Center 
for Urban School Transformation during a May 5 to 7 conference in Long 
Beach.
    ``If every school in America served diverse populations of students 
as well as these 13 schools, achievement gaps would be eliminated,'' 
said Joseph F. Johnson, Jr., Executive Director of NCUST.
    To be eligible, schools must have high numbers of low-income 
students and may not have selective admissions policies. Test results 
must be better than the state average on required assessments, and show 
few or no achievement gaps among various demographic groups of 
students. All schools must have high attendance rates, low suspension 
and expulsion rates, and exceed the federal government's Adequate 
Yearly Progress (AYP) for at least the past two years.
    Each winning school receives a $1,000 check, a large banner for the 
school, and a profile at www.ncust.org.
    At the winning schools, researchers found impressive evidence of 
students learning challenging academic content and skills in reading, 
writing, science, mathematics and social studies that exceed grade 
level expectations. The reviewers saw students benefiting from 
``excellent academic support structures'' that helped ensure their 
success in learning the challenging content.
    Reviewers also saw teachers using engaging instructional methods 
that helped students perceive learning as interesting, relevant to 
their lives, and fun, according to a statement from NCUST. Students, 
parents, teachers and staff reported that they felt respected and 
valued by one another and by the school administrators.
    ``Another outstanding feature of winning schools is the commitment 
of their teachers and administrators to continue to set and pursue even 
more challenging academic goals, even though these schools already have 
achieved results that far exceeded state or federal expectations,'' 
NCUST noted.
    NCUST is a part of the QUALCOMM Institute for Innovation and 
Educational Success at San Diego State University.
    For more information on the National Excellence in Urban Education 
Awards or the NCUST Symposium, visit www.ncust.org.
                                 ______
                                 
                              ATTACHMENT G

                 Senior U.S. Education Official Visits

    Describing her tour of International Elementary School as 
``amazing'' and ``magical,'' a senior U.S. Department of Education 
official reaffirmed that LBUSD's successes merit replication elsewhere.
    Thelma Melendez de Santa Ana, assistant secretary for elementary 
and secondary education at the Education Department, visited classrooms 
before observing a professional development session at the school 
district's Teacher Resource Center.
    ``We want to learn what Long Beach is doing,'' the assistant 
secretary said. ``There's an alignment and purpose in Long Beach, from 
the central office to the schools, to support what goes on in the 
classroom. That's very clear here.
    ``We're also interested in the innovative work going on between 
Long Beach and other school districts as a potential model.'' Long 
Beach is working with other urban school systems such as the Fresno 
Unified School District to improve instruction and gain additional 
flexibility regarding the expenditure of state funding.
    Appointed by President Barack Obama and confirmed by the U.S. 
Senate last July, Melendez serves as the principal adviser to the U.S. 
secretary of education on all matters related to pre-kindergarten, 
elementary and secondary education.
    Melendez is former superintendent of the Pomona Unified School 
District.
                                 ______
                                 
                              ATTACHMENT H

                   New Harvard Book Touts Long Beach

    The first book to detail examples of successful large-scale reform 
in the nation's most improved urban districts is now available from the 
Harvard Graduate School of Education's publishing group, and it 
features the Long Beach Unified School District.
    Bringing School Reform to Scale: Five Award-Winning School 
Districts, from Harvard Education Press, describes specific district-
wide reform strategies that author and researcher Heather Zavadsky 
shows led Broad Prize-winning school districts to outpace their peers 
in raising student achievement--not just in individual schools--but in 
numerous schools districtwide.
    The annual $2 million Broad Prize honors the five large urban 
school districts that demonstrate the strongest student achievement and 
improvement while narrowing achievement gaps between income and ethnic 
groups.
    Of particular use to educators seeking federal funds under Race to 
the Top, the new book describes sustained efforts undertaken by Broad 
Prize-winning school districts in Long Beach, Boston, Garden Grove, 
Norfolk (Va.) and Aldine (Houston) to improve instruction.
    For superintendents, chief academic officers, education school 
professors, school board members and elected officials or advocacy 
organizations looking to produce large-scale, dramatic student 
achievement gains, this book shows what systemic districtwide 
improvement looks like ``on the ground, warts and all, and the outcomes 
that are possible,'' according to a statement from The Broad 
Foundation.
    Among the book's important lessons for policy makers: 1) the single 
most important contributor to the success of these districts was their 
effort to put in place a clear, direct and rigorous curriculum aligned 
with high standards and supported at various layers throughout the 
system, 2) data-driven teaching and testing empowered teachers and led 
to student gains, and 3) stable school district governance, in the form 
of mayoral control or a unified school board, was critical to success.
    ``This book offers an unusually detailed look inside some of our 
best run school districts. Heather Zavadsky offers honest assessments, 
highlighting not only the inspiring successes, but also the many 
daunting challenges that remain. Very enlightening!'' said Ronald F. 
Ferguson, faculty co-chair and director of the Achievement Gap 
Initiative at Harvard.
    The book's author, Zavadsky, is director of policy and 
communications for the Institute for Public School Initiatives for the 
University of Texas system. She led research teams through site visits 
and analysis of Broad Prize districts from 2002 to 2006.
    To order the book, visit www.hepg.org.
                                 ______
                                 
                              ATTACHMENT I

                 America's Educators Look to Long Beach

    An alliance of top U.S. education associations reports that the 
Long Beach Unified School District ``has long been recognized as a 
model urban school system.'' The Learning First Alliance explains 
LBUSD's success.
    ``The district hasn't achieved this success by flitting from reform 
to reform or looking for silver bullets. Rather, it has spent most of 
the past two decades building on the same educational strategies, and 
focusing on data, community buy-in and staff development.''
    These observations are part of a new article at 
www.publicschoolinsights.org under the section, ``Education 
Visionaries.''
    The article, ``The Long Beach Way,'' includes an extensive 
interview with LBUSD Superintendent of Schools Christopher J. 
Steinhauser, who describes Long Beach's 18-year effort to reform local 
schools.
    Steinhauser provides perspective on early initiatives such as 
school uniforms, the Third Grade Reading Initiative, and the Seamless 
Education partnership with Long Beach City College and Cal State Long 
Beach.
    The superintendent also describes LBUSD's evolution as a data-
driven organization that cultivates parental and community buy-in to 
improve student achievement, especially through better use of 
communications technology.
    The Learning First Alliance, which sponsors 
www.publicschoolinsights.org, is a permanent partnership of 17 leading 
education associations with more than 10 million members. Alliance 
members include the National Education Association, American Federation 
of Teachers, American Association of Colleges for Teacher Education, 
National PTA, National School Boards Association, and the American 
Association of School Administrators.
                                 ______
                                 
                              ATTACHMENT J

            State Superintendent Praises LBUSD's Use of Data

    California Superintendent of Public Instruction Jack O'Connell 
recently praised the Long Beach Unified School District's use of 
student performance data to improve instruction. O'Connell delivered 
his 7th annual State of Education Address to educators, policymakers, 
students and parents.
    ``Let me give you one great example of using data to improve 
instruction,'' O'Connell said. ``About 16 years ago, the Long Beach 
Unified School District began a teacher-driven project aimed at 
collecting assessment data in order to better understand ways to keep 
students in school. In order to do this effectively, the district 
created a data collection system, and as teachers began to find this 
data more and more useful, the system evolved into a local longitudinal 
data system.
    ``In one instance, the data highlighted exceptional results in 
student performance in math at one particular school. It turns out that 
one math instructor, named Si Swun designed his own standards-aligned 
math curriculum, called MAP2D (Math Achievement Program), which was 
making headway with students. Based on these results, the school 
expanded this same curriculum to other classes.
    ``Eventually, based on the data coming from this school, the 
district expanded this curriculum even further, to other schools, and 
began to assist Mr. Swun in the production of materials for the 
curriculum. As the district began a pilot program for the curriculum in 
more of its schools, it designated Mr. Swun to coach others on teaching 
the curriculum.
    ``The pilot schools performed exceptionally well. In fact, these 
schools experienced a one-year, 24-point gain in their API scores due 
to fifth grade math proficiency. Long Beach had such great results that 
they expanded the math program districtwide.
    ``Then other districts heard about it and it spread to Fresno, 
Compton, Garden Grove, Lennox and Oakland. Today, thousands of students 
are in the MAP2D program, making real gains in proficiency. All because 
of one teacher innovating in his classroom a data system able to 
identify his success, and thanks to a culture of continuous 
improvement.'' (Learn more about LBUSD's Math Achievement Program by 
clicking on MAP2D in the A-Z index at www.lbschools.net.)
    ``This is exactly the kind of professional learning community that 
uses data to support instruction that we hope to stimulate and foster 
through the Race to the Top (federal funding program), and I would like 
to salute teacher Si Swun who is here today for his innovative and 
collaborative spirit.''
    O'Connell joins a growing number of state and national leaders who 
are noticing LBUSD's effective use of student performance data. 
President Barack Obama, in his first major policy speech on education, 
said last year that LBUSD's data-driven instruction is something other 
districts across the nation should emulate.
                                 ______
                                 
                              ATTACHMENT K

                 Use of Data Lauded by National Council

    A national journal on educator training describes ``a deep 
commitment to professional learning and widespread use of data'' in the 
Long Beach Unified School District.
    The article, ``Let Data Do the Talking,'' appears in the fall 
edition of the Journal of Staff Development. The piece includes an 
extensive interview with LBUSD Superintendent of Schools Christopher J. 
Steinhauser.
    The journal, produced by the National Staff Development Council, is 
known as the authority on professional learning.
    NSDC writer Tracy Crow notes that Long Beach schools are widely 
praised for their success. In a Q & A, Steinhauser discusses the 
importance of remaining committed to research and professional 
development even during tough budget years.
    Visit www.nsdc.org for more information.
                                 ______
                                 
                              ATTACHMENT L

                     LBUSD `America's Crown Jewel'

    For a record-tying fifth time, the Long Beach Unified School 
District was honored among America's top urban school districts today 
during a ceremony in Washington, D.C.
    LBUSD was recognized as one of the top five finalists for the 
national Broad Prize for Urban Education. As a finalist, LBUSD receives 
$250,000 in college scholarships for local students. The Aldine 
Independent School District outside Houston won the top prize of $1 
million in scholarships.
    Long Beach won the award in 2003 and is a five-time finalist. The 
latest $250,000 award brings the total amount of Broad Scholarships in 
Long Beach to nearly $1.4 million. Only Boston Public Schools share 
this five-year track record of excellence. The Broad Prize honors urban 
school districts that demonstrate the greatest overall performance and 
improvement in achievement for all students.
    ``Long Beach continues to be America's crown jewel of urban school 
districts, outperforming other urban districts year after year with its 
steady gains,'' said Eli Broad, founder of the prize. ``We look forward 
to sharing Long Beach's ongoing best practices with school districts 
across the nation so millions more students benefit from the smart 
efforts that have arisen there.''
    Long Beach earned the finalist honor after national education 
experts sifted through thousands of pieces of data on student 
performance. Among the reasons Long Beach was selected is that its 
African-American, Latino and low-income students achieved higher 
average proficiency rates than their counterparts statewide in reading 
and math, and because the district continued to narrow achievement gaps 
that remain prevalent in many other school districts nationwide. Long 
Beach saw greater participation of minority students taking Advanced 
Placement exams and the SATs.
    U.S. Secretary of Education Arne Duncan announced the finalists at 
the U.S. Capitol, where LBUSD Superintendent of Schools Christopher J. 
Steinhauser participated in the ceremony.
    ``Being a five-time Broad Prize finalist confirms that the Long 
Beach community still believes in public education,'' Steinhauser said 
in a written release. ``To be in the running again for this award is a 
testament to our heroic teachers, tireless support staff, 
administrators, parents, our 9,000 volunteers, our more than 1,100 
business and community partners, our school board, our colleagues in 
higher education, civic leaders, service clubs and philanthropic 
foundations such as The Broad Foundation, insightful news media, local 
clergy, Realtors, retirees, and many others who share our commitment to 
kids and schools,'' Steinhauser said. ``To all of them, we say thank 
you.'' See the superintendent's Press-Telegram commentary here.
    House Speaker Nancy Pelosi addressed the audience, saying ``this is 
a great day for public schools and for celebrating your success.'' In 
the audience were several members of Congress along with more than 300 
of the nation's leading educators and policy makers. Among them were 
members of LBUSD's school board.
    ``It's a proud day for the Long Beach Unified School District,'' 
LBUSD Board of Education President Mary Stanton said in a written 
statement. ``For Americans, education has always been the primary means 
for obtaining equal opportunity. The Broad Prize recognizes our efforts 
to give all children an equal chance to succeed, no matter what 
obstacles they may face.''
    The other finalists were school districts in Broward County, Fla.; 
Gwinnett County, Ga.; and Socorro, Texas.
                                 ______
                                 
    Chairman Miller. Thank you. Dr. Burns, welcome.

  STATEMENT OF JEANNE BURNS, ASSOCIATE COMMISSIONER, TEACHER 
       EDUCATION INITIATIVES, LOUISIANA BOARD OF REGENTS

    Ms. Burns. Thank you. Good afternoon, Chairman Miller, 
Congressman Castle and members of the committee. I appreciate 
the opportunity to appear before you today to tell Louisiana's 
story. I am testifying today on behalf of the Louisiana Board 
of Regents. However, I will be addressing a successful 
collaborative partnership that has existed in the State of 
Louisiana during the last 10 years to improve the effectiveness 
of new teachers and new leaders within our State. This 
initiative has been supported by three governors; Governor 
Bobby Jindal, Mike Foster, Governor Kathleen Blanco. Two 
commissioners of higher education, Dr. Sally Clausen, Dr. 
Joseph Savoie; two State superintendents, Paul Pastorek, the 
late Cecil Picard, our Board of Regents, our board of 
elementary and secondary education, our Louisiana Department of 
Ed, our University presidents, their chief academics officers, 
our deans, our faculty, our district and our private providers.
    I share all of that because we have been successful in the 
reforms within our State. This has been a statewide systemic 
reform initiative that has brought about massive changes across 
the State. You cannot have the kind of change that has occurred 
within our State without having the kind of partners that we 
have had to support our efforts.
    Our State is also fortunate to possess very strong 
partnership among the college of education deans at the public 
universities and private universities within our State, 
including our historically black colleges and universities. 
They have freely exchanged best practices across their campuses 
and worked collaboratively to help all institutions produce 
effective new teachers and leaders. Their leadership and hard 
work has been a critical component in our success.
    We have also been fortunate to have received a grant from 
the U.S. Department of Ed, a Title II teacher quality 
enhancement State grant that was extremely beneficial in 
supporting our reform efforts. In addition, we received support 
from the Carnegie Corporation of New York, and the Wallace 
Foundation. As a result of these and other collaborative 
partnerships, Louisiana is now leading the Nation in its 
ability to link growth of student learning to universities and 
private providers who prepare our new teachers. Through the use 
of a value added teacher preparation assessment model, 
developed by Dr. George Noell from Louisiana State University, 
it is now possible for our State to predict the growth of 
achievement of individual grades 4 through 9 students, examine 
the actual achievement of individual students from the end of 1 
year to the end of the next year, link the growth of 
achievement to the new teachers who prepared the children and 
link the achievement of the children and the new teachers to 
the teacher preparation program that prepared the teachers.
    We now know that we have some teacher preparation programs 
within our state, our redesigned programs where our new 
teachers have children who are showing growth and learning that 
is comparable or greater in specific content areas than that of 
experienced teachers within our State. We also know which 
programs are in need of improvement. We also know the content 
areas in which they need to improve and we know the grade 
stands.
    As a result of 60 recommendations that came from our 
State's Blue Ribbon Commission when they addressed teacher 
quality in 1999 and 2000 and 40 more recommendations in 2000, 
2001 when they looked at educational leadership we have made 
significant changes within our State. We now have more rigorous 
expectations for teachers to become certified in our State. We 
have new undergraduate and alternate certification pathways for 
teachers to be prepared. The redesign of teacher preparation 
programs has occurred in every single public and private 
University in our State. We have a teacher preparation 
accountability system that is using multiple measures in 
addition to in the future or value added measure to look at the 
effectiveness of our new teachers and we now have a research 
agenda where our universities private providers districts are 
working together to try to determine why is it that we have 
more effective teachers completing some of our teacher 
preparation programs.
    The overall passage rate for teachers in our State 
increased from 89 percent in 1999 to 1,000 to 99.9 percent in 
2008, 2009. We are very proud about the accomplishments that we 
have had within our State. We now know where we have effective 
new teachers coming out of our teacher preparation programs 
dollars and we feel we are an example of a State where State 
agencies can work together, universities, providers and 
districts can all work together for a common cause and that is 
for the improved achievements of students within our State. 
Thank you very much for the opportunity to testify today.
    [The statement of Ms. Burns follows:]

   Prepared Statement of Jeanne M. Burns, Associate Commissioner for 
     Teacher and Leadership Initiatives, Louisiana Board of Regents

    Good afternoon, Chairman Miller, Ranking Member Kline, and members 
of the Committee. My name is Jeanne Burns, and I am the Associate 
Commissioner for Teacher and Leadership Initiatives for the Louisiana 
Board of Regents. I am also an Associate Professor at Southeastern 
Louisiana University and on loan to the State of Louisiana to support 
our teacher and leader initiatives. I appreciate the opportunity to 
appear before you at this hearing to tell Louisiana's story and address 
Supporting America's Educators: The Importance in Quality Teachers and 
Leaders.
    I am testifying today on behalf of the Louisiana Board of Regents; 
however, I will be addressing a successful collaborative partnership 
that has existed in the State of Louisiana during the last ten years to 
improve the effectiveness of teachers and educational leaders. This 
initiative has been supported by three governors (Governor Bobby 
Jindal, Governor Kathleen Blanco, and Governor Mike Foster), two 
Commissioners of Higher Education (Dr. Sally Clausen and Dr. E. Joseph 
Savoie), two State Superintendents (Paul Pastorek and Cecil Picard), 
Louisiana Board of Regents, Louisiana Board of Elementary and Secondary 
Education, Louisiana Department of Education, university presidents/
chief academic officers/college of education deans/faculty, private 
providers, and school districts.
    Our state is also fortunate to possess a strong partnership among 
the college of education deans at all public universities and private 
universities (including our Historically Black Colleges and 
Universities). They have freely exchanged best practices across their 
campuses and worked collaboratively to help all institutions produce 
effective new teachers and leaders. Their leadership and hard work has 
been a critical component of our success.
    As a result of these and other collaborative partnerships, 
Louisiana is now leading the nation in its ability to link growth of 
student learning to university and private provider programs that 
prepare new teachers. Through the use of a Value Added Teacher 
Preparation Assessment, developed by Dr. George Noell at Louisiana 
State University and A&M College, it is now possible for our state to 
predict the growth of achievement of individual grades 4-9 students, 
examine the actual achievement of individual students from the end of 
one year to the end of the next year, link the growth of achievement of 
students to new teachers who taught the students, and link the growth 
in achievement to the teacher preparation programs that prepared the 
new teachers.
    Evidence of our success includes the following:
    The overall passage rates for Louisiana's universities on the state 
teacher certification examinations have increased from 89% in 1999-2000 
to 99.9% in 2008-2009. Our Historically Black Colleges and Universities 
had passage rates of 33%, 38%, and 65% for their 1999-2000 program 
completers, and they now have passage rates of 100%.
    The overall number of teacher candidates who failed to meet all 
teacher certification requirements at the point of graduation has 
decreased from 230 in 2000-2001 to only 3 in 2008-2009. At the point 
that Hurricane Katrina hit our state, the number of new teachers being 
produced by our universities was at its highest demonstrating that it 
was possible to increase quality and numbers at the same time. Our 
numbers dropped after Hurricane Katrina, and our state has been working 
to increase the numbers through our universities, Teach for America, 
and private providers like The New Teacher Project and the Louisiana 
Resource Center for Educators. In 2001-2002, the percentage of teachers 
certified to teach in Louisiana was 84.39%. The percentage of Louisiana 
teachers identified as having standard certificates to teach in 2009-
2010 is 95.2%.
    We are proud of our success, and we could not have done it without 
the support and commitment of our many partners.
Background
    Louisiana looked very different in 1999-2000 when it made a 
decision to form a Blue Ribbon Commission for Teacher Quality to 
develop recommendations to improve the recruitment, preparation, and 
retention of quality teachers and principals. This Commission is still 
in operation today as the Blue Ribbon Commission for Educational 
Excellence and is recognized nationally as an example of a best 
practice. The Commission is co-chaired by a member of the Board of 
Elementary and Secondary Education (Glenny Lee Buquet) and a member of 
the Board of Regents (Mary Ellen Roy--Current Co-Chair; Frances Henry--
Previous Co-Chair). It is composed of 36 members who represent state, 
university, district, school, teacher, community, and parent leaders 
and meets six times a year. It has a specific focus each year and uses 
the expertise of national and state experts to guide it in the 
development of new recommendations that are presented each May at a 
joint meeting of the two boards. In 1999-2000, the Commission 
identified 60 recommendations to improve teacher quality. In 2000-2001, 
it identified 40 recommendations to improve educational leadership.
    As a result of these recommendations, new policies were approved by 
the Board of Elementary and Secondary Education to strengthen teacher 
and leader certification. More rigorous teacher certification 
structures were implemented, new content examinations and higher cut-
off scores for licensure were adopted, ongoing professional development 
over five years for relicensure was mandated, and new pathways for 
alternate and undergraduate teacher preparation were approved.
    The recommendations of the Commission were also used to attain a 
$3.4 million Title II Teacher Quality State Grant from the U.S. 
Department of Education during 2000-2004, a $4.2 million grant from The 
Wallace Foundation during 2004-08, an $800,000 grant from the Carnegie 
Corporation of New York during 2007-2009, and a $3.4 million grant from 
The Wallace Foundation during 2008-2010 to support the implementation 
of the new teacher and leader reforms at the state, university, 
district, and school levels
    In response to the new PK-12 policies, the Board of Regents 
implemented new policies that required all universities to align 
undergraduate and alternate teacher preparation programs with the new 
state certification structures for teachers and educational leaders, 
PK-12 state/national content standards, PK-12 state/national teacher 
and leader standards, PRAXIS examination expectations, and national 
accreditation expectations. In addition, they required all universities 
to address four levels of teacher preparation effectiveness.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The first level of effectiveness pertains to effectiveness in 
planning, and all universities were required to create redesign teams 
composed of College of Education, College of Arts/Sciences, College of 
Business, and school personnel and chaired by a PK-16+ Coordinator to 
redesign all undergraduate and alternate teacher and educational 
leadership preparation programs to address the new BESE and BoR 
policies. All redesigned and new programs were evaluated by national 
experts to ensure quality across all preparation programs. Universities 
and private providers had to address all stipulations of the national 
consultants to attain approval to implement the programs. Universities 
and private providers that failed to address the expectations were not 
allowed to admit new candidates to their programs after specific 
deadline dates. Redesigned and new teacher preparation programs are now 
being offered by 20 universities, two private providers for teacher 
preparation, and three private providers for educational leadership 
preparation.
    The second level of effectiveness pertains to effectiveness of 
implementation, and national accreditation was used as a measure of 
accomplishment. All public and private universities were required to 
attain national accreditation of their teacher preparation programs. At 
the present time, 18 of the 20 public and private universities in 
Louisiana are NCATE accredited. The two remaining universities are new. 
One is pursuing NCATE accreditation, and the other is pursuing TEAC 
accreditation. Thus, this expectation is being met by all public and 
private universities in Louisiana.
    The third level of effectiveness pertains to effectiveness of 
impact, and a new Teacher Preparation Accountability System was 
implemented to determine accomplishment. A Teacher Preparation 
Performance Score was calculated for each university based upon 
multiple measures for an Institutional Performance Index and Quantity 
Index that rewarded universities that produced new teachers in teacher 
shortage areas and rural districts. Universities were labeled as 
Exemplary, High Performing, Satisfactory, At-Risk, and Low Performing 
based upon their scores. Due to Hurricane Katrina and Hurricane Rita 
impacting schools and universities in Louisiana, the baselines for the 
Quantity Index had to be recalculated. As a result, the state's Blue 
Ribbon Commission has revised the Teacher Preparation Accountability 
System to include the new Value Added Teacher Preparation Assessment 
scores and new baselines. The revised system will be piloted in the 
upcoming months. Three universities entered into corrective action when 
the system was first implemented. By 2004-2005, 14 universities were 
labeled as Exemplary and one university was in corrective action. After 
Hurricane Katrina, the one institution reconstituted its program and 
concentrated its efforts upon the preparation of grades PK-3 and grades 
1-5 teachers.
    Thus, all universities in Louisiana have successfully addressed the 
first three levels of teacher preparation effectiveness and have now 
moved beyond universities in most other states to address the highest 
level of effectiveness which is growth of achievement of students 
taught by the teacher preparation programs that prepared the new 
teachers.
Development of Value Added Teacher Preparation Assessment
    Louisiana first recognized the need to link student achievement to 
teacher preparation programs in 2000-2001 when the Blue Ribbon 
Commission recommended a Teacher Preparation Accountability System that 
included growth of student learning as one of several variables. The 
state did not have the capacity to collect and analyze achievement data 
in this fashion at that time.
    As universities underwent evaluation by the national consultants, 
it was observed that universities were experiencing problems in 
creating authentic assessments to link student learning to new teachers 
who completed the teacher preparation programs. Dr. George Noell and I 
scheduled a meeting with former Commissioner of Higher Education E. 
Joseph Savoie and former State Superintendent Cecil Picard to propose a 
pilot study during 2003-04 to create and implement a value added 
teacher preparation model that used data from 10 school districts in 
the state. The 10 school districts were piloting a new data system for 
the Louisiana Department of Education that linked students to their 
achievement tests to the teachers who taught the students. The 
Commissioner and State Superintendent agreed to share data and support 
the pilot.
    The Board of Regents provided funding for Dr. Noell to conduct the 
pilot in 2003-04 and replicate the pilot in 2004-05. In 2005-06 and 
2006-07, the Board of Regents provided funding for the study to be 
expanded to include all school districts, 20 public and private 
universities, and 2 private providers.
    In 2007-08 and 2008-09, the Board of Regents obtained a two year 
grant from the Carnegie Corporation of New York for the Louisiana State 
University research team (led by Dr. George Noell and Dr. Kristin 
Gansle) to conduct additional quantitative research to expand the Value 
Added Teacher Preparation Assessment Model. In addition, funding was 
provided for a State Research Team to be created to conduct a 
qualitative research study to determine why some teacher preparation 
programs prepared new teachers whose students demonstrated greater 
growth in learning than experienced teachers in specific content areas. 
The State Research Team was composed of a researcher from each of the 
20 public and private universities and 2 private providers who prepared 
teachers as well as staff from the Board of Regents and Louisiana 
Department of Education.
Value Added Teacher Preparation Assessment Model
    The Value Added Teacher Preparation Assessment predicts growth of 
student achievement based on prior achievement, demographics, and 
attendance, assesses actual student achievement, and calculates effect 
estimates that identify the degree to which students taught by new 
teachers showed achievement similar to students taught by experienced 
teachers. The teacher preparation effect estimates are based upon 
multiple new teachers in multiple schools across multiple school 
districts in the state.
    The predictors examine student variables, teacher variables, and 
building variables and differ slightly based upon the five content 
areas examined which are mathematics, science, social studies, reading, 
and English/language arts.
    To be included in the analysis, new teachers must be first or 
second year teachers who have completed their teacher preparation 
program leading to initial certification, received a standard teaching 
certificate, attained teaching positions in their areas of 
certification, and completed a teacher preparation program within five 
years. Experienced teachers are all other certified professionals who 
possess a standard teaching certificate and have taught in their area 
of certification for two or more years.
    The model examines the four pathways to teacher licensure that 
exist in Louisiana: Undergraduate Pathway, Master of Arts in Teaching 
alternate pathway, Practitioner Teacher Program alternate pathway, and 
Non-Master's/Certification Only alternate pathway. All three alternate 
pathways require candidates to meet the same entry/exit requirements 
and require all candidates to address the same standards.
    The current analysis uses State achievement data in the areas of 
mathematics, science, social studies, language arts, and reading for 
students enrolled in grades 4-9 who attended public schools in 
Louisiana during the full school years of 2005-06, 2006-07, and/or 
2007-08. In addition, data are used for all grades 4-9 teachers in 
public schools in Louisiana who taught the students.
    A Hierarchical Linear Model (HLM) was used for the analysis. This 
is a layered statistical model that is designed to analyze data within 
natural layers or groups--students within classes within schools.
2008-09 Results
    We currently have results for eight teacher preparation programs in 
Louisiana that had a sufficient number of new teachers who completed 
redesigned or new alternate certification programs and met the criteria 
to be included in the study. It is anticipated that the remaining 
teacher preparation programs will meet the criteria for inclusion in 
the study when the results of the 2009-10 Value Added Teacher 
Preparation Assessment study are released during 2010.
    We used five bands of performance to focus attention on clusters of 
performance rather than a continuous ranking of teacher preparation 
programs.
    Our results indicate that there is as much variance within teacher 
preparation programs in individual content areas as there is variance 
across teacher preparation programs in the state.
    As an example, universities and private provider programs did not 
perform equally high or equally low across all content areas.
    The New Teacher Project prepared new teachers where the growth in 
achievement was greater than experienced teachers in mathematics and 
reading, comparable to experienced teachers in science and language 
arts, and comparable to new teachers in social studies.
    The University of Louisiana at Monroe prepared new teachers where 
the growth in achievement was greater than experienced teachers in 
science, comparable to new teachers in reading, language arts, and 
social studies, and comparable to new teachers in mathematics.
    Our results have also provided valuable information that can help 
universities improve their programs. As an example, the University of 
Louisiana at Lafayette has been NCATE accredited for many years and 
received a label of Exemplary when our Teacher Preparation 
Accountability System was implemented. Their university is respected in 
the state, and they are committed to improving education in the 
communities surrounding their university. Their current President is 
the former Commissioner of Higher Education who supported the initial 
creation of the Value Added Teacher Preparation Assessment Model. When 
they received their value added results, they found that the growth of 
achievement of students taught by their new teachers was comparable to 
other new teachers in reading, mathematics, science, and social 
studies. The growth was less than other new teachers in language arts 
in both their undergraduate and alternate certification program. When 
they were provided additional results, it was determined that the 
problem was in their grades 1-5 grade span and not the other grade 
spans. The President, college of education dean, and faculty have 
seriously examined the curriculum and identified changes that are now 
being implemented to improve language arts in grades 1-5. Without the 
value added results, the university would not have been aware of the 
need to strengthen the curriculum in this area.
    The only other teacher preparation program to have growth that was 
less than that of other new teachers was the Louisiana Resource Center 
for Educators in the area of reading for all grade spans. They have 
also seriously examined their curriculum and made changes to improve 
the effectiveness of teachers in reading.
    The Board of Elementary and Secondary Education has implemented a 
new policy that requires programs with growth that is less than new 
teachers or significantly less than new teachers to enter into 
Programmatic Intervention. Programs will be required to develop a plan 
to improve their programs and provide timelines for outcomes to be 
demonstrated. Failure to demonstrate improvement by the identified 
timelines will result in closure of the programs.
    Results are currently being reported for only the redesigned and 
new teacher preparation programs that address the State's more rigorous 
teacher certification requirements. Results for pre-redesign teacher 
preparation programs were reported in 2006-2007 and the findings were 
not as positive as those for the post-redesign programs.
    Based upon our qualitative research, we have determined that it is 
not the pathway that explains the variance within and between teacher 
preparation programs; it is what is occurring within the pathway to 
prepare new teachers in the specific content areas that makes the 
difference.
    We have also determined that our state policies to create more 
rigorous teacher certification requirements and require all 
universities to redesign their teacher preparation programs impacted 
the programs. The more rigorous requirements for admission and 
completion of alternate programs resulted in most of the new teachers 
having ACT scores around 20 or 21 and few with lower ACT scores. These 
teachers are more or less effective based upon the knowledge and skills 
developed within specific content areas within the programs.
    There has not been time to fully discuss our educational leadership 
reforms, but you do need to be aware that we have worked just as hard 
to improve the effectiveness of our educational leadership preparation 
programs and we are currently developing an Educational Leadership 
Preparation Accountability System. If we do not have effective 
principals in our schools, we will not be able to retain the effective 
new teachers that we are now preparing.
    I appreciate the opportunity to appear today to discuss the work we 
have done in Louisiana to improve the effectiveness of new teachers and 
leaders. I would be happy to answer your questions.
                                 ______
                                 
    Chairman Miller. Thank you. Dr. Bennett.

 STATEMENT OF TONY BENNETT, SUPERINTENDENT, INDIANA OFFICE OF 
                       PUBLIC INSTRUCTION

    Mr. Bennett. Thank you. Chairman Miller, Members of the 
Committee it is an honor to be here today. With the belief that 
great teachers and leaders are critical to students' success, 
Indiana's goals and vision for education placed a strong focus 
on reforms aiming to improve instruction and school leadership.
    We have taken an all-hands-on-deck approach to developing 
and implementing these reforms. Our fast forward reform plan, 
the plan Indiana Department of Education, submitted as its 
round 1 Federal Race to the Top application reflects our 
commitment to realizing significant gains in this area. As we 
sit here in 2010, never before have there been such coordinated 
efforts by Federal, State local education stakeholders to put 
the focus of our system of schools where it belongs on our 
students. Our greatest challenge is to unite aggressively 
against all forces working to oppose reform that benefits 
children.
    In Indiana, in States across the Nation, the most striking 
and most powerful impediment to improving instructional quality 
and school leadership has been those organizations charged 
principally to protect the teaching profession, the teacher 
unions. It is no secret that across the Nation, teacher and 
school leader evaluations have been largely ineffective. 
According to a study by the new teacher project, less than 1 
percent of teachers evaluated as poor or ineffective. A survey 
by the same group found teachers found little value in these 
evaluations. They do not receive informative feedback or 
constructive criticism and feel evaluations subjective and 
inconsistent. Our efforts have been guided by core principals 
about the role and importance of evaluations.
    To begin, we believe any meaningful evaluation tool must 
substantially consider student achievement growth in its 
determinations. To that end, Indiana calls for teacher and 
principal evaluations that base 51 percent of each educators 
rating on student growth data. Every other aspect of the 
evaluation must be tied to student learning. Most important, 
these retooled evaluations must be factored into the decision 
making. They should be used to inform professional development, 
compensation considerations, promotion, retention and 
reductions in force. Our best educators should lead 
professional development experiences to share the best 
practices. They should be eligible for additional compensation. 
They should be the first considered for promotions and special 
opportunity and in times of economic distress like today they 
should be the highest priority for retention when considering 
reductions in force. On the other hand, ineffective teachers or 
those needing improvement should receive targeted professional 
development and support, they do not improve enough to meet the 
instructional needs of children they should be removed from the 
classroom.
    In Indiana, our State level union leaders seem to tout the 
need for professionalism and high standards, but they are not 
willing to back the reforms necessary to boost instructional 
quality for Hoosier students. Although they expressed agreement 
and cooperation with our intentions to create evaluation tools 
tied to student growth, and even helped to develop the initial 
the framework for those evaluations tools, when it came down to 
publicly supporting union leaders, they failed to make even a 
lukewarm endorsement of our efforts.
    We have strengthened our regulations regarding teacher 
preparations and licensure to make sure all secondary teachers 
have content area majors in the subjects they teach. The same 
rule revision removes burdensome regulations that require 
teachers to spend thousands of dollars to renew their licenses 
by allowing them to use professional development credit they 
already earned towards renewal.
    New teachers will be required to work closely with building 
leaders to hone their skills and improve, and all teachers will 
be able to make their licenses more marketable by adding areas 
to their licenses by passing content area exams to prove their 
competence.
    Equally important, our new licensing regulations take the 
first step toward creating alternative pathways to the teaching 
profession by allowing nontraditional programs to be approved 
in the future.
    Many programs already exist in Indiana to drive more 
nontraditional, highly competitive adults into the teaching 
profession. The transition to Teaching Program, Wilson Teaching 
Fellows, Indianapolis Teaching Fellows, The New Teacher 
Project, and Teach for America are examples of alternative 
pathways that put knowledgeable, well-trained adults in some of 
our most high-need subject areas and schools.
    At the heart of the majority of Indiana's reform efforts 
included in our Fast Forward plan, including educator 
evaluations, is Indiana's Growth Model. We began the model in 
2008, and we are now weeks away from fully implementing this 
important longitudinal data system.
    Indiana's Growth Model groups students with grade-level 
peers across the State who achieve similar scores on our 
State's examination and track student growth with these 
groupings. For the first time, we will be able to assess how 
much growth a student has achieved over the course of a year.
    The department has already begun the process to make 
Indiana's school accountability system more transparent and 
meaningful, as well as plans to incorporate the Growth Model in 
the future. Public law 221 uses five category labels based on 
student progress on the ISTEP exam, student improvement over 3 
years, and Federal AYP status. These categories--exemplary, 
commendable, academic progress, academic watch, and probation--
fail to clearly communicate the true condition of our schools 
and, therefore, hinder reform efforts. Indiana is working to 
change these labels to A through F letter grades to increase 
transparency and public awareness.
    In all, education in Indiana has come a long way in a 
little more than a year, but we still have a great deal to 
accomplish. Our Fast Forward plan is our reform map for the 
future; and the most important piece, in many ways, is 
requiring meaningful teacher and principal evaluations that 
directly influence decision making. Our students' performance 
can only be as high as the effectiveness of the teachers 
educating them.
    Chairman Miller. Mr. Bennett, I am going to ask you wrap up 
if you would please.
    Mr. Bennett. Okay.
    Our hope ahead is that public, political, and parental 
outrage and demand for aggressive education reform will 
continue to build. As we shed more light on the appalling 
inequity and tremendous failure of many of our schools to 
provide our young people even a chance to succeed in this 
complex global economy, we stand ready to take ownership for 
the problems and take action to provide a better education for 
these children.
    [The statement of Mr. Bennett follows:]

 Prepared Statement of Tony Bennett, Superintendent, Indiana Office of 
                           Public Instruction

    With the belief that great teachers and leaders are critical to 
student success, Indiana's goals and vision for education place a 
strong focus on reforms aiming to improve instruction and school 
leadership. We have taken an all-hands-on-deck approach to developing 
and implementing these reforms. Our Fast Forward reform plan--the plan 
Indiana's Department of Education (IDOE) submitted as its Round I 
federal Race to the Top application--reflects our commitment to 
realizing significant gains in this area. Indeed, it can be argued that 
every component of the reform plan helps support, secure, reward, 
train, and retain great teachers and school leaders for Hoosier 
students.
    IDOE's Action Plan, developed when I took office in January 2009, 
outlines a clear strategy for improving instructional quality and 
enhancing school governance and leadership. Our goals in this area 
require legislative and administrative success, and thus far, we have 
accomplished a great deal on both fronts. In fact, as we wrote our Fast 
Forward plan to compete in the federal Race to the Top competition, we 
did so fully confident that whether we were able to secure funding or 
not, the reforms within the plan would comprise our reform agenda for 
the next three years.
    Today, as we endeavor to improve the quality of instruction and 
leadership for Indiana's schools without additional federal funding, we 
look to our past accomplishments to inspire our future efforts for 
Hoosier students. Moreover, we charge ahead with a commitment to 
maintaining flexibility and autonomy for our local school districts. 
For while it is our job, at the state level, to set a high bar for 
achievement, provide support and enforce accountability, it is the job 
of our local school districts to reach this bar with strategies best 
suited to meet the needs of their unique student populations. Likewise, 
Indiana stands behind the efforts of the U.S. Department of Education 
to fundamentally change the ineffective status quo in American schools, 
and we welcome their leadership and support as our state works to 
implement bold reforms targeted to improve student achievement in 
Indiana.
    Never before have there been such coordinated efforts by federal, 
state, and local education stakeholders to put the full focus of our 
system of schools where it belongs--on students. Our greatest challenge 
is to unite aggressively against all forces working to oppose reform 
that benefits school children. In Indiana and states across the nation, 
the most striking, most powerful impediment to improving instructional 
quality and school leadership has been those organizations charged, 
principally, to protect the integrity of the teaching profession: 
teachers' unions.
    While there are examples of local teachers' associations joining 
Indiana's school leaders to make powerful decisions that improve and 
protect instructional quality, state-level union leadership is 
unwilling to support our reforms aimed at developing meaningful, 
consistent and fair teacher and school leader evaluations.
    It is no secret that, across the nation, teacher and school leader 
evaluations are largely ineffective. According to a study by The New 
Teacher Project, less than 1 percent of teachers are evaluated as poor 
or ineffective. A survey by the same group found that teachers 
themselves find little value in evaluations. They do not receive 
informative feedback or constructive criticism, and they feel 
evaluations are subjective and inconsistent.
    Indiana aims to comprehensively overhaul teacher and school leader 
evaluations by collaborating with teachers, principals and other 
stakeholders.
    Our efforts have been guided by core principles about the role and 
importance of evaluations. To begin, we believe any meaningful 
evaluation tool must substantially consider student achievement growth 
in its determinations. To that end, Indiana calls for teacher and 
principal evaluations that base 51 percent of each educator's rating on 
student growth data. Every other aspect of evaluation must be tied to 
student learning, as well. IDOE worked with leaders from the Indiana 
State Teachers Association and the Indiana Federation of Teachers in a 
series of meetings to develop a framework for these evaluations. During 
the course of these work sessions, both organizations expressed 
agreement, in principle, that tying educator evaluations to student 
achievement growth was crucial.
    Next, evaluations must reflect actual educator performance. Indiana 
proposes four rating categories resulting from these evaluations: 
Highly Effective, Effective, Needs Improvement, and Ineffective. The 
ratings must be analyzed annually to ensure the distribution of 
teachers and principals in each of these categories is accurate, and 
evaluations must be declared invalid if ratings have been inflated.
    Most important, these retooled evaluations must be factored into 
decision-making. They should be used to inform professional 
development, compensation considerations, promotion, retention, and 
reductions in force. Our best educators should lead professional 
development experiences to share best practices. They should be 
eligible for additional compensation. They should be the first 
considered for promotions and special opportunities, and in times of 
severe economic distress--like today--they should be the highest 
priority for retention when considering reductions in force. On the 
other hand, ineffective teachers or those needing improvement should 
receive targeted professional development and support. If they do not 
improve enough to meet the instructional needs of students, they should 
be removed from the classroom.
    In every other profession, workers are evaluated by their ability 
to get the job done. An educator's top priority is to educate young 
minds--regardless of their achievement level or ability upon entering 
the classroom--and they should be rated according to their ability to 
educate children. Using student growth data assures that teachers are 
recognized for their ability to give every student what they deserve: 
at least one year's worth of learning over the course of one school 
year. Principals should be evaluated not only by student growth but 
also by the effectiveness of the teachers under their leadership.
    My father was an electrician, a member of the International 
Brotherhood of Electrical Workers. His union took responsibility for 
his training and credentials, made sure he didn't burn any houses down, 
and policed its member electricians. Teachers' unions should do the 
same by ensuring the highest-quality licensing standards, professional 
development and evaluations. Teachers' unions should have high 
expectations for their members and protect the integrity of the 
teaching profession.
    In Indiana, our state-level union leaders seem to tout the need for 
professionalism and high standards, but they aren't willing to back the 
reforms necessary to boost instructional quality for Hoosier students. 
Although they expressed agreement and cooperation with our intentions 
to create evaluation tools tied to student growth and even helped 
develop an initial framework for these evaluation tools, when it came 
down to publicly supporting our reforms with their local union 
leaders--they failed to make even a lukewarm endorsement of our 
efforts.
    We had hoped Race to the Top would provide the catalyst we needed 
to overcome the significant obstacles to improving instruction and 
school leadership. Yet, Indiana is well-positioned to implement a great 
many positive initiatives without additional federal funding or the 
support of teachers' unions: We have already put many reforms into 
action, and we continue to build public and stakeholder support with 
the power to provide the momentum we need to do more in the future.
    Beginning with our legislative successes, Indiana's recent progress 
to reform education is commendable. With the passage of legislation in 
2009, teachers now receive qualified immunity from lawsuit for 
reasonable acts of discipline to maintain control of their classrooms, 
and dangerous loopholes have been closed to make sure teachers accused 
and/or charged with dangerous offenses have their licenses revoked. Our 
legislature also eliminated charter school caps, creating more 
opportunities for students and more choices for their families.
    We've strengthened our regulations regarding teacher preparation 
and licensure to make sure all secondary teachers have content-area 
majors in the subjects they teach. This same rule revision removes 
burdensome regulations that require teachers to spend thousands of 
dollars to renew their licenses by allowing them to use the 
professional development credits they already earn toward their 
renewal. New teachers will be required to work closely with building 
leaders to hone in their skills and improve, and all teachers will be 
able to make their licenses more marketable by adding areas to their 
licenses by passing content-area exams to prove their competence. 
Equally important, our new licensing regulations take the first step 
toward creating alternative paths to the teaching profession by 
allowing new nontraditional programs to be approved in the future.
    Many programs already exist in Indiana to drive more 
nontraditional, highly-competent adults into the teaching profession. 
The Transition to Teaching program, Wilson Teaching Fellows, 
Indianapolis Teaching Fellows, The New Teacher Project and Teach for 
America are examples of alternative pathways that put knowledgeable, 
well-trained adults in some of our most high need subject areas and 
schools. We are also in the process of establishing programs to 
identify and train highly effective school leaders, an effort closely 
linked to our efforts to close the achievement gap and turnaround our 
lowest achieving schools.
    By slashing our own department's budget, IDOE was able to realize 
over $1 million in savings. With that money, we created the Graduation 
Rate Incentive program, providing financial rewards to teachers and 
principals in schools that most increase the number of students 
graduating from high school in four years.
    At the heart of the majority of Indiana's reform efforts included 
in our Fast Forward plan--including educator evaluations--is Indiana's 
Growth Model. We began developing the model in 2008, and we now are 
weeks away from fully rolling out this important longitudinal date 
system. For years, the state relied solely on achievement test data to 
assess student achievement. This provided us only a snapshot of student 
performance and encouraged educators to focus their instructional 
efforts on those students closest to passing the standardized 
achievement test. Understandably, this myopic view of student 
performance has been criticized as inequitable and inaccurate, as it 
fails to adequately assess our lowest achieving, highest achieving, 
special needs and Limited English Proficiency students.
    Indiana's Growth Model groups students with their grade-level peers 
across the state who achieve a similar score on our state's ISTEP+ 
examination and tracks student growth within these groupings. For the 
first time, we will be able to assess how much growth a student has 
achieved over the course of a school year.
    The implications of this new longitudinal data system are immense. 
We will be able to identify exceptional educators more fairly and 
accurately. Consider the student who enters Grade 4 reading at a first 
grade level. A teacher who can help that student gain two and one half 
years of learning by the end of the year should be commended for her 
efforts, not penalized because the student cannot read at a fourth 
grade level. Likewise, a teacher whose students achieve at extremely 
high levels but fail to gain one year's worth of learning in one year 
may be less effective than a teacher with lower achieving students who 
achieve higher growth.
    IDOE plans to link this growth data to teachers and principals, 
school buildings and school districts. Already, the general public can 
view growth and achievement data for K-8 schools and districts. All 
schools are placed on a four-square grid, and each school is rated 
according to growth and achievement.
    Additionally, the Growth Model can be used to track effective and 
ineffective teachers back to the institutions that prepared them for 
licensure. IDOE and the Indiana Commission for Higher Education are 
exploring the possibility of a public rating for Indiana's teacher 
preparation programs.
    The Growth Model will be a powerful tool for parents and the 
public, who will be able to see how well their schools are educating 
students in a transparent format. Community and family involvement are 
critical to our reform efforts, from their active involvement within 
our schools to their support and high expectations for students' 
success.
    Another initiative has been invaluable to our efforts to increase 
public awareness of the need for radical reform in our worst schools. 
Public Law 221 was passed by the Indiana General Assembly in 1999 to 
hold schools accountable for student performance, inform parents and 
the public, create incentives for ongoing and meaningful improvement, 
and establish major educational reform.
    PL 221 mandates state support and intervention for schools that 
rank in the lowest category for four consecutive years. More than ten 
years after the law's passage, the State has only now begun to 
intervene in Indiana's 25 lowest achieving schools. We sent technical 
teams to assess these schools and develop turnaround plans with school 
leaders. The schools are not required to sign on to these plans, but if 
they fail to demonstrate improvement, the state has the authority to 
intervene by closing schools, replacing or eliminating school leaders 
and teachers, or assuming state control of the buildings. Make no 
mistake: we will not hesitate to intervene if necessary.
    Our efforts to increase instructional quality and leadership are a 
strong aspect of turning around our lowest achieving schools, as low 
performing schools--especially those with high-poverty and high-
minority student populations--tend to have the greatest number of 
ineffective teachers and principals. Ensuring a fair distribution of 
high-quality educators is critical to narrowing the achievement gap in 
Indiana and across the nation.
    The department has already begun the process to make Indiana's 
school accountability system more transparent and meaningful, as well, 
and plans to incorporate the Growth Model in the future. PL 221 uses 
five category labels based on student performance on the ISTEP+ exam, 
student improvement over three years, and federal Adequate Yearly 
Progress status. These categories (Exemplary, Commendable, Progress, 
Watch and Probation) fail to clearly communicate the true condition of 
our schools and, therefore, hinder reform efforts. Indiana is working 
to change these labels to A-F letter grades to increase transparency 
and public awareness.
    Finally, we are supporting Indiana's teachers and school leaders 
and arming them with the tools they need to improve instruction. 
Indiana is part of a consortium of states working to adopt the Common 
Core Standards. These standards will be clearer, more concise, and will 
provide our students an internationally-benchmarked framework of the 
skills they will need to succeed in a 21st century, global economy. 
Indiana's existing academic standards are excellent, but they are 
cumbersome and difficult for educators to navigate and use. Merging our 
own standards into the Common Core will provide teachers a more 
accessible and useful tool. IDOE is also developing curriculum maps to 
help teachers plan daily instruction to incorporate all grade-level 
standards over the course of the school year.
    The Common Core Standards are a great example of how the state can 
set the bar for high achievement without compromising local schools' 
ability to custom tailor curricula to unique student populations. The 
State isn't concerned with how schools meet (or exceed) expectations; 
our job is simply to make sure students can demonstrate proficiency in 
the standards.
    In all, education in Indiana has come a long way in little more 
than one year, but we still have a great deal to accomplish. Our Fast 
Forward plan is our reform map for the future, and the most important 
piece, in many ways, is requiring meaningful teacher and principal 
evaluations that directly influence decision-making. Our students' 
performance can only be as high as the effectiveness of the teachers 
educating them. Our teachers' effectiveness can only be as good as our 
school leaders demand and the support they provide. Unfortunately, 
implementing meaningful educator evaluations will continue to be one of 
the greatest challenges we face in transforming our schools because of 
the powerful organized forces opposing accountability for the adults 
charged with educating our students.
    In Indiana, state law concerning teacher evaluations makes it 
difficult to tie teacher evaluations to any type of student performance 
data, including growth, because collective bargaining contracts can be 
used to override attempts to include student performance data.
    IDOE could work through the Indiana General Assembly to make 
meaningful evaluations a real possibility, though the teachers' unions' 
significant investment in many state legislator campaigns could make 
negotiations difficult, to say the least. Likewise, our experience 
negotiating with the teachers' unions to prepare our Race to the Top 
application has made it abundantly clear these organizations are 
committed to opposing efforts to improve educator evaluations.
    I believe fundamentally that we must create high expectations for 
the adults in our system of schools, just as we have set for our 
students, and we must hold them accountable to meet those expectations. 
If we fail to do this, we will have failed to create transformative 
change that benefits all school children--despite all else we may 
accomplish toward that end.
    Our hope moving ahead is that public, political, and parental 
outrage and demand for aggressive education reform will continue to 
build. As we shed more light on the appalling inequity and the 
tremendous failure of many of our schools to provide our young people 
even a chance at success in this complex, global economy, we stand 
ready to take ownership for the problems and take action to provide a 
better education for these children.
    As federal, state and local education stakeholders and elected 
officials unite without regard to political affiliation to do what is 
truly best for America's children, the powers working just as 
tirelessly to oppose our efforts must relent to a national outcry for 
change.
                                 ______
                                 

                    Indiana Department of Education

      Guidelines for Measuring Teacher and Principal Effectiveness

    ``The Obama administration aims to reward states that use student 
achievement as a ``predominant'' part of teacher evaluations with the 
extra stimulus funds--and pass over those that don't.''
                                           Joanne S. Weiss,
              NewSchools Venture Fund and Race to the Top Director.

    The Indiana Department of Education (IDOE) is committed to 
improving the quality of instruction and leadership in Indiana's 
schools. To reach this goal we must focus on teacher and principal 
quality by accurately assessing individual performance.
    Recognizing that teacher and principal effectiveness are the most 
important factors in improving student achievement, teachers and 
principals must be credibly evaluated on their ability to impact 
student outcomes and growth. Districts must reexamine their evaluation 
tools and begin to use them to inform district policies regarding 
hiring, laying off, professional development, compensation, promotions, 
and retention.
    IDOE has established these guidelines to provide a clear bar for 
developing teacher and principal evaluation instruments. By adopting 
these guidelines, a district still must follow applicable state laws. 
In considering teacher and principal evaluation system, districts must:
    <bullet> Adopt a common evaluation tool for teachers and 
principals.
    <bullet> Incorporate student performance/growth on ISTEP+ to count 
for at least 51% of the total evaluation score.
    <bullet> Use a multiple rating scale consisting of 4 categories: 
highly effective, effective, improvement necessary, and ineffective.
    <bullet> Ensure teacher and principal performance data shows 
meaningful differentiation of effectiveness across the ratings 
spectrum; the State will expect that the school corporations aggregate 
evaluations show a credible distribution across the spectrum. Moreover, 
there must be parity in distribution between tested and non-tested 
grades/subjects.
    <bullet> Provide an annual evaluation for all teachers and 
principals.
    <bullet> Include close examination of key performance metrics (e.g. 
purposeful planning, classroom culture, effective instructional 
techniques, and professional leadership).
    <bullet> Create a collaborative goal-setting component for teachers 
and principals to set their own instructional and growth goals specific 
to student achievement and teacher or principal effectiveness.
    <bullet> Specify the support and intervention which will be 
provided for teachers not rated as ``highly effective'' or 
``effective.'' (e.g. improvement plans, professional development and 
dismissal protocols) and provide clear consequences for unsatisfactory 
performance.
    <bullet> Use teacher and principal evaluation data to guide 
district, school, and individual professional development plans.
    <bullet> Train and support evaluators to effectively implement 
evaluation.
    <bullet> Use teacher and principal evaluations, at a minimum, to 
inform decisions regarding: (a) Developing teachers and principals, 
including by providing relevant coaching, induction support, and/or 
professional development; (b) Compensating, promoting, and retaining 
teachers and principals, including by providing opportunities for 
highly effective teachers and principals to obtain additional 
compensation and be given additional responsibilities; (c) Whether to 
grant tenure and/or full certification (where applicable) to teachers 
and principals using rigorous standards and streamlined, transparent, 
and fair procedures; and (d) Removing ineffective tenured and untenured 
teachers and principals after they have had ample opportunities to 
improve, and ensuring that such decisions are made using rigorous 
standards and streamlined, transparent, and fair procedures.
    <bullet> Train and support teachers in peer assistance and/or 
teacher leader programs.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Kaplan.

          STATEMENT OF JONATHAN A. KAPLAN, PRESIDENT,
                       WALDEN UNIVERSITY

    Mr. Kaplan. Thank you for the opportunity to testify today. 
I am very pleased to speak with you about the work we do at 
Walden University to advance teacher quality and leadership in 
the classroom.
    For 40 years, Walden University has supported working 
professionals in achieving their academic goals and advancing 
positive social change. Based in Minnesota, Walden is a 
primarily on-line institution, currently serving more than 
40,000 students from all 50 States.
    Our School of Education is named for Richard W. Riley, the 
esteemed former U.S. Secretary of Education and former governor 
of South Carolina. The Richard Riley College of Education and 
Leadership has more than 28,000 graduates and currently enrolls 
over 16,000 students. We offer programs ranging from teacher 
certification through Ph.D.
    We are proud of the Riley College's diversity. Seventy-
eight percent of our students are women, and 31 percent are 
minorities. The average age of our students is 37. The 
graduation rate for our masters program in teacher education, 
our largest program, consistently runs over 80 percent. Our 
students currently include 45 State Teachers of the Year.
    I appreciate this committee's focus on the importance of 
quality teachers and leaders. I believe that schools of 
education play an essential role in educating teachers to be 
more effective in their classrooms.
    I would like to share with you three methods we use to 
drive better results for our students and our students' 
students: one, measuring and examining specific outcomes; two, 
delivering programs that are relevant and practical; and, 
three, using technology to enable better learning.
    We measure Walden's success as an institution largely 
through the success of our graduates. In addition to more 
traditional means of assessment, we are increasingly focused on 
demonstrating our students' success through outcomes analysis.
    For example, on an annual basis, we survey our graduates 
and their employers to understand the impact of our programs. 
In our most recent data from 2008, each of the 72 school 
principals or assistant principals who responded to our survey 
said they would hire another Riley College graduate as a 
teacher. More than 90 percent of our masters of education 
graduates who responded said that earning their degrees 
enhanced their professional performance. Data like this 
provides important benchmarks for the School of Education to 
measure our performance, and I want to emphasize that is our 
measuring our own performance as a School of Education.
    Beyond these surveys, we recognize the need to examine the 
direct impact of our graduates in the classroom. In 2005, 
Walden commissioned a 3-year longitudinal study in the Tacoma, 
Washington, school district. The research demonstrated that 
students of Tacoma teachers who graduated from our masters 
program in elementary reading and literacy made greater gains 
in reading fluency--more than 14 percent greater--than students 
of non-Walden-masters educated teachers. We found this 
longitudinal study quite instructive and are now exploring how 
we might conduct similar studies in other substantive and 
geographic areas.
    At Walden, we also believe that our programs must have a 
strong theoretical and content grounding and be highly relevant 
and practical. Our curriculum is developed by our faculty but 
done so in collaboration with national experts, on-the-ground 
teachers, and instructional designers. This allows us to build 
stronger programs and to prepare teachers, no matter where they 
teach in the country.
    We offer practical courses on topics that include classroom 
management, meeting the needs of diverse learners, and 
integrating technology in the classroom. Ninety-five percent of 
our graduates who responded found the Walden teacher education 
curriculum relevant to their daily work.
    We also teach teachers how to be reflective about their own 
skills and how to utilize research-based strategies and data to 
improve instruction and effectiveness in their classrooms. Our 
philosophy is that you have to provide the opportunity for 
teachers to learn and apply 21st century skills so that a 
teacher's own learning doesn't stop when their degree ends.
    From our own experience at Walden, we know that 
interactivity and engagement on line is a particularly 
effective teaching tool in the field of education. For example, 
in our programs, we supplement our required on-ground field 
experience with a technology called Virtual Field Experience. 
In this interactive instructional video, students see and hear 
firsthand the master teacher's explanation of what is working 
and what isn't working in the displayed K-12 classroom setting. 
It also enables our faculty to highlight the best teaching 
practices from a diverse group of master teachers. Using this 
technology, our students have the opportunity to observe best 
practices and diverse teaching styles from classrooms across 
the country. As a leading on-line institution, we measure the 
value of our technology only by the results it delivers.
    At Walden, we feel privileged and responsible in our role 
as educators of such a significant number of this Nation's 
teacher workforce. We feel a real obligation to ensure and 
demonstrate that our graduates are effective and making an even 
more positive impact on the children they teach. Thank you 
again for the opportunity to testify today.
    [The statement of Mr. Kaplan follows:]

 Prepared Statement of Jonathan A. Kaplan, President, Walden University

    Thank you for the opportunity to testify today. I am honored to be 
here before the Committee and with this august set of witnesses. I am 
very pleased to speak with you today about the work we are doing at 
Walden University's Richard W. Riley College of Education and 
Leadership to advance teacher quality and leadership in the classroom. 
For 40 years, Walden University has supported working professionals in 
achieving their academic goals and advancing positive social change. 
Based in Minnesota, Walden is a primarily online institution, is 
regionally accredited by the Higher Learning Commission, and currently 
serves more than 40,000 students from all 50 states and more than 100 
countries. It is the flagship online university in the Laureate 
International Universities network--a global network of more than 50 
online and campus-based universities in 21 countries.
    Our school of education is named for Richard W. Riley, the esteemed 
former Secretary of the U.S. Department of Education and former 
governor of South Carolina. As the Committee knows very well, Secretary 
Riley has long been a leader and advocate for improving education for 
every American child.
    Our Riley College of Education has graduated more than 28,000 
educators and currently enrolls over 16,000 students from all 50 
states. The Riley College offers programs ranging from teacher 
certification through Ph.D. We are proud of the diversity of our 
student body: the average age of a student in our school of education 
is 37; a Masters programs in teacher education, our graduation rate 
consistently runs over 80%. Our students currently include 45 state 
Teachers of the Year.
    On a personal note, my grandmother, Lee Kaplan, taught in the 
Rochester, New York public school system for more than 20 years. I 
learned from her how much pride--and personal accountability--each 
teacher brings to school every day. As President of Walden University, 
I share that sense of accountability. Schools of education play an 
essential role in educating teachers to be more effective in their 
classrooms.
    I appreciate this Committee's interest in exploring ways to improve 
teacher quality and leadership. I would like to share with you three 
methods we use to drive better results for our students--and our 
students' students. We focus on (1) measuring and examining specific 
outcomes, (2) delivering programs that are relevant and practical, and 
(3) using technology to enable better learning outcomes.
1. Assessing Quality through Outcomes
    At the institutional level, we measure our own success at Walden 
largely through the success of our graduates. Like other institutions, 
we do so in part through reviewing our students' learning outcomes, 
assessing their actual work products, and confirming that they know how 
to apply in the classroom what they have learned. At the Riley College, 
we are also increasingly focused on demonstrating our own students' 
success through other outcomes analyses. We are aware of the current 
interest among policymakers in this area. Let me describe two different 
efforts that are ongoing at Walden.
    Understand the impact that our graduates have had in their schools 
and classrooms as well as to understand the impact of our programs on 
their effectiveness as teachers. In our most recent data from 2008, we 
surveyed some of those employers and each of the 72 school principals 
or assistant principals who responded said they would hire another 
Riley College graduate as a teacher. We also learned from our 2008 
surveys that more than 90% of our Masters of Education graduates who 
responded said that earning their degrees at Walden enhanced their 
professional performance. This data provides important benchmarks and 
tools for the school of education to measure our performance.
    In addition to the surveys we conduct, we believe that it is also 
important to examine the impact that our Riley College graduates have 
on their own students' achievements. This is a process that requires 
significant time, research, support and coordination with school 
districts. Walden commissioned a third party to complete a longitudinal 
study in the Tacoma, Washington school district over 2005-08. The 
research demonstrated that students of Tacoma teachers who graduated 
from our Masters program in Elementary Reading and Literacy made 
greater gains in reading fluency--more than 14% greater--than students 
of non-Walden-masters educated teachers. We learned that, as it relates 
to our graduates, the improvements were most significant in first 
grade. The study also told us that the positive impact Walden graduates 
had on student reading fluency translated into more efficient use of 
instructional time. I want to note that we began this research 
uncertain about the outcome--the study may well have informed us that 
our program was not enabling our graduates to perform at a sufficiently 
high level.
    These are significant findings and ones that have implications not 
only for our teachers but also for administrators and schools of 
education in general. We have also used the results of this research as 
a mechanism for continuous improvement to enhance certain aspects of 
our program. We found this longitudinal study so helpful that we are 
exploring how we might conduct similar studies in other substantive and 
geographic areas.
2. Providing Relevant and Practical Programs
    I just spoke about institutional and other outcomes as a measure of 
teacher quality. At Walden University, we also believe that providing 
our students with practical classroom tools and analytical skills is 
increasingly important to ensure effective teaching. We have a strong 
belief that our programs need to not only have a strong theoretical and 
content grounding, but must be highly relevant, practical and engaging.
    Our curriculum is developed by our faculty, but done so in 
collaboration with practitioners, national experts and experienced 
instructional designers. This allows us to prepare teachers no matter 
where in the U.S. they may teach and, in order to do that effectively, 
it takes more than one person's perspective. This process also allows 
us to seek input to design and then teach courses and programs in areas 
in which this country has a growing need. Gathering all of that 
expertise, grounding the courses in the latest research strategies, and 
putting it together in a coherent curriculum based on the best diverse 
learning environments--not just one particular local school district.
    To provide the Committee some examples, we offer courses on topics 
that include classroom management, working with struggling readers, 
meeting the needs of diverse learners, integrating technology in the 
classroom, adolescent literacy and technology, and creating an 
effective learning environment. Teachers learn research-based 
strategies that they can then apply in their classrooms immediately and 
to good effect. In fact, 95% of our graduates who responded to our 
survey found the Walden teacher education curriculum relevant to their 
daily work.
    We also encourage self-reflection in our curriculum. In addition to 
giving teachers the necessary skills and tools--all grounded in 
theory--we also teach them how to be reflective about their own 
teaching and how to utilize research to enhance their effectiveness in 
the classroom. For example, our Masters' program includes an Action 
Research course where our Riley faculty teach teachers problem-solving 
methodology so that after graduation, they can continue to learn and 
improve their practice. In our programs, teachers are asked to use 
authentic data from their classrooms and are taught how to use that 
data to make informed decisions that drive better instruction. This is 
essential in today's environment of increasing accountability and 
greater reliance on data to measure and improve student achievement.
    As a school of education, our philosophy is that you have to 
provide the opportunity for teachers to learn and apply 21st century 
skills so that a teacher's own learning doesn't stop when their degree 
ends.
3. Using Technology to Enable Better Learning
    As the U.S. Department of Education recently learned through a 
study of its own, online learning is just as effective a method of 
education, if not more so, than on-ground learning. This is in 
significant part because of the required frequent interaction between 
the faculty and their students. From our own experience at Walden, we 
know that interactivity and engagement online is a particularly 
effective teaching tool in the field of education. Allow me to share 
one example.
    In our education programs, we supplement our required, on-ground 
field experience with a technology called Virtual Field Experience. In 
a traditional field experience, prospective teachers observe a 
classroom setting in a local school. When we brought together our 
faculty and other experts to develop our teacher licensure program, one 
of the shortcomings they described was that prospective teachers may 
observe a terrific teacher in such a setting, or they may not. In 
addition, depending on the particular school district where the student 
is located, there may not be an opportunity for these prospective 
teachers to be exposed to a diverse set of learners.
    Using the Virtual Field Experience technology, our students have 
the opportunity to observe best practices and diverse teaching styles 
from classrooms across the country. Each video segment includes an 
analysis component that allows our students to hear firsthand the 
master teacher's engaging explanation of what's working and what isn't 
working in the classroom. It also enables our faculty to highlight the 
best teaching practices from a diverse group of master teachers around 
the country. This is not the most cutting edge technology. Rather, it 
is an effective means to supplement the teacher
Conclusion
    At Walden, we are proud of the fact that over 40,000 teachers and 
other educators have chosen our programs over the years with the goal 
of increasing their knowledge and skills. We feel both privileged and 
responsible in our role as educators of such a significant number of 
this nation's teacher workforce. In this capacity, Walden University 
generally, and the Richard W. Riley College of Education and Leadership 
in particular, feel a significant obligation to be able to demonstrate 
that our graduates are effective and, in turn, are making a positive 
impact on the children whom they teach. I thank you again for the 
opportunity to testify today.
                                 ______
                                 
    Chairman Miller. Thank you.
    Under our prior agreement here, Ms. Clarke, we are going to 
start with you.
    Ms. Clarke. Thank you very much, Mr. Chairman; and I want 
to thank the panel as well.
    I am a firm believer in the African proverb that it takes a 
village to raise and, I might add, educate a child. Many out-
of-school variables, such as a lack of adequate nutrition or 
health care, impoverished conditions in the community, can have 
an adverse impact on student achievement. Wouldn't it make 
sense to require all schools to examine these variables of 
children in developing their turnaround models; and, 
furthermore, aren't we placing too much of the accountability 
burden just on teachers? What role should parental and 
community involvement play in education?
    And I open that to the panel.
    Chairman Miller. Well, come on now, somebody. Mr. 
Steinhauser.
    Mr. Steinhauser. I will talk from Long Beach's perspective.
    In Long Beach, I have 72 wrap-around programs that we heard 
earlier discussed in the panel, and we look at everything. And 
you are exactly right. It is the entire community. It is the 
parents. It is the business partners. It is the higher ed. We 
all have to come together. We have a very strong partnership 
with our local churches, where our local churches open their 
doors on Saturdays and after school, and we bring in the tutors 
to work in those churches, and then they bring in the students.
    So I agree 100 percent that the accountability is not just 
on the teachers. It is on every single person. And it is very 
important that, as we develop our accountability programs, that 
we bring everybody to the table and that they are part of every 
process of the table. Because it is important for parents to 
understand what these assessments mean, how they can get 
assistance if they need assistance, and not just for teachers 
or the employers of the school district.
    Chairman Miller. Anybody else?
    Ms. Clarke. Okay. I just wanted to raise that as a concern, 
because I find that oftentimes we are looking to the teacher 
for all of the solutions and notwithstanding, you know, those 
who may be willing to go into low-performing schools with their 
skills, if they are not prepared to address that environment 
that the child is living in it can also be a challenge. At the 
end of the day, we are going to come back to the teachers and 
say, you didn't perform; and no one is going to discuss all the 
other factors that are impacting on that school environment.
    So I wanted to raise that as an issue, because it is one 
that I am faced with in Brooklyn, New York. I have seen, 
actually, the concept of all the stakeholders work. I have yet 
to see an exclusion of those stakeholders really take root in 
terms of accountability in the development of the education of 
our children.
    I wanted to also ask whether you think that tying student 
achievement outcomes to teacher and principal evaluations is a 
good way to attract high-quality educators to struggling 
schools. Do you believe that they would want to stick to 
successful schools or remain in schools where they would not 
risk uneven student growth because of the possible challenges 
or hurdles involved in working in and turning around a 
persistently low-achieving school? What is your experience?
    Chairman Miller. Ms. McElroy.
    Ms. Parker-McElroy. I have worked in a low-performing 
school, and I have been a proud member of being able to turn it 
around and for it to be successful. And one thing that I just 
wanted to say is that the teachers, when we are working 
together, the teachers are coming to that school not--before 
moral obligations to make a difference to the students' lives. 
And when we are around struggling and trying to make a 
difference for the poverty students, such as you suggested a 
minute ago, we like to show our data to each other because we 
can see how a strategy has worked for one teacher and how I can 
learn from you or maybe how I can bring that to another grade 
to make a difference. So the teachers that I have worked with 
for the last 5 years want to work in the schools and make a 
difference for the students.
    Chairman Miller. Ms. Thompson.
    Ms. Thompson. At Teach Plus, we have actually had the 
opportunity to pose that question to a group of about 150 
teachers when the Commissioner of Education in Massachusetts 
was creating the Race to the Top proposal. What we found in 
that session is that 87 percent of the teachers in the room 
welcomed student outcomes data as a part of their personal 
assessments, and they wanted the opportunity to not only show 
what they can do but to be held accountable and to continue to 
work with their colleagues using that data and moving forward 
with their professions.
    Chairman Miller. Thank you.
    Ms. Hirono.
    Excuse me. Mr. Petri.
    Mr. Petri. I would like to thank all of you for your 
testimony and the effort that went into preparing it. And I 
apologize that some of my questions are a little basic, but 
don't be restricted by that.
    I was interested, Mr. Kaplan, in your saying your students 
are 37 years old, on average. Is that a factor? That is quite--
you think of people coming at a much younger age into the 
teaching profession. And why would--could you explain why that 
is or how this affects, if it does, the performance of the 
people when they do enter your system and then finally get into 
the teaching, presumably as a second or a third career?
    Mr. Kaplan. Sure. Thank you.
    The main reason that the average age of our students at 
Walden is 37 is the fact that our focus predominantly, from a 
program standpoint, has been in graduate education. As a 
result, our largest program in the Riley College of Education 
is our master of science in education where teachers are coming 
back to get their masters degree as mid-career professionals 
and teachers; and, because we are on-line, there is an 
opportunity for them to do it without much difficulty in terms 
of their own careers.
    So, from our standpoint, ensuring that we are meeting the 
needs of working adults and doing so in a way that is very 
relevant and providing programs that are very practical to them 
we know is critical. On average, our masters' students at 
Walden have between 10 and 15 years teaching experience, so we 
know that the value that we can add is supplementing their 
education. Their education is continuing, they are lifelong 
learners, and providing them with very relevant and practical 
programs and courses at that level is essential.
    Mr. Petri. It is my impression, and I may be wrong, but 
that there is a fairly high dropout rate in the first couple of 
years of people actually entering the classroom; and there are 
efforts to try to deal with that through--as people segue from 
education schools to practice teaching and so on and so forth. 
But, nonetheless, many teachers do get overwhelmed, especially 
going into inner city schools or challenging environments.
    And the second part of that is that there has been a 
criticism that many schools of education focus a lot more on 
theory and not too much on preparing people to lead in the 
classroom and to actually work on content and this sort of 
thing. I wonder if any of you would be--as consumers of 
teacher-school-trained people, is there room for improvement? 
Is there something the Federal Government could do, if that is 
the case, in improving the preparation for people moving into 
the field of public school teaching and maybe having a two-tier 
system, if people are dropping out anyway, of apprentice 
teaching or--I don't know. I am just curious to know if we can 
tighten up somehow on the profession of teaching and have 
teachers be better prepared to teach.
    Mr. Kaplan. Sure. I think your point about schools of 
education needing to focus on practical and relevant lessons 
for teachers and professional development that they can apply 
immediately in the classroom in terms of how to apply research 
in the classroom and learn from the data that they are looking 
at--there is a lot of assessments out there. Are teachers 
gaining the skills and the development they need to be able to 
assess that data and then apply it immediately to improve 
individual student performance? Those kinds of practical 
elements are absolutely critical, we think, in terms of what 
schools of education can offer.
    Mr. Bennett. Our experience has been that it is not either/
or. It is not either content or pedagogy. It really is the 
right mix of having the content area necessary to teach a 
subject as well as the pedagological skills necessary to 
present the material.
    You know, one of our schools of education made the comment 
that if you really break down the science and art of teaching, 
you can really look at four main areas that you can build 
almost all your class work into.
    One is the issue of classroom management. We all know that 
a well-managed classroom, a classroom that is disciplined and 
engaging, is paramount to student learning. Two, the ability to 
use data to drive instruction and differentiate instruction 
based on the needs of children. Three is a culturally competent 
way of presenting curriculum. And, finally, is the ability to 
engage parents and community.
    If you take those four overarching themes, you could build 
a number of the pedagological classes that we currently offer 
in 3-hour blocks into all four of those overarching themes; and 
then you add that with an internship, student teaching 
experience, and we believe that that is a good mix for 
prospective teachers.
    Ms. Burns. When our universities underwent the redesign of 
all of their programs, we required all of the universities to 
create redesign teams that had district personnel on them, 
college of arts and science, college of education faculty, and 
we required them to look at our State content standards and our 
State teacher standards. And when they redesigned their 
programs they redesigned them based upon what teachers needed 
to know and be able to do within the classrooms. And, in 
addition to that, all of the programs we are required to have 
more site-based experiences earlier in the career of the 
teachers. So we did not wait until teachers did student 
teaching or an internship. They actually started during their 
sophomore year.
    And I mentioned to you that we are now looking, using the 
value-added model to look at the teacher preparation programs 
and the growth and learning of the children being taught by the 
new teachers. And what we are finding is that our university 
programs are not equally proficient across all content areas or 
equally low across all content areas. We are seeing as much 
variance within the programs.
    So, like with teachers of grades one through five, we have 
programs where those new teachers are performing at a growth 
level that is greater than new teachers in one subject area, 
comparable to new teachers, experienced teachers in two subject 
areas, and comparable to other new teachers in other areas. And 
so what this is telling us, and we heard it earlier with the 
previous panel, it is what is going on in the preparation of 
the teachers and the methodology and the content areas that 
appears to be making the most difference.
    Chairman Miller. Mr. Steinhauser, we are on Ms. Hirono's 
time, so you are going to be brief.
    Mr. Steinhauser. I think it critical--I want to build upon 
what Dr. Burns said, that this communication has to be monthly 
and ongoing; and I will give you an example.
    When we redesigned our programs, our university let us take 
the fifth year responsibility. So we actually give the 
credential in the fifth year. So, again, like Louisiana, 
individuals going into teaching have an opportunity to come 
into our schools in their first year of college, so building 
upon that. So I can't emphasize enough that it has to be 
ongoing communication between the university and the K-12 
system.
    Chairman Miller. Thank you.
    Ms. Hirono.
    Ms. Hirono. Thank you, Mr. Chairman.
    As we focus on evidence-based educational reforms, starting 
with one of my big emphasis and also for the committee is 
quality early education so that our kids can be prepared to 
succeed in life and in school very early on.
    But we know that the other component of what really enables 
a child to learn is having a highly effective teacher standing 
in front of that classroom. However, there is not a lot of 
science behind what makes a teacher effective. So that is what 
I think these two panels have been about.
    Clearly, there are a lot of models out there. Some of the 
models are collaborative teaching, an environment that fosters 
that kind of teaching, changing the colleges of education, 
which I think is a whole other subject because most of our 
teachers do get trained by colleges, hundreds of thousands of 
colleges of education across the country, and I don't think 
they are particularly on the pages we are. So what I get from 
these two panels is that there are a lot of models out there.
    And as we are looking at reauthorizing ESEA, I think Ms. 
Weingarten said that we ought to be incentivizing pilot 
programs so that the best practices in all of these areas that 
we are talking about can come to the fore. Do you agree with 
that, that we ought to be not prescribing particular kinds of 
approaches but that we really ought to be saying to our schools 
and our districts and our States, try the various models and 
see which one works for you? Do you agree with that kind of 
approach for the Federal Government? Anybody?
    Ms. Burns. I definitely agree that. If our State had not 
received the Title II Teacher Quality Enhancement State Grant 
we would not have been able to have accomplished what we have 
accomplished, and that gave us funding to try something new, 
different from what we had been doing previously within our 
State. So I totally agree with you.
    But what needs to occur is, where we identify practices 
that are working, that information needs to be shared with 
others nationally, so that others can learn the lessons as they 
move forward and want to implement innovative new ideas 
themselves.
    Ms. Hirono. I agree with you. Because that is the point of 
funding pilot programs, so that we don't all have to be 
reinventing the wheel all the time.
    So do the rest of you pretty much agree with that?
    As we have experienced the Race to the Top grant 
applications, we know that only two States got any money, and 
we are now going into the second round of grants. There are 
hundreds of millions of dollars. And one of the concerns I have 
is that, for the lowest-performing schools, they are limited to 
four, basically, approaches in how to turn around these 
schools.
    I heard some of you say that you support the President's 
blueprint on this, so I wanted to hear a little bit more as to 
whether or not, for the lowest-performing schools, you think 
that these four criteria, whether the closure, eliminating 50 
percent of the teachers, whether those are too prescriptive and 
that we really ought to be saying to Secretary Duncan, that is 
too prescriptive; we ought to provide more options for these 
applicants.
    Mr. Steinhauser. As the superintendent of a K-12 system, I 
have had the opportunity to turn around a lot of low-performing 
schools; and I will say that those are four options, that there 
is no magic bullet. In some cases, you are going to have to 
take a little bit of every one of those programs and implement 
it.
    So that is one area of the blueprint that I would like to 
see a little more flexibility. Because when you turn around a 
low-performing school part of it is the culture of that school. 
Sometimes you need to bring--we have reconstituted schools 
before, and it has been very successful. I have reconstituted 
schools before, and it hasn't been successful. So I think that 
I would like to see those four options and 40 more options, to 
be honest with you.
    Ms. Hirono. Do the rest of you agree? Because we are going 
to make a change if that is what we are going to do.
    Mr. Bennett. One of the things I think we need to think 
about--and I agree with what he said about more options. But 
one of the things we haven't talked about is the fact that, 
regardless of which of those four models you use, there will be 
some implementation lag, that you are not going to implement 
any of those four models or any other truly structural reform 
model for a school and get instant success. So I think we also 
need to be looking at how we define the intermediate metrics in 
terms of how we begin to judge whether these models do make the 
progress we need to make to transforming or turning around 
these schools. So not only do we need more models and more 
flexibility, but I also think we need to understand how do we 
set the intermediate metrics once we get into a turnaround 
situation.
    Ms. Thompson. What I would add to this, because we are 
working in turnaround schools in Boston, is how important it is 
to realize that there are teachers in that building, even in 
the lowest-performing schools, who are doing really high-
quality work in their specific room, and that whatever model we 
use, we have the opportunity to honor and value those teachers, 
as well as the new set that are coming in and those who are 
transitioning out because this was not the right place for 
them. The T-3 work that we are doing in Boston, we are 
specifically trying to locate both those teachers who have 
incredible knowledge and history about why that building wasn't 
working and can be then a very constructive part of the reform, 
if that is what they choose to do.
    Ms. Hirono. I agree. Thank you.
    Chairman Miller. Mr. Thompson.
    Mr. Thompson of Pennsylvania. Thank you, Mr. Chairman and 
Ranking Member. I really, really appreciate the opportunity for 
this hearing.
    Dr. Bennett, can you describe in more detail Indiana's 
program to train more effective school leaders?
    Mr. Bennett. We have two or three different options.
    First of all, the University of Notre Dame is beginning an 
MBA--an executive MBA program that will train turnaround 
leaders. Now the problem with that program is it is small in 
scope, so we will not receive the scale and the number of 
turnaround leaders that we need to make a difference in some of 
our lowest-performing schools.
    Indiana University is also engaging in a similar program. 
We also have one of our local private universities, Marion 
University, who has received private funding from a private 
foundation to begin a turn-around academy for turn-around 
leaders. So we believe that we need to address and get out with 
our higher ed community to engage in some different types of 
models, like this executive MBA, like a turnaround academy that 
Marion University is investigating and like IU is 
investigating. We think those are the key.
    I also think it comes down some to local control. You know, 
I think there is the opportunity for great turnaround leaders 
who may be great educators in a building who may not be 
historically educated as a principal to engage in these types 
of activities. Because we all know this isn't for the faint of 
heart. Turning around low-performing schools is not an easy 
work and takes a special skill set. So the fact is we may need 
folks outside of the traditional ilk and of the traditional 
training programs.
    Mr. Thompson of Pennsylvania. And you state in your 
testimony that we must create high expectations for adults in 
our systems and schools just as we set for our students, and we 
must hold those adults accountable to meet those expectations. 
Can you give us an idea on how you think we can hold adults 
more accountable within the education system?
    Mr. Bennett. Well, again, I think we start with growth. We 
start with the concept that every child, regardless of their 
race, regardless of how much money mom and dad make, regardless 
of their zip code, is entitled to 1 year of educational growth 
in 1 year of instruction. And we measure that. And I think what 
we do then is we tie teacher and principal evaluations 
principally to that. We say 51 percent, and all other aspects 
of the evaluation should be focused on the essential skills 
that drive that type of result.
    You know, I think, as a former assistant superintendent and 
superintendent, I always remember the fact that when we held 
adults accountable and we would take teachers to contract 
cancellation because they ultimately were not performing, we 
were criticized because we were using subjective evaluations. 
And if our core mission in education is to drive student growth 
and, ultimately, student achievement, then it doesn't make 
sense that we shouldn't have objective measures that reflect 
those high expectations for not only our teachers but also our 
principals.
    Mr. Thompson of Pennsylvania. Thank you.
    Mr. Kaplan, you know, I think, using the feedback from 
teachers is so important. That is something I have been trying 
to do as we look at this reauthorization, meeting with faculty 
members all around my congressional district to get their 
feedback. I was disappointed actually to find with the core 
standards that it doesn't seem like--there really wasn't good 
feedback from the teacher level. Through your testimony you 
talked about using feedback received from local school 
districts that received your teachers, and I was wondering if 
you could provide us some specific examples about that feedback 
that you received.
    Mr. Kaplan. Sure. I would say from the outset that again, 
and it is a theme that has come up previously, there is no 
silver bullet in terms of a particular metric that we look at 
to assess how our programs are doing, whether it is feedback 
from principals and school districts on our teachers or any 
other; and, further, we are very respectful of our graduates' 
privacy and ask their permission in order to talk with their 
supervisors, their principals, assistant principals, school 
districts, and what have you.
    The feedback we have gotten about our graduates, though, 
has been informative to us about what is working and what we 
can improve programmatically.
    One point I would make is that we have heard a consistent 
theme from different districts and principals that our teachers 
are helping to create a bit of a professional learning 
community within their schools and that the programs that they 
were enrolled in at Walden were helpful in that regard. So, 
from our standpoint, it has been helpful, as we look at our 
programs, what to improve, what to focus more on. Because this 
is an ongoing effort. Because teachers continue to learn 
through their careers, cultivating that ongoing learning 
environment is essential and something we will continue to 
focus on.
    Mr. Thompson of Pennsylvania. Thank you, Mr. Chairman.
    Chairman Miller. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Ms. Parker, you talk about coaching in the classroom and 
working with the other teachers, which is a good idea. But, 
practically speaking, most of our communities are really 
strapped for money. So how does that layer in? Do they end up 
paying you? Does it increase the size of the classrooms, or 
where does it reflect on that, and what has been the impact 
that you have seen?
    Ms. Parker-McElroy. I don't really want to touch that 
question at all. That is money and that is budget.
    I do want to say, though----
    Mr. Tierney. I do want you to touch that question. You have 
been there, and you are observing it. So the question is, 
really, you know, how do they make it? If they are going to 
hire you as a teaching coach or whatever, then something else 
has to give. When that other thing gives, how does it affect 
the students and how to do they make up for it? What has been 
the result?
    Ms. Parker-McElroy. Correct. What can give is time. You 
don't have to have an actual instructional coach in your 
building, but you do need to have time to collaborate with 
other team members, other teachers that are struggling with 
those same questions at the same time, and that collaboration, 
that staff development where you are looking at what an issue 
is and talking together and looking it together. But it takes 
time. It takes time within the school day. So not necessarily a 
human coach, but time in the day to collaborate together with 
your peers is essential.
    Mr. Tierney. Okay. Let me ask Mr. Bennett, when you said 
your teachers wouldn't publicly endorse what you had done, did 
they make public statements as to why they wouldn't take that 
step?
    Mr. Bennett. First and foremost, they were critical about 
our process that we used to put the plan together. Their 
criticism is that we did not disclose the full documents to 
them prior to submission, and that was from guidance that we 
had received from our consultants. We explained that up front.
    The most disturbing piece, Congressman, was after we made 
the decision that we--after we had reached out and actually 
said, these are the areas we need your support on, these are 
the areas where the union needs to come to the table and 
address, they did not want to have that discussion in a 
transparent manner.
    I invited the president of the Indiana State Teachers 
Association, the President of the Indiana Federation of 
Teachers, and myself, with no staff and just media present, so 
we could hash these things out in a transparent manner. They 
chose not to do that. And then, afterwards, we were told we 
have public statements from the Indiana State Teachers 
Association president that he did not support Race to the Top 
from the beginning. He thought it was bad to pit students 
against students and students from one State against students 
from another State. So all the discussions we had about teacher 
evaluations to me appear to be a little disingenuous after 
hearing that.
    Mr. Tierney. Well, it is possible that your consultants 
advising you not to be transparent with the teachers, that 
strikes me at a little odd. But, you know, it is what it is on 
that. But I mean--and then asking them to be transparent in 
return, I can see where that bargain may not be struck.
    You know, the comment on capacity is what strikes me when I 
talked to Ms. Thompson. You mentioned that your moving the 
really highly qualified teachers in that have 3 years 
experience in an urban, difficult school. The teachers they 
displace have to go somewhere. But you have made the 
determination that they are not as qualified as the ones that 
are replacing them, so where do they go? And what happens to 
those students who have the good teachers leave and the other 
teachers who hadn't fit where they were go?
    And then after we finish that I want to talk to Mr. Kaplan 
about some capacity issues.
    Ms. Thompson. One of the interesting statistics around 
really-hard-to-staff, high-needs schools and failing schools, 
they usually fall in the same bucket, is that they have very, 
very large annual turnover rates for teachers. And so what we 
have found is, for the most part, bringing in a team of high-
quality teachers is not displacing anyone. Because folks were 
leaving already. Often. These schools are staffed with the most 
inexperienced teachers. These are folks that do not have a 
support infrastructure. They are in the hardest possible 
environment, and they often leave the profession after a year 
or two. Or if they have the opportunity, they go to another 
school. But usually they are leaving the profession.
    Mr. Tierney. Mr. Kaplan, I am curious to know how, 
logistically, your teaching process works. You are an on-line 
institution. So do people have to come to the classroom at any 
point in time? Is it all on-line? How are they evaluated in 
their performance on that basis?
    Mr. Kaplan. Sure. Well, there is an on-line classroom, 
Congressman, where students will virtually sit, if you will, in 
a section with 18, 19 other students and with a faculty member, 
in our case, all doctorally prepared, who will then engage with 
the students. They will have writing assignments back and 
forth. There is chat and discussion that is required as a part 
of being a part of the course.
    One of the things that we note to prospective students who 
are interested in our programs is that on-line learning isn't 
for everyone. There is no hiding in the back row of an on-line 
classroom in the sense that discussion and contribution is 
required as a part of every section; and, obviously, writing 
requirements, other assessments are a part of that process as 
well.
    One of the things that we have really found is the high 
level of satisfaction that our students have with engagement. 
They didn't think they would be as engaged with faculty and 
other students as they are. And, again, that kinds of points 
back to our theory about technology which is not using anything 
to be cutting edge but really ensuring that it is about the 
learning and it is about the student experience.
    Mr. Tierney. Thank you.
    Thank you, Mr. Chairman.
    Chairman Miller. Mr. Roe.
    Mr. Roe. Thank you, Mr. Chairman for holding this hearing; 
and I thank the panel members for being here today. I certainly 
wish we had had more members here, because I think this is a 
very important hearing that we are having today.
    I believe, first of all, the education in this country is 
at such a tipping point. If you look at our competition around 
the world, we spent all last year talking about health care. 
And, quite frankly, if we had an educated work force I think a 
lot of the health care issues would have gone away because 
people would have had good jobs and would have had access to 
affordable health care.
    So I am a product of the public education system, never 
attended any private university, so I am totally committed to 
seeing that every youngster in America gets a quality 
education.
    And just a couple of questions. I was riding on the 
airplane back this afternoon and just shared some--ran into 
some folks who just happened to be educators, and we were 
talking about the various amounts of money that were spent. For 
instance, in the Washington, DC, school system, I read in the 
little throwaway newspaper they give you on the Metro every 
morning when you ride in that average student in a school here 
is $18,000 per student. I think, in Chicago, I think I heard--I 
have a son that lives there--I think it is about $5,000 per 
student. In Tennessee, where I am, in the city where I live, it 
is $8,000.
    The quality of education the kids are getting doesn't seem 
to be consistent with the amount of money that you spend in any 
one place. And I know you have to have enough. I do. I get 
that. But the fact that we spend more money doesn't necessarily 
mean you get more for your money is what I am saying.
    Any comments that any of y'all would make like to make 
about the funding for a student? Because you see it all over 
the place in this country, and the results are all over the 
place.
    Mr. Steinhauser. In California, we have taken an $11 
billion hit to school funding. I personally, in my school 
system, have lost $120 million in 2 years; and, at the same 
time, I have 87,000 youngsters that come to me and expect me to 
prepare them for the world of work and for college. And I am 
proud to say, last year, 74 percent of my graduating seniors 
are in college today.
    However, money isn't the whole answer. It is what do you 
with the money which is the answer. And I would argue, as a 
superintendent, yes, I need more money, but hold me accountable 
to those outcomes; and if I don't do it, then I should be fired 
if I don't come out on those outcomes. And I am a firm believer 
in people being held to outcomes along with growth process.
    Mr. Roe. I totally agree, and that leads to another 
question. How do you deal with a tenured position when you have 
someone who has just decided to park themselves in a chair? And 
everybody knows--and it may not be the easiest teacher, it 
could be the hardest teacher you have--is still a good teacher. 
And I know that is hard to define. But I agree with you all 
about objective outcomes. How do you deal with that, when you 
have someone where the unions may be protecting that person or 
they are just taking up space? What do you do?
    Mr. Steinhauser. In my experience as a superintendent, we 
have released tenured teachers before. We have a program, peer 
assistance, and review. If a teacher is less than satisfactory, 
he or she is going to get support from their colleagues; and in 
99 percent of cases they improve.
    I have never met a teacher truly who didn't want to be 
there. For whatever reason, they may not be the stellar teacher 
that they were when they first started. Then it is our 
responsibility as administrators and others to support them to 
get them the tools that they need. If they can't measure up to 
those levels, then we have to release them. And it is--in 
California, it is an expensive process. It costs around 
$250,000 to do. I will be honest with you. The majority of 
those individuals will resign before you have to go to the 
hearing process.
    Mr. Bennett. Congressman Roe, if I may, to add to that, I 
believe that if you have a habitually poor-performing teacher 
you have habitually poor-performing administrators. They are 
not doing their job as the instructional leaders of the 
building. So I think, you know, we, so many times, talk about 
the tenured teacher or the poor-performing teacher that we 
don't remove. You have to have a principal in the building that 
knows how to evaluate.
    You know, I have a group of principals I meet with every 2 
or 3 months, and every one of them told me they were never 
taught how to evaluate in their----
    Mr. Roe. So it is two problems then.
    Mr. Bennett. It really is two problems.
    Mr. Roe. Before my time runs out, one other quick issue, I 
ran into a guy who is a chemist and a mathematician at a 
Starbucks. He had retired from the Eastman Chemical 
Corporation, had gone back into the classroom.
    How do you take someone like myself, who cannot teach an 8-
grade health class, but I can teach in medical school and in 
college? How do we transition those folks who might want to go 
back now and get them in the classroom? There are a lot of 
bright people out there that would like to do that.
    I understand you need some basic core curriculum and things 
like that about how to get a lesson plan and all that together. 
But just some answers here. I will be brief, if you would. I am 
sorry for going over my time.
    Yes, ma'am. Dr. Burns.
    Ms. Burns. Within our State, we have three new pathways for 
teachers through alternate certification. These are for 
teachers, individuals who have--they have bachelors degrees in 
areas other than education, and they want to enter into 
education either mid-career or right after they come out of the 
universities. And with the alternate certification programs, we 
have one pathway that is a quick, 1-year pathway; we have one 
where you can get a master of arts in teaching; and then we 
have another one that is a certification only.
    All three pathways require the same expectations to get 
into the programs. You have to demonstrate content knowledge 
before you can go into a classroom and participate in a program 
and teach in a classroom. And throughout the programs, all of 
them, all the teachers are having to meet the same State 
standards for teachers, the same State standards for content. 
However, the delivery is different within each one of those 
three different pathways.
    In our State, we have two private providers--the New 
Teacher Project, the Louisiana Resource Center for Educators--
where they have received approval from the State to offer one 
of those three pathways as a practitioner teacher program; and, 
in addition, our universities can offer all three pathways. So 
we have found this to be very successful.
    In fact, with our alternate certification programs, these 
are the ones where we now have value-added results; and we are 
showing, with some of the programs, they are producing new 
teachers where they are comparable or the growth of learning is 
greater than that of experienced teachers. So they can be very 
successful.
    Mr. Roe. Thank you, Mr. Chairman, for indulging me.
    But this friend of mine has got a Ph.D. In mathematics who 
is teaching 8th and 9th graders math, which is unbelievable. 
Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Thank you. We will have you out of here by 5:00, but we 
have a couple of people who want to ask additional questions.
    The gentlewoman is recognized for 5 minutes.
    Ms. Chu. Dr. Bennett, you make some sweeping statements 
about teachers in your testimony. For instance, you say, quote, 
the most striking, most powerful impediment to improving 
instructional quality in school leadership has been those 
organizations charged principally to protect the integrity of 
teaching profession, teachers unions, unquote.
    I was very interested in these sweeping statements, because 
I am a teacher. I was a teacher for 20 years. I belonged to a 
union all those 20 years, the American Federation of Teachers, 
albeit this was at the community college level.
    So I note that the Race to the Top application built into 
its application a requirement for genuine collaboration with 
teachers unions, and that Tennessee and Delaware did engage in 
collaborative process with many different entities, including 
teachers, and were successful in their applications.
    On the other hand, teachers' unions in Indiana were not 
consulted in any kind of collaborative process in the State 
application. In fact, they were informed of what the 
application would contain but never actually allowed to see the 
full application until after it was submitted to the U.S. 
Department of Education.
    Why did you decide not to involve the union in the process, 
and how would you expect local unions to sign on to an MOU 
saying that they would implement Race to the Top when they 
never actually got to see the application?
    Mr. Bennett. Well, first, we did collaborate with the 
unions, especially in the area of great teachers and leaders 
under that pillar. We had no less than three fairly lengthy and 
robust discussions with both representatives from the ISTA and 
the IFT regarding a framework for teacher and principal 
evaluation. And we actually went to them because we said, we 
know this is the place that involves the teachers the most, 
especially at the local level when they go to negotiate 
collective bargaining agreements that, in many cases, include 
their evaluation instrument and their evaluation process.
    So the concept that we didn't include them is not correct. 
They did not see our application in total, but they did receive 
an incredibly extensive executive summary.
    And the reforms we have pursued have been consistent with 
what the Secretary and the President have talked about for 
reforming education. So we didn't really believe there was a 
big secret.
    But the direct answer to your question, Congresswoman, is, 
again, we received guidance from our national consultants that 
said this was a competition and we were competing against 
potentially 50 other States, and we were told that we had 
pieces of our proposal that were unique to Indiana and we 
should keep those unique. So we did put out an extensive 
executive summary. We went to nine--we made nine State-wide 
stops where we engaged members of the teachers unions and 
administrators and school board members; and, again, we did 
have those robust discussions about the pillar that most 
affected teachers, which was the great teacher and leader 
pillar.
    That said, the Indiana State Teachers Association still 
came out after the fact and said they didn't even agree with 
Race to the Top. So I am not sure how much collaboration would 
have helped when the head of the union didn't agree with the 
process we were trying to engage in.
    Ms. Chu. Well, I am raising this because when you make such 
sweeping statements about a whole profession then I think the 
record has to be set straight.
    And, Mr. Chairman, without objection, I would like to 
insert into the hearing record three letters from the State of 
Indiana State Teachers Association, because I think it is 
important to have the hearing record show both sides of the 
issue in the State of Indiana.
    Chairman Miller. Without objection.
    [The information follows:]
                                                   13 January 2010.
Dr. Tony Bennett,
Indiana Department of Education, Room 229, Statehouse, Indianapolis, 
        Indiana 46204-2798.
    Dear Dr. Bennett: As president of the Indiana State Teachers 
Association, I want to acknowledge the opportunities ISTA has had to 
participate in discussions with Indiana's Superintendent of Public 
Instruction concerning the proposals you might make regarding teacher 
evaluation in Indiana's Race To The Top application.
    Should Indiana be selected as a recipient of Race To The Top 
funding, I appreciate the stated commitment of the Superintendent that 
ISTA will be an active participant in the development and 
implementation of state plans for education reform in the area of 
teacher evaluation and in other areas of education policy which will be 
included in the application.
    I find it concerning, though, that the leadership of nearly 50,000 
ISTA members teaching the more than one million public schoolchildren 
in our public schools was not allowed to see the final Race To The Top 
application before it was submitted to the federal government on 
January 19.
    I believe that Indiana's successful application for Race To The Top 
funds is important for the schoolchildren in many school districts in 
Indiana. If Indiana is awarded these funds, ISTA is willing to 
participate more fully and constructively in the policy decision-making 
process that will continue.
    ISTA's objective is to provide its best thinking and advice on 
policy issues so that Indiana's prospects for a bright future are 
secured by actions that will best serve the schoolchildren and school 
communities within our state. I assume that once I see the plan there 
will be aspects of the plan that ISTA cannot fully support; however, I 
acknowledge the need for cooperation among education stakeholders for 
Indiana to succeed.
    Just as Race To The Top leaves the decision on participation up to 
local school districts, so too in ISTA's discussions with DOE, ISTA has 
not wavered in its position that both endorsement of and participation 
in Race To The Top is a matter for local decision. ISTA has made this 
clear in discussions with DOE and DOE has acknowledged in those 
discussions that collective bargaining will be required in order to 
construct the work plans which will be required of local school 
districts to obtain Race To The Top funds. This understanding is 
consistent with Indiana's version of the Memorandum Of Understanding 
(MOU) for participating LEA's (``Partnership Agreement between Indiana 
Department of Education and Participating LEA''). As was the case in 
the federal MOU, by signing Indiana's Partnership Agreement, a 
participating LEA is providing the assurance that it ``(w)ill comply 
with * * * all applicable federal and state laws and regulations.''
    ISTA looks forward to continuing to work with our members and all 
Indiana public officials to provide Hoosier students an education that 
equals the best in the nation and the world.
            Sincerely,
                                      Nate Schnellenberger,
                                                    ISTA President.
                                 ______
                                 
From: ISTA President
Sent: Wednesday, April 21, 2010 1:37 PM
To: Pike, Brenda

Subject: ISTA Seeks Collaborative Race to the Top Sessions

                      Nathan G. Schnellenberger, President,
               Dr. Brenda Pike, Ed. D., Executive Director,
                                         Wednesday, April 21, 2010.
    Dear ISTA Member: Dr. Tony Bennett has issued an invitation through 
an Indiana Department of Education news release to meet with me, as 
president of the Indiana State Teachers Association, in his office next 
week to discuss Indiana's Race to the Top (RttT) plan. Dr. Bennett 
stated in his news release that because he wants this to be a 
meaningful discussion, I should attend his meeting unaccompanied by 
ISTA staff. He did, however, issue invitations to members of the news 
media to attend and has said that the meeting will be videotaped and 
posted on the IDOE Web site.
    After having thoroughly reviewed Indiana's application, I have 
decided not to accept Dr. Bennett's invitation. A single meeting with 
the media in attendance will not generate meaningful discussion or 
create the work that needs to be accomplished to produce a viable plan 
for the second round of RttT funding.
    Despite our repeated requests from the start of the RttT process, 
IDOE never shared with ISTA or any other education organization the 
content of the plan before it was submitted. Yet now, when time is 
short and pressure is deep, Dr. Bennett expects me to give an 
unequivocal agreement to his RttT demands.
    In Delaware and Tennessee, the two states that received round one 
RttT funding, state education leaders solicited and included meaningful 
input from their teachers' association leaders through collaborative 
meetings and work sessions at every step of the process. That type of 
collaboration did not occur in Indiana.
    Indiana's RttT application placed 23rd out of 40 states that 
submitted applications in the first round of funding, so it is clear 
that if the state's application is going to advance to a viable funding 
position, it will need intense reworking, not just an unequivocal sign-
off from ISTA. In fact, 100 percent support from ISTA could not have 
added enough additional points to vault the Indiana proposal from its 
23rd place to a winning grant.
    The adversarial tone of Indiana's plan toward teachers stood in 
stark contrast to the positive, upbeat tones of the Delaware and 
Tennessee plans. It's also interesting to note that both the Delaware 
and Tennessee plans preserved seniority, collective bargaining and due 
process.
    It's clear by looking at reviewers' comments that the failure of 
Indiana's plan to be funded had a great deal more to do with a lack of 
the plan's specificity and quality than with its lack of support from 
ISTA. As evidenced, states likes Georgia (3), Florida (4), Rhode Island 
(8) and Louisiana (11), which had absolutely no state association 
support for their Race to the Top proposals, all finished significantly 
higher than Indiana (23) in the initial round of competition.
    An important matter regarding the federal Race to the Top program 
has been overlooked. Federal RttT funds cannot be used to offset the 
$297 million cut in public education funding mandated by Gov. Daniels. 
RttT funds cannot be used to stop teacher layoffs, save instructional 
programs or maintain reasonable class sizes. Race to the Top funds 
cannot help solve Indiana's public education funding crisis.
    ISTA is more than willing to meet with Dr. Bennett and his staff in 
meaningful work sessions, but we will not participate in a media event 
arranged for the purpose of strong-arming the ISTA into agreeing to an 
unequivocal sign-off regarding the Indiana Department of Education's 
Race to the Top application demands.
            Sincerely,
                                      Nate Schnellenberger.
                                 ______
                                 
                                                  17 December 2009.
Dr. Tony Bennett,
Indiana Department of Education, Room 229, Statehouse, Indianapolis, 
        Indiana 46204-2798.
    Dear Dr. Bennett: I wanted to take the opportunity to reiterate 
ISTA's position on the provisions you intend to include in Indiana's 
application for Race to the Top funds relative to teacher evaluation. 
In light of the cuts in public education which Governor Daniels has 
proposed, it is critically important that you ensure that Indiana's 
application is designed to assure the success of Indiana's application 
and that the benefit of the Race to the Top funds will provide for 
Indiana schoolchildren.
    As I have stated in our meetings, ISTA can advise our local 
affiliates to support the portion of the application which deals with 
teacher evaluation as long as it requires that those evaluation systems 
be redesigned to meet federal requirements and to meet the needs of 
each school district with input from teachers and the local 
association. The document we provided to your staff on December 14 
clearly reflects our position in this regard. I urge you to reconsider 
the position that was advanced in our meeting today under which Indiana 
would add a requirement that participating school corporations adopt a 
statewide, one- size-fits-all evaluation instrument. Once again, I urge 
you to adopt the suggestions we provided in the document we provided on 
December 14. I believe that the responsible course for you is to 
construct Indiana's application so that IDOE provides guidelines to 
supplement the federal requirements rather than adding requirements 
which do not advance the policy behind RTTT and will, I believe, reduce 
Indiana's chances of being awarded Race to the Top funds by reducing 
the evidence you would otherwise have of widespread support for 
Indiana's application.
    In the area of teacher evaluation, the essential goal of Race to 
the Top is to make student growth a significant factor in teacher 
evaluation as a strategy for increased engagement on student 
achievement and improvement of instruction. ISTA accepts this goal but 
believes that we will not achieve it unless Indiana's teachers are 
brought into this process. For change to be authentic and effective, 
each participating school corporation and its local association must 
collaborate in the process of refining or redesigning its evaluation 
system. It is clear that the intent of the RTTT grant Reform Plan 
Criteria (D)(2) Improving teacher and principal effectiveness based on 
performance be that LEAs carry out the guidelines set forth by the 
grant under (D) (2). ``The extent to which the State, in collaboration 
with its participating LEAs, has a high-quality plan and ambitious yet 
achievable annual targets to ensure that participating LEAs (i) 
establish clear approaches * * * (iv). The U.S. Department of Education 
further emphasizes this point that LEAs develop the teacher and 
principal effectiveness plans on page 12 of the Race to the Top Program 
Guidance and Frequently Asked Questions document stating, ``We believe 
that the decision about which supplemental measures should be used is 
best left to educators and leaders in LEAs and/or States who are close 
to the classroom and who best determine which metrics work in their 
environments.'' Creating plans to improve teacher and principal 
effectiveness will require discussion at each LEA about how to improve 
student achievement, selection of measures (in addition to ISTEP+) 
which are appropriate for gauging student achievement and determination 
of how to assess student growth using those measures. If teachers do 
not engage in this process of reflection and decision-making, Indiana 
will not have the buy-in from the teachers that is essential to 
achieving the goal RTTT has set to focus us on student achievement. 
ISTA is prepared to accept the challenge of Race to the Top, but we 
believe it will not work through a top-down imposition of a one-size-
fits-all evaluation system.
    I urge you to submit an application that would not jeopardize the 
chances of success for Indiana in its Race to the Top application. 
These federal funds are urgently needed to benefit Indiana's 
schoolchildren, and it will be regrettable if the imposition of a one-
size-fits-all evaluation system, which is not required by Race to the 
Top and which would be counter-productive to the goals of Race to the 
Top, puts Indiana's application at a disadvantage.
    Finally, we were extremely disappointed to learn, contrary to what 
your office had previously announced, that the State Plan and 
application will not be released until after the application is 
submitted to the federal government on January 19. Instead you propose 
to release an executive summary on Friday, December 18, and not make 
Indiana's application and State Plan available until after the 
application is filed on January 19. This is a most regrettable 
development, putting school corporations and teachers' associations in 
the position of having to make their participation decision without 
knowing what participation requires. I urge you to reconsider and 
release the full State Plan and application this Friday. The benefit of 
providing complete information to school corporations and teachers 
whose efforts will ultimately determine the success of the Race to the 
Top far outweighs any other concern.
            Sincerely,
                           Nate Schnellenberger, President.
                                 ______
                                 
    Ms. Chu. But I do have three letters documenting the desire 
of the Indiana State Teachers Association to actually read the 
full application: a letter from December 17 in which they 
expressed their extreme disappointment in not being able to 
read the application; a letter from January 13 in which, again, 
they express their extreme disappointment because you submitted 
it January 19 without their review; and then also, apparently, 
you did ask for a meeting, but that was in April, way after the 
application was submitted.
    Now, you say that Indiana did not get the funds because of 
a lack of union support. However, it turns out that there were 
other factors that may have been important here. For instance, 
Indiana lost 15 points because it didn't include how the State 
will emphasize and integrate science, technology, engineering, 
and math--STEM, in other words--in its education system. And 
you didn't meet all the required elements for a State-wide 
longitudinal data system. So are you willing to address these 
components in the second round application?
    Mr. Bennett. Well, we are not making a second round 
application, Congresswoman. We have notified the U.S. 
Department of Education that Indiana will not make an 
application.
    And I want to say that I take responsibility for those 
areas that you just mentioned. Because, if you look at our 
application, our round one application, we were consistently 
criticized for not providing the amount of detail necessary to 
describe the reforms that we were pursuing. And we did that 
because I made a decision that we would follow the guidance 
regarding page limits. And if you look at our--the length of 
our application compared to the other finalists, and especially 
the successful--the two successful States, you will see a huge 
difference in the length of the application. So much of our 
detail in our proposal that we were criticized for, and rightly 
so, is my responsibility because I chose to follow the page 
limits.
    Chairman Miller. We are going to have to continue that off 
the air here for a minute because we are going to do a little 
lightning round here so we can----
    Mr. Steinhauser, I would like to ask you a question. So are 
you in the position of the customer of Long Beach State?
    Mr. Steinhauser. Yes.
    Chairman Miller. And you award the credential.
    Mr. Steinhauser. Yeah. We work with them. They do the pre-
teaching; and in the fifth year, once they are hired with us, 
we award the credential.
    Chairman Miller. So what you describe to us is that you 
mutually, or you, as the customer, went and designed the 
program that you thought would feed you the best applicants for 
your positions.
    Mr. Steinhauser. Correct. Fifteen years ago, we got 
together on a retreat and stopped blaming each other, to start 
working together.
    Chairman Miller. And now what is it you are transferring to 
Fresno or have transferred to Fresno?
    Mr. Steinhauser. With Fresno, we are transferring our work 
on our math program, our work on our English language learner, 
our leadership development, and also a thing that we call the 
Long Beach College Promise, which is a partnership between Long 
Beach----
    Chairman Miller. Is Fresno transferring that to Fresno 
State?
    Mr. Steinhauser. Correct. Our university presidents have 
met, and then Fresno transfers their best practices with us.
    Chairman Miller. So, in theory, in Oakland, it would go to 
College of East Bay or whatever.
    Mr. Steinhauser. Right.
    Chairman Miller. So they could work with San Francisco. I 
mean, they could work with one of the colleges in the Bay area. 
And so it is a transfer not just of your side of the K through 
12 model, it is the transfer of the Long Beach State model.
    Mr. Steinhauser. Correct. And Long Beach State.
    Chairman Miller. And you are in what year with this at 
Fresno?
    Mr. Steinhauser. We are just starting our second year.
    Chairman Miller. Starting your second year.
    Okay. I am done. Mr. Roe and then Ms. Woolsey.
    Mr. Roe. In Tennessee, we have 50 percent of the young 
people that enter education as a major in college don't finish 
that. Of the 50 percent who do, in 5 years, half of them don't 
teach. How do we get those young people to stay in education? 
Because we have a huge need, especially in our inner cities.
    I lived for 10 years--my wife taught in an inner city 
school in Memphis, Tennessee, while I was in medical school. 
And how do we get young people to stay? How do we retain them, 
I guess is the question.
    And the other thing I have, very quickly, is we use CME, 
continuing medical education, for our--is that appropriate in 
teaching, getting teachers to stay up to date with?
    And I will let any of you answer that question, quickly.
    Mr. Steinhauser. I think it is working conditions. You have 
to provide people with the support they need to make sure they 
are successful.
    Chairman Miller. Agreement across the board.
    Ms. Thompson, quickly, 30 seconds.
    Ms. Thompson. I would agree with that, and I would add that 
you need to give them the opportunity to see growth in a ladder 
and the opportunity to be part of the bigger picture.
    Chairman Miller. Ms. Woolsey.
    Ms. Woolsey. Mr. Bennett, I am not going to couch this 
generally or anything. I didn't hear from you how your reform 
support teachers. Do you have wraparound programs so that if 
they are in an area that needs extra help that is available to 
them? If a teacher needs a mentor to bridge where they are at 
this time from their past education to what is expected of them 
now, are those mentoring programs available to your teachers? 
How do you evaluate their needs?
    Mr. Bennett. Well, we--currently, the issue of mentoring is 
an issue that really has been adopted mostly by the local 
school corporations. Many local school corporations have very 
robust mentoring programs. So much of that is already addressed 
at the local level through the cooperation of our 
superintendents and principals.
    Again, I go back to the fact that, in our situation, we 
have a number of underperforming schools where we have had 
teachers--have had actual superintendents cite to us that over 
60 percent of their teachers are ineffective, defined as 
unwilling. And the teachers union was present and did not 
dispute that number. So, for me, this whole thing starts with 
high expectations, and it starts with an ability to clearly 
identify those expectations to teachers, give a teacher an 
instructional leader.
    Ms. Woolsey. You don't have time to do all this. What you 
are telling me is you actually don't have programs to help 
those teachers bridge.
    Mr. Bennett. Absolutely. Yes, we do. We have professional 
development opportunities; and part of our new licensing 
proposals is to provide teachers the opportunity to use those 
professional development opportunities to recertify their 
licenses, as opposed to going to higher ed to have to take 
credit hours.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Chairman Miller. Ms. Hirono.
    Mr. Kildee, anything?
    Well, thank you very much. We obviously needed more time. 
But thank you so much for your giving us your time and your 
expertise and all of your experience.
    Members will have 14 days to submit statements or opening 
statements, and we may have some questions that we will submit 
to you in writing. We would appreciate if you would get back to 
us, and we will be in touch with you as we progress down the 
road here. Thank you.
    [The statement of Mr. Guthrie follows:]

Prepared Statement of Hon. Brett Guthrie, a Representative in Congress 
                       From the State of Kentucky

    Thank you Mr. Chairman, and let me join my colleagues in thanking 
this distinguished panel of witnesses for joining us this afternoon. 
I'm pleased to have so many expert voices here today to represent a 
range of perspectives, so I'll keep my remarks brief.
    We know there is no silver bullet when it comes to education, but 
high-quality teachers are about as close as we can come to a ``sure 
thing'' for improving student academic achievement. To put it simply, 
we need excellent teachers to bring out excellence in our students.
    If we want to close achievement gaps and raise the bar for all our 
students, the first place we need to look is at the front of the 
classroom. Are teachers prepared to succeed? Are they empowered to 
lead? Are federal policies allowing teachers to teach, or are they 
micromanaging and limiting creativity?
    We need to look at state and local policies as well. Are contracts 
and hiring practices putting our best teachers where they are needed 
the most? Or are rigid tenure rules favoring longevity over quality?
    As policymakers, we must ask what we can do at the federal level to 
support educators and allow parents and local communities to 
demonstrate leadership and ownership when it comes to their schools, 
and the teachers who lead them.
    I look forward to exploring these and other questions with our 
witnesses today. Thank you, I yield back.
                                 ______
                                 
    [Questions for the record submitted by Ms. Chu follow:]

 Questions for the Record Submitted by Hon. Judy Chu, a Representative 
                in Congress From the State of California

Deborah Ball, Ph.D, Dean, School of Education, University of Michigan, 
        Ann Arbor, MI
    If we had invited a teacher from my district, I am confident she 
would have discussed how we prepare teachers and how we recruit 
teachers to meet the needs of bilingual learners since over 60 percent 
of my district does not speak English at home. But, it's not just 
California anymore, states like North Carolina, Alabama, and Tennessee 
have seen a 300% growth in their bilingual learner population. What do 
Schools of Ed need to prepare our teachers not just for improved 
overall instruction, but for a diverse classroom?
Randi Weingarten, President, American Federation of Teachers, 
        Washington, DC
    1. One of the most detrimental effects of No Child Left Behind is 
the widespread ``teaching to the test.'' The pressure to make AYP has 
shifted the focus from student learning to test scores--which many 
experts agree don't adequately measure if a student has learned 
language arts or math.
    I'm pleased to see Secretary Duncan offer states a grant 
opportunity to revise student assessments. However, he's seemed to put 
the cart in front of the horse with Race to the Top Grants and 
requiring teacher evaluations to be tied to student test scores before 
student assessment systems are reformed. How will this poor sequencing 
of reforms affect student learning and outcomes?
    2. What other measures should be used to determine teacher 
effectiveness besides student test scores?
Monique Burns Thompson, President, Teach Plus in Boston, Boston, MA
    1. First, let me tell you how wonderful it is to hear a model in 
education that is informed by teachers. It is commonsense in most 
situations to include the experts on the ground in developing and 
creating policies, but in education, it is not always the case.
    I am very interested in this model because state and local 
investment in high poverty and high minority districts are $773 less 
and $1,222 less respectively, per student versus low poverty and low 
minority districts. My district has 135 Title I Schools out of 165 and 
is 6.7% white. The percent of all students performing at or above 
proficient level is less than 50% in nearly every category. When we 
talk about those students who need it most, we are talking about 
students in my district. Therefore, I'd like to know what were the most 
essential elements that brought the teachers together, built the public 
support and made implementation successful?
Chris Steinhauser, Superintendent, Long Beach Unified School District, 
        Long Beach, CA
    1. You are an advocate for Secretary Duncan's emphasis on 
competitive grants versus formula funding. There are good arguments on 
both sides, but in practice, I am interested in how an increase in 
competitive grants for Long Beach Unified, especially with the drastic 
budget cuts imposed by Gov. Schwarzenegger, will impact your long-term 
fiscal programming and plans? What will happen if you do not receive 
state or federal funding to keep successful programs or implement new 
innovative ones?
                                 ______
                                 
    [Question for the record submitted by Mrs. McMorris Rodgers 
follows:]

  Question for the Record Submitted by Hon. Cathy McMorris Rodgers, a 
        Representative in Congress From the State of Washington

    Please send this question to all of the witnesses on both panels.
    There is a national consensus that our current education system is 
not preparing our children for their future. Recent surveys of K-12 
public educators commissioned by the Gates Foundation reveal that 
teachers believe students leave schools unprepared for success beyond 
high school. This is unacceptable. Whether students choose to pursue a 
career or higher education after high school, the fact that teachers 
recognize that their students are not prepared for their future is 
problematic.
    Realistically, our children have one shot at receiving a quality 
education. Yet, over the last several decades, we've witnessed the 
evolution of a number of programs intended to improve the effectiveness 
of teachers in the classroom. In fact, two months ago, the 
Administration released its education reform blueprint, which proposes 
to consolidate Title II of the Higher Education Act with Title II of 
the Elementary and Secondary Education Act. Despite these programmatic 
changes, I fear we will still be dealing with the same issue of teacher 
ineffectiveness, which leads me to believe that we are not getting to 
the heart of classroom ineffectiveness. Is it unions? Is it too much 
federal involvement or not enough? Please comment on what you believe 
are the underlying barriers.
                                 ______
                                 
    [Witnesses' responses to questions submitted follow:]

                           Deborah Loewenberg Ball,
                                    University of Michigan,
                                                     Ann Arbor, MI.

            Responses to Questions Submitted for the Record

    1. Would the strategies you are proposing regarding teacher 
preparation work in all states and in all types of communities? Is it a 
good idea to address these through federal policy or do these 
strategies need to be locally tailored and left up to districts and 
states?

    There is a national need to develop and implement a common standard 
of practice for beginning teaching. This would entail developing a 
coherent system for preparing teachers for the essential work of 
teaching and performance assessments that would measure candidates' 
skill with the entry-level aspects of professional practice. This 
strategy would work in all states and all types of communities. 
Producing and hiring skillful beginning teachers is crucial everywhere 
in the United States; it is not unique to particular areas.
    To achieve this, we need to identify the instructional practices 
necessary for effective beginning teaching, and the knowledge and 
skills needed to carry out those practices. Needed then are to develop 
best materials, tools, and resources for training teachers, and valid 
assessments to measure candidates' progress and certify their readiness 
for practice. Although states and districts could work on these tasks 
independently, a coordinated effort would be the best way to ensure 
well-prepared teachers across the country.
    Federal support for building this system and encouraging states to 
work on it and/or adopt it is crucial. It will work best if this system 
for teaching quality is closely tied to a common K-12 curriculum in the 
United States. Teaching involves teaching specific content. Without a 
common core curriculum, teacher training is far less efficient and 
targeted. For example, with common goals about pupils' learning of text 
comprehension, teachers could be trained to teach that goal with high 
levels of skill. Similarly, if we agreed on the competencies that 
middle schoolers need with fractions, we could specifically target 
teachers' learning, in detail, toward effective teaching of those 
proficiencies.

    2. What do we need to do to prepare teachers not just for improved 
overall instruction but for diverse classrooms?

    Teacher training should focus on specific practices of teaching 
that are most effective at helping students learn specific content. 
Preparation for teaching in diverse classrooms should focus on the 
actual tasks and skills of high-quality instruction, and on the 
knowledge, skills, and understandings that such skilled practice 
requires. Traditionally, teacher education for diverse classrooms has 
centered more on changing teachers' beliefs and orientations than on 
improving their skills with teaching academic content, relating to 
students, managing the classroom, and building effective connections 
with the home. Believing that all students can learn, and understanding 
how inequality is produced and reproduced in our society and schools, 
is of course vitally important. But beliefs and knowledge of this sort 
are insufficient for being effective with students of a wide variety of 
backgrounds. What beginning teachers need most is mastery of an 
essential set of professional skills and knowledge that they can put to 
effective use in real classrooms.
    For example, all teachers should understand how to facilitate a 
whole-class discussion with students who lack experience in academic 
discourse. Teachers should know how to present mathematics problems 
that enable students to connect math to everyday contexts in ways that 
take advantage of students' out-of-school experience. Teachers must be 
able to interact effectively with parents and guardians who do not 
speak English, or who are unfamiliar with the curriculum, and help 
those parents support their children. Teachers should be able to 
diagnose the sources of students' difficulties and know how to remedy 
the problems efficiently. Given the rapidly growing diversity of 
American school population, all teachers need to be skillful in working 
with a wide range of young people. This requires effective, focused 
professional training. Prospective teachers need carefully supervised 
clinical experience working with diverse students, and they need close 
coaching to learn to improve their instructional and relational skills.

    3. What are the barriers to remedying the ineffectiveness of many 
classrooms? Is it unions? Is it too much federal involvement or not 
enough?

    Many barriers exist to remedying the ineffectiveness of classrooms. 
One crucial obstacle is the lack of a common K-12 curriculum that would 
enable a coherent system of instructional materials and comprehensive 
teacher training to achieve that curriculum. Other industrialized 
nations with high-achieving school systems take for granted the reality 
of a common student curriculum and professional education that is 
closely tied to it. Another barrier is that most U.S. schools are not 
organized to support high-quality education through the systematic 
analysis of data and examination of results, strong leadership, and 
resources for continuous professional improvement tied to 
effectiveness. Incentives for improvement are weak. Still another 
barrier is an incoherent ``quick fix'' orientation to educational 
improvement, marked by a stream of uncoordinated and often unproven 
interventions, and a significant lack of resources. And challenging 
social, health, and economic problems further complicate efforts to 
improve educational outcomes.
    Despite this daunting list of barriers, skillful teachers can 
dramatically increase the probability that their students will learn. 
Such teachers can mediate between the barriers in the environment and 
students' engagement in academic learning. They make crucial decisions 
about how to interpret and implement curriculum, they manage 
interpersonal relationships in the classroom, and they respond to and 
strategically buffer outside pressures and interferences. What 
effective teaching can do is crucial. We must overcome our collective 
failure to appreciate the fact that skillful practice can--and must 
be--learned, and hence, taught. To achieve this, we need to build a 
system, at scale, for ensuring that teachers who enter the classroom 
have the requisite professional skills and know how to use them.
    The federal government could play a pivotal role in aligning 
resources and commitment to support the design and implementation of a 
system of teacher training and continuous improvement of practice. 
Allocating resources for collective work could mitigate against the 
strong tendency for every state to work on its own, without sufficient 
resources or expertise to accomplish this crucial task. Although states 
and districts could work on these tasks independently, a coordinated 
effort would be the best way to ensure well-prepared teachers across 
the country.
                                 ______
                                 
                             [Via Electronic Mail],
              Indiana Superintendent of Public Instruction,
                                                      May 18, 2010.
Hon. George Miller, Chairman,
Committee on Education and Labor, 2181 Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: Thank you for the opportunity to respond to 
Representative McMorris Rodgers' questions regarding my May 4, 2010 
testimony before the House Committee on Education and Labor.
    Each state faces its own set of unique challenges and underlying 
barriers in dealing with teacher ineffectiveness. As discussions 
cropped up nationwide around this issue, education stakeholders in 
Indiana also began having more conversations about teacher quality.
    As many people from Indiana will tell you, I do not sneak up on 
anyone. As Indiana's Superintendent of Public Instruction, I have been 
consistent, transparent and honest about my hopes and plans for the 
future of education in Indiana. That includes my stance on what some 
people consider controversial education reform topics such as measuring 
student growth and using the results for teacher and school 
accountability and rigorous annual teacher and principal evaluations 
that use performance data to inform decisions regarding layoffs, 
salaries, bonuses, and more. My main concern is that students in 
Indiana receive the best education possible so they can compete with 
students from around the world in the 21st century economy. I have 
never been afraid to challenge adults and make them uncomfortable if 
that discomfort could lead to positive changes for kids in Indiana.
    Before I go any further, let me be clear: there is a distinct 
difference in our state between the elite group of state-level Indiana 
State Teachers' Association (ISTA) and the Indiana Federation of 
Teachers (IFT) leaders who care most about protecting their unions' 
financial solvency and the teachers who are working hard in our school 
buildings every day to prepare students for successful futures. The 
state-level leaders of these two organizations have done a horrible 
disservice to their members by not being transparent about their plans, 
their efforts or their intent. In light of recent events, I would 
categorize the actions of this handful of state-level union leaders as 
obstructionist at best. Their unwillingness to tell the public where 
they stand on important issues surrounding teacher quality is nothing 
short of disheartening.
    I would like to outline a disappointing turn of events involving 
the leadership of our state-level teachers' unions; I believe it is 
emblematic of a broken system. Since I took office in 2009, Indiana 
Department of Education (IDOE) senior staff members and I have 
conducted more than 30 substantive meetings or conference calls with 
leaders from ISTA and IFT, including discussions surrounding the 
development of a system for teacher and principal evaluation which 
would help identify and support effective teachers.
    While IDOE was hoping for agreement on an evaluation tool to be 
adopted by all schools statewide, we engaged in much healthy debate and 
were willing to compromise. IDOE agreed to a set of guidelines for 
teacher and principal evaluations. So long as they followed the 
guidelines, local leaders could develop their own tools or systems for 
evaluation. Despite IDOE's willingness to compromise and the larger 
group's consensus on the guidelines, state-level ISTA and IFT leaders 
would not acknowledge publicly to their local union leaders and members 
that they had joined IDOE and others in developing these evaluation 
guidelines (included as an email attachment).
    While many of these conversations occurred in the context of 
Indiana's Race to the Top efforts, this new system for evaluation 
offers the objectivity individual teachers have been requesting for 
years, and it is key to the state's ability to identify and reward 
great teachers. We all understand the invaluable role great teachers 
play in the lives of children, and as Indiana's superintendent, I 
believe it is morally imperative that we ensure all our students have 
the best possible teachers in their classrooms each day.
    Given the absolute unwillingness of the state-level teachers' 
unions to have an open and honest discussion about these issues in full 
view of the public, IDOE will instead continue to conduct useful 
conversations with individuals and groups of teachers throughout the 
state and work with teachers at the local level to develop policy for 
the future of our students and our state.
    I would also like to respond to Mr. Rodgers' question regarding the 
appropriate level of federal government involvement. In Indiana, we 
truly appreciate the unique attention and focus the President and 
Congress can bring to an issue. In the case of education reform, 
President Obama's Administration's support has certainly offered 
Indiana the opportunity to embark upon a much-needed reform journey, 
and I greatly appreciate that opportunity.
    We want the federal government to set the bar of expectations high 
and then allow each state to find its own way to jump over the bar. If 
Indiana and other states are able to meet or exceed expectations, I 
hope we will be rewarded for our success--perhaps by way of loosening 
restrictions on the use of some education funds like Title I or 
investing more in Indiana so we can duplicate our successes. If states 
are unable to meet expectations set forth by the federal government and 
achieve results for students, those states should be held accountable 
as it makes no sense to continue funding failing programs.
    Again, I appreciate the opportunity to respond to additional 
questions regarding my recent testimony before the House Committee on 
Education and Labor. Thank you for your time and consideration.
            Sincerely,
                                              Tony Bennett,
                                   Indiana Department of Education.
Guidelines for Measuring Teacher and Principal Effectiveness
    ``The Obama administration aims to reward states that use student 
achievement as a ``predominant'' part of teacher evaluations with the 
extra stimulus funds--and pass over those that don't.''
                                           Joanne S. Weiss,
              NewSchools Venture Fund and Race to the Top Director.

    The Indiana Department of Education (IDOE) is committed to 
improving the quality of instruction and leadership in Indiana's 
schools. To reach this goal we must focus on teacher and principal 
quality by accurately assessing individual performance. Recognizing 
that teacher and principal effectiveness are the most important factors 
in improving student achievement, teachers and principals must be 
credibly evaluated on their ability to impact student outcomes and 
growth. Districts must reexamine their evaluation tools and begin to 
use them to inform district policies regarding hiring, laying off, 
professional development, compensation, promotions, and retention. IDOE 
has established these guidelines to provide a clear bar for developing 
teacher and principal evaluation instruments. By adopting these 
guidelines, a district still must follow applicable state laws.
    In considering teacher and principal evaluation system, districts 
must:
    Adopt a common evaluation tool for teachers and principals.
    Incorporate student performance/growth on ISTEP+ to count for at 
least 51% of the total evaluation score.
    Use a multiple rating scale consisting of 4 categories: highly 
effective, effective, improvement necessary, and ineffective.
    Ensure teacher and principal performance data shows meaningful 
differentiation of effectiveness across the ratings spectrum; the State 
will expect that the school corporations aggregate evaluations show a 
credible distribution across the spectrum. Moreover, there must be 
parity in distribution between tested and non-tested grades/subjects.
    Provide an annual evaluation for all teachers and principals.
    Include close examination of key performance metrics (e.g. 
purposeful planning, classroom culture, effective instructional 
techniques, and professional leadership).
    Create a collaborative goal-setting component for teachers and 
principals to set their own instructional and growth goals specific to 
student achievement and teacher or principal effectiveness.
    Specify the support and intervention which will be provided for 
teachers not rated as ``highly effective'' or ``effective.'' (e.g. 
improvement plans, professional development and dismissal protocols) 
and provide clear consequences for unsatisfactory performance.
    Use teacher and principal evaluation data to guide district, 
school, and individual professional development plans.
    Train and support evaluators to effectively implement evaluation.
    Use teacher and principal evaluations, at a minimum, to inform 
decisions regarding:
    (a) Developing teachers and principals, including by providing 
relevant coaching, induction support, and/or professional development;
    (b) Compensating, promoting, and retaining teachers and principals, 
including by providing opportunities for highly effective teachers and 
principals to obtain additional compensation and be given additional 
responsibilities;
    (c) Whether to grant tenure and/or full certification (where 
applicable) to teachers and principals using rigorous standards and 
streamlined, transparent, and fair procedures; and
    (d) Removing ineffective tenured and untenured teachers and 
principals after they have had ample opportunities to improve, and 
ensuring that such decisions are made using rigorous standards and 
streamlined, transparent, and fair procedures.
    Train and support teachers in peer assistance and/or teacher leader 
programs.
                                 ______
                                 
                                  Board of Regents,
                                            P. O. Box 3677,
                                     Baton Rouge, LA, May 26, 2010.
Hon. George Miller, Chairman,
Committee on Education and Labor, 2181 Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I am writing this letter to respond to the 
following question that you sent to me after testifying at the Hearing 
on ``Supporting American's Educators: The Importance of Quality 
Teachers and Leaders'' on May 4, 2010:
    ``Despite these programmatic changes, I fear we will still be 
dealing with the same issue of teacher ineffectiveness, which leads me 
to believe that we are not getting to the heart of classroom 
ineffectiveness. Is it unions? Is it too much federal involvement or 
not enough? Please comment on what you believe are the underlying 
barriers.''
    I believe three underlying barriers have existed to prevent us from 
providing all students with highly effective teachers. They pertain to 
access to student growth data, professional learning connected to 
teacher rewards, and principal leadership. If all three are equally 
addressed, achievement could improve in our country. Although the home 
environment of children is a very important part of a child's 
education, it can no longer be an excuse for why students are not 
achieving. In Louisiana, we have identified schools that have high 
achieving students who are educated in schools that have a high 
percentage of children living in poverty. Thus, we now know that it is 
possible for children living in poverty to achieve if they have an 
effective teacher and an effective principal. These schools must deal 
with the same federal, state, union, and parent issues as other schools 
in the state, yet their students demonstrate growth in achievement.
    The first underlying barrier is the lack of appropriate assessment 
systems in states that provide teacher preparation programs and 
teachers with access to achievement and other data pertaining to the 
growth of students taught by individual teachers. This type of 
information is especially important to programs who prepare teachers. 
New teachers who complete ineffective teacher preparation programs are 
at a disadvantage for they start their careers underprepared in 
specific content areas. These teachers will need extensive professional 
development to catch up with peers who exit effective teacher 
preparation programs. Without a system that provides valid and reliable 
data about the growth of student learning, neither the teacher nor the 
preparation program will know if their strategies are effective or 
ineffective. Louisiana is now piloting new assessment systems that 
provide practicing teachers, schools, and teacher preparation programs 
with access to data of this type. Continued federal support to 
encourage states to develop longitudinal data systems and share systems 
that work will help states overcome this barrier.
    The second barrier and the most important barrier is the lack of 
relevant and student focused professional development that results in 
improved teaching practices, higher student achievement, and rewards 
for teachers. It is not sufficient to just provide teachers with data 
about the performance of their students and their own teaching 
effectiveness. To improve achievement, teachers must be taught new 
strategies and techniques that extend beyond their existing knowledge. 
States need to move away from traditional professional development 
where all teachers receive the same development to the use of 
exceptional master and mentor teachers who help teachers use new 
teaching strategies that impact needs identified through analysis of 
student data. High quality professional development needs to be linked 
to a fair reward system that is based upon multiple assessments that 
examine growth in student achievement and teacher performance. This is 
especially important when attempting to recruit and retain highly 
effective teachers. A clear understanding must exist for how teachers 
can attain rewards and growth in student achievement must be integrated 
into the system. I have enclosed a copy of the Louisiana Comprehensive 
Teacher Compensation Framework that was recently developed by the 
State's Blue Ribbon Commission for Educational Excellence. The 
framework identifies 7 key elements, 10 steps to plan implementation, 
an action plan, and a question and response guide to help districts in 
Louisiana select or develop a comprehensive teacher compensation model. 
Providing financial incentives for schools and districts to implement 
comprehensive teacher compensation models and providing opportunities 
for states to learn about models that are impacting student achievement 
are two ways in which the federal government can help schools and 
districts overcome this barrier.
    The third barrier is the lack of effective principals in schools. 
Effective teachers are not going to remain within schools that are not 
led by effective principals. Louisiana's high poverty/high performing 
schools all have effective leaders who have created the types of 
working conditions and environments that support students, parents, and 
teachers. Principals and their faculty need to be provided the 
flexibility to hire teachers who possess the values and skills that are 
important for their community of learners, and they need the 
flexibility to determine how funds can best be used to address needs at 
their schools. The continued focus at the federal level on principal 
effectiveness needs to be continued.
    Please feel free to contact me if you are in need of additional 
information.
            Sincerely,
                                    Jeanne M. Burns, Ph.D.,
     Associate Commissioner for Teacher and Leadership Initiatives.
                                 ______
                                 
    [The material referred to may be accessed at the following 
Internet address:]

         http://edlabor.house.gov/documents/111/pdf/testimony/
         20100504JeanneBurnsRespondsToQuestionsForTheRecord.pdf

                                 ______
                                 
                                        Teach Plus,
                            220 Congress Street, Suite 502,
                                          Boston, MA, May 18, 2010.
Hon. George Miller, Chairman,
Committee on Education and Labor, 2181 Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: Thank you for forwarding the thoughtful 
questions of the Committee.

    Response to the inquiry by Representative Chu:

    The process of moving T3 to implementation had multiple stages and 
involved teachers in different ways at each stage.
    Unifying the Teachers. Ready for the Next Challenge, the teacher-
developed proposal that evolved into T3, was a product of the first 
Boston cohort of the Teach Plus Policy Fellows program. The Policy 
Fellows program is a highly selective program for teachers in years 3-
10 of their careers who are interested in taking an active role in 
education policy. This group of 16 teachers:
    <bullet> Met on a monthly basis for 18 months;
    <bullet> Studied the research on teacher quality policy; and
    <bullet> Received guest lectures from top policy leaders such as 
the state Secretary of Education and several Harvard University 
professors.
    The goal of the Policy Fellowship is for teachers to advocate for a 
policy change (or changes) that will improve urban schools and promote 
the retention of top teachers.
    This particular group of teachers was galvanized by the research on 
the inequitable distribution of effective teachers. Most of them 
entered teaching to work with the most underserved students and felt 
better equipped to be successful with those students now that they had 
a few years in the classroom under their belts. They saw the dearth of 
experienced, effective teachers in low-performing schools as a solvable 
problem.
    At the same time as they were reading this research, they were 
meeting with state education leaders in their monthly sessions. These 
leaders repeatedly talked about the need to determine intervention 
strategies for newly identified ``turnaround'' schools. They were 
interested in the ideas of teachers. This helped the teachers to 
recognize this as a possible policy opportunity.
    In sum, it was Teach Plus that provided the forum for the teachers, 
but it was the research and the emerging focus on turnaround among 
state and district policy makers that sharpened the teachers' focus.
    Building Public Support. The teachers launched Ready for the Next 
Challenge at a public forum in Boston in April 2009. Approximately 150 
leaders from the Boston area attended. Kati Haycock of the Education 
Trust gave a keynote address was followed by a presentation by the 
teachers. Prior to the event, the teachers met with the Superintendent 
of the Boston Public Schools, the President of the Boston Teachers 
Union and the state Deputy Commissioner of Education to describe their 
proposal.
    There were two key constituencies whose support was critical to the 
program moving forward:
    1. The Boston Public Schools was in a major budget deficit. Also, 
while a proposal by teachers had a basic appeal, the district did not 
have the capacity to implement it. Teach Plus staff helped to move the 
proposal forward to action by meeting regularly with the district and 
helping to fill in the details needed for implementation. A joint Teach 
Plus-BPS planning committee (which involved one of the teachers who 
wrote the proposal) started to flesh out the details of recruitment, 
selection and support for the program. Teach Plus staff played a 
pivotal role in fundraising for the program.
    2. The Boston Teachers Union might object to a program that 
conferred elevated status on some teachers and paid them differently. 
This objection by the union was a very real possibility throughout the 
process. Two reasons it gained union acceptance were a). it was 
developed by teachers and b). we proposed it directly to the union 
leadership before the public event and engaged them on a regular basis 
thereafter. Several of the Policy Fellows who wrote the proposal had 
been (or became) active in the union. Thus, it wasn't just an anonymous 
group of teachers without relationships to the union leadership. We had 
strong bridges in a few teachers. In addition, we held large public 
events for groups of about 100 teachers four times during the year. The 
union leadership knew Teach Plus was working with a large subset of the 
union.
    Implementation. Implementation was done in large part by Teach Plus 
staff. We hired a T3 Director to coordinate and lead the program. She 
worked with a design firm to develop our marketing materials, scheduled 
regular meetings with BPS to plan the selection process and the summer 
training. Going forward, she will be the liaison between Teach Plus and 
the 3 schools that are a part of the T3 pilot.

    Response to the inquiry by Representative McMorris Rodgers:

    Ineffective teachers are a drain on both students and other 
teachers. My greatest concern, in talking with hundreds of high-
performing teachers is that low-performing teachers drive high-
performing teachers away from the profession because they do not want 
to be a part of a mediocre enterprise.
    We believe the strongest lever to removing ineffective teachers is 
reform of the tenure process. Unlike the rigorous process by with 
tenure is granted in higher education, tenure at the elementary and 
secondary levels is largely a non-event. Most all teachers who make it 
to about their third year in the classroom earn tenure. This amounts to 
a $2 million decision per teacher for districts when lifetime earnings 
and pension are calculated. Yet, districts pass most teachers through 
without serious consideration.
    High-performing teachers are looking for something to aspire to in 
the second stage of their careers; tenure could be a mark of 
distinction for our best teachers. Instead, it is insulting to high-
performing teachers. The lack of process and rigor clarifies to them 
that they are not part of a real ``profession''.
    Early in their careers, low-performing teachers do not yet have the 
job assurances that come with tenure. This is the time to evaluate them 
carefully, based on transparent, rigorous standards and build a case 
for the dismissal of teachers who show little competence or improvement 
in their first few years.
    Thank you again for your interest.
            Sincerely,
                                Celine Coggins, Ph.D., CEO,
                         Monique Burns Thompson, President,
                                                        Teach Plus.
                                 ______
                                 

  Marie Parker-McElroy's Response to Question Submitted for the Record

    It is true that we have invested substantially in improving 
education in the last several decades with little dramatic change in 
student learning. The students we educate in the U.S. and what we 
expect them to learn changes with societal, political, and economic 
changes. For example the current plan to establish national standards 
is one example of a change educators experience. As professionals, 
teachers are eager to continue to learn, yet for too long what they 
learn and how they learn has been so removed from what their day-to-day 
work is. Rather than sending teachers out of school to learn or to send 
students home so teachers can learn, it is time to redesign schools so 
learning is an integrated part of every educators' workday. I 
personally want to be able to work more closely with my peers to 
explore learn more about how we can adjust instruction to meet the 
needs of the all learners we serve in our school. We want to learn how 
to engage English language learners in content for which they may have 
no background. We want to learn how to adapt what we teach to challenge 
our most successful students. We want to learn how to ensure all 
students, regardless of their background or previous academic 
performance, rigorous content standards. We want to know how to assess 
student learning so that learning is not temporary, but rather 
meaningful and related to students' life experiences.
    Teachers' roles have increased dramatically and expectations of 
them have changed accordingly. To support them and expand their 
teaching expertise, school and district leaders can alter the type and 
amount of professional learning teachers experience. Up to now, many 
teachers have participated from professional learning that is distant 
from their day-to-day work, even physically removing them from 
classrooms to send them to workshops. When they return to school filled 
with great intention, new ideas, and renewed passion for their work, 
they have little or no support to implement what they have learned and 
expectations that the transformation in their practice is 
instantaneous. Refining and expanding practice requires sufficient time 
to integrate the new ideas into their classroom practice. It requires 
feedback and support from coaches, peers, supervisors. It requires 
opportunities to assess and reflect on their practice to make ongoing 
improvements so they continue to grow.
    To ensure all students are successful, I recommend that teacher 
professional learning occur at school, among teams of colleagues, 
within their workday, be directly connected to the content they 
teacher, be facilitated by teacher leaders, school leaders, or others 
with special preparation to guide this form of professional learning, 
be evaluated for its impact on teaching effectiveness and student 
achievement, and occur continuously throughout a teachers' career. 
Rather than paying teachers extra for learning, a system most common in 
school districts with a lane approach to salary that has increases 
inequity among the quality of teaching in classrooms, I want teachers 
to have a fair salary, a workday that embeds learning into it, and a 
requirement to for continuous improvement. I am confident that students 
can reach their full academic potential when teams of teachers are 
actively engaged in professional learning based upon data and the needs 
of their own students and organized in a structure that offers timely 
and embedded team and classroom-based support. I believe that this is 
getting to the heart of classroom ineffectiveness. Congress can help 
establish the standards and expectation for this form of professional 
learning for every educator. I, personally, do not believe the answer 
is driven by unions. I do believe that students can reach their full 
academic potential when teams of teachers are actively engaged in 
professional learning baswed upon data and the needs of their own 
students in an organzied structure that offers timely and embedded team 
and classroom-based support. Federally funded professional development 
should be evaluated for its impact on teacher performance and student 
learning. If it is not working, we need to go back to the `blackboard'. 
This, in my opinion, is the heart of improving effectiveness of our 
teacher workforce and ensure all students are successful.
                                 ______
                                 

Response From Dr. Pamela Salazar--Ensuring a Qualified Teacher in Every 
                     Classroom: Five Considerations

    Students should be prepared for success beyond high school. Whether 
students choose to pursue a career or higher education after high 
school it is certainly our moral imperative that they have a choice.
    The contribution of teachers to student learning and outcomes is 
widely recognized. A teacher's effectiveness has more impact on student 
learning than any other factor under the control of the school. It is 
well-documented that the difference between the performance of a 
student assigned to a top-quartile teacher as compared to a bottom-
quartile teacher can exceed 10 percentile points on a standardized test 
(Gordon, Kane, & Staiger, 2006). However, in spite of knowing how 
critically important the need for effective teachers is, the education 
community has not sufficiently focused on improving teacher 
effectiveness through recruitment, evaluation, development, placement, 
and retention of highly effective teachers.
    This leads to five considerations:
Teacher Tenure
    <bullet> Teacher tenure is a concept that should be re-examined in 
the context of due process procedures that are now in place, but were 
not when teacher tenure was implemented. It must be made harder for 
ineffective teachers to be promoted to tenured positions. Teachers can 
no longer earn tenure for merely surviving the first two or three years 
in the classroom; instead, probationary teachers should be required to 
demonstrate that they are effectively boosting student learning.
    <bullet> Tenure should be a significant milestone that successful 
teachers earn--not a nearly automatic benefit.
Evaluation Systems
    <bullet> Evaluation systems should be designed to improve teacher 
effectiveness for all teachers and not with a primary purpose of 
weeding out the weakest performers. Evaluations need to be fair, 
objective and transparent and be used as a tool to develop more 
effective teachers. Evaluation of individual teachers should be based 
on a various measure of teacher performance on the job. These measures 
might include classroom observations, administrator evaluations, some 
measure of ``value-added,'' or the average gain in performance for 
students assigned to each teacher, teacher work samples, student work 
products, and school growth indicators. Key to the success of this 
proposal is for states to have data systems to link student performance 
with the effectiveness of individual teachers over time so that teacher 
quality can be measured at the state level as compared to the district 
or school level.
    <bullet> Emphasis should be on effective teachers--how to use them 
not only in classrooms but, in mentoring new and struggling teachers 
and as leaders in the school to improve ALL teachers.
Bonus Pay
    <bullet> Current pay practices encourage too few of the strongest 
teachers to work in schools where they are needed the most. Bonuses 
should be paid to highly effective teachers who are willing to teach in 
schools with a high proportion of low-income students. Unfortunately, 
it is more common to see the lowest achieving teachers clustered in the 
poorest schools where students are most in need of effective teaching 
(Education Trust, 2003). Yet, even the best teachers at these poor 
schools are typically paid no more, and sometimes less than at 
wealthier schools. Policies need to be put in place that support high-
achieving teachers to serve in these schools.
    <bullet> We should reward teachers who excel, more effectively help 
many teachers get on the track to excellence, and remove those who 
consistently do not improve from the classroom. Teacher evaluation must 
be transformed from a ``check the box'' approach to a meaningful 
professional activity that not only provides important feedback for 
improvement, but also enables more strategic personnel and 
instructional decisions.
    <bullet> National Board Certification for Teachers can be used to 
attract and retain highly skilled individuals. Many high-status 
professions, like law and medicine, have advanced certification 
opportunities that recognize and acknowledge highly effective knowledge 
and skills. This acknowledgement reinforces teaching as an honored 
profession. In addition, there is a growing body of research that 
acknowledges the contribution of this certification to teacher 
effectiveness (Goldhaber & Anthony (2004). National Board Certification 
for Teachers can be used as a measure to determine additional 
compensation. Support for the candidacy of National Board Certified 
Teachers (NBCTs) is needed throughout all states.
Principal Leadership
    <bullet> Effective principals play a vital role in raising student 
achievement. There is wide recognition that school leaders exert a 
powerful, if indirect, influence on teaching quality and student 
learning. In a review of literature for the American Educational 
Research Association, Leithwood and Riehl (2003) conclude that school 
leadership has significant effects on student learning, second only to 
the effects of the quality of curriculum and teachers' instruction.
    <bullet> Successful students and teachers need the support of 
effective school leadership. The most accomplished principals create a 
school-based learning community that involves teachers, students, 
parents and the community. In addition, the demands and complexity of 
21st century education require more from these leaders. As many current 
principals approach retirement age, it is essential to attract, develop 
and retain the best and the brightest educational leaders to the 
profession to prepare students for the expectations of a global 
economy.
    <bullet> An advanced certification for principals is being 
developed in order to identify, recognize and retain quality leaders. 
The challenge of establishing a high performing teaching and learning 
environment rests on the ability of principals skilled in creating a 
culture of learning that can advance student learning and engage the 
best teachers and staff. Promote and support the candidacy of National 
Board Certified Principals (NBCPs) throughout all states.
    <bullet> The advanced principal certification process will define 
and validate the requirements that identify an accomplished and 
effective principal--supporting motivation among principals and 
prestige for the profession. The program developers have a record of 
developing advanced standards and rigorous assessments that are 
recognized in all 50 states and the District of Columbia. Similarly, 
they are recognized for having the capacity to define excellent 
practice for education leaders and implement a research-based, 
nationwide certification.
Professional Development
    <bullet> Professional development can be better targeted to ensure 
teachers and principals get the support they need to be effective. 
Effective professional development is the lynchpin for ensuring that 
there is a highly qualified teacher for every classroom and a highly 
qualified principal for every school. Effective professional 
development that improves the learning of all students takes place over 
time, is job-embedded, organizes adults into learning communities 
aligned with school and district goals, is led by skillful school and 
district leaders who guide continuous instructional improvement, and 
allows for adult learning and peer collaboration. We must provide all 
teachers with targeted professional development, informed by student 
performance data, that helps them better meet students' needs.
    <bullet> Strong leadership is essential to a successful school, but 
many principals do not have the training or tools they need to make 
strategic use of data to effectively evaluate and support teachers, 
manage their schools, and lead difficult or aggressive change when 
necessary. To effectively lead an evaluation process tied to 
professional development support for teachers, principals need to be 
strong leaders within their schools. Train principals to conduct 
observations, provide feedback, and take action to develop/reward 
teachers or partner with an external, objective reviewer. Doing this 
will help catalyze the process and build capacity in school leadership 
to become self-sustaining.
Recommendation
    Provide federal grants to help states implement these 
considerations. For example, only a few states currently have the 
ability to measure the effect of individual teachers on the performance 
of their students; this capacity must be built both to facilitate the 
evaluation of teachers and to supply schools and teachers with better 
data about what works and what does not. Additionally, there is limited 
funding for high quality professional development. This is especially 
true for principal development and for secondary schools. Data on the 
impact of these practices should be carefully evaluated and if prove 
sound, then with necessary adjustments, these proposals should be 
implemented nationally.
    Education ultimately comes down to the interaction between a 
teacher and a student.
    With effective teachers in every classroom, every child will have a 
better opportunity to learn what he or she needs to know and be able to 
do to graduate prepared for success after high school. With effective 
principals in every school, every teacher will have a better 
opportunity to learn what he or she needs to know and be able to 
prepare all students for future success. These considerations together 
could improve the standing of teaching as a profession built upon 
excellence.

                               REFERENCES

Education Trust (2003). Telling the whole truth (or not) about highly 
        qualified teachers. Washington, D.C. Education Trust.
Goldhaber, D. & Anthony, E. (2004). Can teacher quality be effectively 
        assessed? Wahington, D.C.: Urban Institute.
Gordon, Kane, & Staiger, (2006). Identifying Effective Teachers--Using 
        Performance on the Job. Hamilton Project Discussion Paper. The 
        Brookings Institution. March.
Leithwood, K. & Riehl, C. (2003). What We Know About Successful School 
        Leadership. American Educational Research Association. January.
                                 ______
                                 
                         [Via Electronic Mail],    
                      Office of the Superintendent,
                                           1515 Hughes Way,
                                      Long Beach, CA, May 17, 2010.
Hon. George Miller, Chairman,
Committee on Education and Labor, 2181 Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I write in response to your May 14 letter 
requesting answers to questions raised by representatives Judy Chu and 
McMorris Rodgers in light of your committee's May 4 hearing on 
``Supporting America's Educators: The Importance of Quality Teachers 
and Leaders.''
    Representative Chu asks how an increase in competitive grants would 
impact our long-term fiscal plans. She further inquires as to what 
happens if LBUSD does not receive such funding.
    While such grants would greatly accelerate the closing of 
achievement gaps here, we also have in place protocols to mitigate the 
impact of funding cuts, having reduced our budget for seven of the last 
eight years due to California's budget crisis. Out of necessity, we 
revisit our long-range planning each year to coordinate all resources 
strategically, based upon student performance data. Our data-driven 
approach to planning is one of the primary reasons we have raised 
student achievement while simultaneously cutting our budget. We are 
confident in our ability to compete for grants, but at the same time, 
we also have considerable experience redirecting our human and fiscal 
capital as needed.
    Representative Rodgers asks whether educators and policymakers are 
getting to the heart of teacher effectiveness. He requests our thoughts 
on the underlying barriers, and he inquires as to whether there is too 
much federal involvement or not enough.
    In Long Beach, we believe that collaboration and accountability are 
key to improving teacher quality. We work with our unions, parents, 
local nonprofits and postsecondary institutions to refine the delivery 
of instruction. Our school principals, and ultimately their teachers, 
receive districtwide training in research-proven strategies. Through 
diligent monitoring of data, we hold these employees accountable for 
implementing these strategies. These data are in turn reported up to 
our Board of Education so that we can ascertain and act upon the 
results of our professional development.
    As for the federal government's involvement, we believe that 
academic targets should be set at the federal level, but that local 
educational agencies such as ours should be allowed to decide how we 
reach those targets. Such an approach provides local control while 
still assuring that educators are held accountable for meeting 
established national standards. The key underlying barrier here is that 
federal funding currently exists in too many separate silos, in the 
form of categorical programs and mandates. We need to streamline this 
approach by providing one silo tied to student outcomes, and then 
holding local agencies like mine accountable for those outcomes. That 
is why we also support the withdrawal of federal funding for school 
districts that habitually fail to show improvement. We understand that 
such an approach would be a paradigm shift, but it is vital to 
successful school reform.
    Thank you for including our school district in this important 
discussion. Please let us know if we can be of further assistance.
            Sincerely,
                                Christopher J. Steinhauser,
     Superintendent of Schools, Long Beach Unified School District.
                                 ______
                                 
                                  Randi Weingarten,
                           American Federation of Teachers,
                                                      May 19, 2010.
Hon. George Miller, Chairman,
Committee on Education and Labor, 2181 Rayburn House Office Building, 
        Washington, DC.
    Dear Chairman Miller: I appreciated having the opportunity to 
testify on behalf of the American Federation of Teachers (AFT) at the 
Committee's May 4 hearing on ``Supporting America's Educators: The 
Importance of Quality Teachers and Leaders.''
    As you requested, my written responses to questions from Committee 
members are provided below.
    While the AFT believes there is a place for student learning in 
evaluating teachers, standardized assessments should not be the single 
or predominant factor in teacher evaluation systems. This would lead to 
even more emphasis on teaching to the test and to narrowing of the 
curriculum. As you point out, current testing instruments are limited 
in their ability to capture the full range of learning. Moreover, 
value-added measures are unstable and provide measures of student 
learning that vary enormously from year to year. Although test scores 
may play a role, student achievement should include evidence of growth 
in knowledge and skills based on multiple measures such as student 
presentations, writing samples, portfolios, grades, or capstone 
projects.
    In addition to student test scores and other measures of student 
learning described above, determinations of teacher effectiveness 
should include other evaluation measures based on standards of practice 
that define good teaching and professional practice--what teachers 
should know and be able to do. These would include classroom 
observations, self-evaluations, portfolio reviews, and appraisal of 
lesson plans Because evaluation should help teachers to inform and 
improve practice, systems of evaluation should include ways to support 
teacher growth, including induction, mentoring, ongoing and embedded 
professional development, and opportunities for professional growth. 
Finally, teacher evaluation systems should also include the necessary 
teaching and learning supports. Teachers need resources including the 
time to collaborate with their colleagues and an environment conductive 
to teaching and learning. Measures for assessing a school's teaching 
and learning conditions should be developed and included in a teacher 
evaluation system.
    As I said in my testimony, great teachers are made, not born. We 
must begin by ensuring that teachers receive good preparation in the 
schools they attend. New teachers need assistance to develop their 
skills through high-quality induction programs. All teachers need on-
going, high quality, embedded professional development. I have proposed 
that we augment current federal efforts by providing federal support 
for teacher centers. But in addition to these elements, the 
reauthorization of the Elementary and Secondary Education Act should 
help ensure that teachers have the tools, time and trust they need to 
succeed. School systems should be held responsible for providing 
teachers--and students--with conditions where learning and teaching can 
take place and teachers and students can succeed. These professional 
learning environments should include small classes, a well-rounded 
curriculum, healthy and adequate facilities, current technology, 
opportunities and time for collaboration, and wrap around services for 
students to help combat the effects of poverty. These necessary 
supports are most likely to be achieved in an atmosphere of trust, 
where there is true collaboration and teachers and their unions have a 
real voice in reform efforts.
    Again, thank you for the opportunity to share our views and 
recommendations with the Committee.
            Sincerely,
                               Randi Weingarten, President.
                                 ______
                                 

    Marcus A. Winters' Response to Representative McMorris Rodgers' 
                                Question

    The heart of the teacher ineffectiveness issue is the current 
system's insistence that all teachers are equally effective in the 
classroom. We know from both empirical research and our own personal 
experience that there is substantial variation in teacher quality. The 
nation stands little chance of substantially improving teacher 
effectiveness unless school systems develop evaluation tools capable of 
distinguishing between the most and least effective teachers and adopt 
policies that act upon the results of these evaluations.
    There are some technical barriers to achieving these goals. While 
current statistical techniques are strong enough to identify the 
teachers likeliest to be the most and least effective, researchers must 
continue to improve upon these techniques to measure a teacher's 
independent contribution to her student's learning. Further, test 
scores are insufficient for fully evaluating a teacher's performance 
and thus should be only part of the evaluation system. School systems 
should experiment with how much evaluation systems weigh test scores 
and other forms of evaluations, including classroom observations.
    But the most important obstacles to improving teacher quality are 
political. In recent months we have seen some encouraging signs of 
cooperation on this issue from the American Federation of Teachers and 
some of its local affiliates. Nonetheless, in many other individual 
cases teachers' unions have continued to lead the fight against reform. 
They have opposed teacher evaluations and laws that would make it 
feasible for public schools to remove their least effective teachers, 
such as weakening the job protections of tenure and eliminating first-
in, last-out layoff rules.
                                 ______
                                 
    [Whereupon, at 4:55 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
